<html>
<title> - REAUTHORIZING HEAD START: PREPARING CHILDREN TO SUCCEED IN SCHOOL AND IN LIFE</title>
<body><pre>[Senate Hearing 108-314]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-314

 REAUTHORIZING HEAD START: PREPARING CHILDREN TO SUCCEED IN SCHOOL AND 
                                IN LIFE

=======================================================================

                                HEARING

                               BEFORE THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

   EXAMINING PROPOSED LEGISLATION AUTHORIZING FUNDS FOR HEAD START, 
 FOCUSING ON PROGRAMS TO PREPARE CHILDREN TO SUCCEED IN SCHOOL AND LIFE

                               __________

                             JULY 22, 2003

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions




88-542              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  JUDD GREGG, New Hampshire, Chairman

BILL FRIST, Tennessee                EDWARD M. KENNEDY, Massachusetts
MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
CHRISTOPHER S. BOND, Missouri        BARBARA A. MIKULSKI, Maryland
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York

                  Sharon R. Soderstrom, Staff Director

      J. Michael Myers, Minority Staff Director and Chief Counsel

                                  (ii)

  




                            C O N T E N T S

                               __________

                               STATEMENTS

                         TUESDAY, JULY 22, 2003

                                                                   Page
Gregg, Hon. Judd, a U.S. Senator from the State New Hampshire....     1
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................     3
Hill, Windy M., Associate Commissioner, Head Start Bureau, 
  Administration on Children, Youth and Families, U.S. Department 
  of Health and Human Services; G. Reid Lyon, Chief, Child 
  Development and Behavior Branch, National Institute of Child 
  Health and Human Development, National Institutes of Health, 
  accompanied by Russ Whitehurst, Director, Institute For 
  Educational Sciences; Marnie S. Shaul, Director, Education, 
  Workforce and Income Security Issues, U.S. General Accounting 
  Office, Washington, DC; Amy Wilkins, Executive Director, Trust 
  For Early Education, Washington, DC; and Janis Santos, 
  Executive Director, Holyoke-Chicopee-Springfield Head Start 
  Center, Springfield, MA........................................     8

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Windy Hill...................................................    40
    G. Reid Lyon.................................................    44
    Marnie S. Shaul..............................................    51
    Janis Santos.................................................    57
    Amy Wilkins..................................................    62
    Catholic Charities, USA......................................    66
    Stanley B. Peck..............................................    68
    Case study--Raising Preschool Teacher Qualifications.........    70
    Manda Lopez..................................................    85
    Navajo Nation................................................    88

                                 (iii)

  

 
 REAUTHORIZING HEAD START: PREPARING CHILDREN TO SUCCEED IN SCHOOL AND 
                                IN LIFE

                              ----------                              


                         TUESDAY, JULY 22, 2003

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room SD-430, Dirksen Senate Office Building, Senator Gregg 
(chairman of the committee) presiding.
    Present: Senators Gregg, Alexander, Warner, Kennedy, Dodd, 
Harkin, Mikulski, Jeffords, Murray, Reed, and Clinton.

                   Opening Statement of Senator Gregg

    The Chairman. It is 10 o'clock, so we are going to begin. I 
understand Senator Kennedy is headed in this direction, and 
when he gets here, we will proceed with his statement. But I 
wanted to get my statement in and then get started on the 
hearing.
    Today we are going to be talking about Head Start, which is 
a program that has had considerable success over the years, and 
I think we can take great pride in it, really, as a Federal 
Government initiative to try to get kids, preschool children, 
into an atmosphere which is nurturing and healthy.
    It was begun in 1975 as part of the War on Poverty. It has 
a $7 billion budget, and it supports about 900,000 children who 
are of extreme low income in most instances.
    Its strength in my opinion is that it has been community-
based, that it has always involved significant community 
participation, and that it has been focused on making sure that 
the children who come into the program, many of whom come from 
difficult family situations, get a healthy environment and a 
decent meal or two through the day and are given some ideas on 
how to get along with other kids and, hopefully, ideas on how 
to deal with life and move on and get ready for school.
    There has been considerable discussion about its 
reauthorization. Obviously, the House has already produced a 
bill. I believe very strongly that there needs to be a building 
upon what is I think a very strong foundation in the program, 
and that building should be focused primarily on a more 
aggressive approach in the area of academic achievement, giving 
these kids a better chance at succeeding when they get to the 
first grade by first off giving them some of the tools they 
will need to be competitive with their peers who are coming 
from other experiences into the first grade or into 
kindergarten and giving them stronger language skills, stronger 
skills in the area of basic knowledge of the alphabet and 
hopefully some phonics and basic numerology.
    In addition, in strengthening the academic component, I 
think we also need to look at some accountability to make sure 
that we have Head Start programs that are actually 
accomplishing what we desire them to accomplish, and we also 
need to align the programs with the elementary schools that 
they feed into so that both the leaders of the Head Start 
community within the Head Start Program and the folks who are 
going to get these children as they move forward into 
kindergarten and first grade will have a sense that they are 
all talking off the same script.
    Those are my priorities as we move forward in this 
reauthorization. I do not wish to reinvent the wheel. I think 
we have basically a very strong product to work from in the 
present Head Start Program, but I think there are ways to make 
it a better program for the children who are participating in 
it, and I intend to work toward accomplishing that as we go 
through reauthorization.
    We are joined today by five witnesses who are going to 
formally testify. Windy Hill has been the associate 
commissioner of the Head Start Bureau since January of last 
year. Prior to joining the Bureau, Ms. Hill served as executive 
director of Centex Family Services in Texas, which administered 
nine Head Start centers in four counties.
    Dr. Reid Lyon is a research psychologist and chief of the 
Child Development and Behavior Branch within the National 
Institute of Child Health and Human Development at NIH. Dr. 
Lyon received a Ph.D. from the University of New Mexico, and 
prior to coming to NIH, Dr. Lyon taught children with learning 
disabilities.
    We also have Marnie Shaul, who is the director of education 
issues at the General Accounting Office. She is responsible for 
the studies that GAO undertakes for Congress on early childhood 
programs and elementary and secondary school education. Ms. 
Shaul has had a variety of career activities including 
research, teaching, and public policy.
    Amy Wilkins is executive director of Trust for Early 
Education which was established in 2002 to provide a strong and 
effective voice in support of high-quality voluntary preschool 
for 3- and 4-year-olds. Prior to working with the Education 
Trust, Ms. Wilkins worked at the Child Defense Center, and she 
also served in the media.
    I believe Senator Kennedy will introduce Ms. Santos, who is 
from Holyoke, I believe, which is a great town; I have spent 
many days in Holyoke.
    And Dr. Whitehurst, who is head of OERI, which does 
research in the area of education, is here to answer questions 
as well.
    Senator Kennedy.

                  Opening Statement of Senator Kennedy

    Senator Kennedy. Thank you very much, Mr. Chairman, for 
having this hearing and for recognizing the importance of 
taking action on this legislation. We are looking forward to 
working with you.
    Today's hearing gives us the opportunity to discuss the 
achievements of Head Start and the ideas that will be 
considered for its reauthorization. For 38 years, Head Start 
has been a helping hand for our Nation's neediest families and 
children. Head Start today gives nearly one million young 
children the support they need to begin school ready to learn. 
It guarantees that children see doctors and dentists and are 
immunized against childhood diseases. It teaches children to 
eat healthy meals. It welcomes parents into its classrooms and 
urges them to participate actively in the administration of its 
local programs.
    Three decades of solid research show that Head Start works. 
Children who participate in the program may gain some 
vocabulary, become more interested in books, and learn to get 
along better with one another. Children from the same 
background who do not participate in Head Start do not make 
these gains.
    But the need by children across the country for these 
services is miles from being met. Because of inadequate 
funding, 40 percent of those eligible still have no Head Start. 
In the case of Early Head Start, which serves children ages 
zero to 3, the figure is a shameful 97 percent. Ninety-seven 
percent of children eligible for Early Head Start have no 
access to it.
    The President's budget for next year recommends only enough 
funding to cover inflation; it has no funding to serve any 
additional children. That is wrong. Full funding of Head Start 
should be a high priority for Congress and the Nation. Putting 
Head Start on the path to full funding would require an 
additional $1 billion for the coming year compared to the $148 
million the administration proposes.
    Obviously, money is not the only answer. But it is a large 
part of it. New resources should come with proven effective 
reforms that will genuinely improve Head Start, not undermine 
it. I am confident we can build on Head Start's record of 
success by making several key improvements.
    Better coordination with State and local programs makes 
sense. We can align Head Start with early learning standards in 
the States, facilitate coordination between Head Start and 
local elementary schools, and provide better training and 
support for Head Start staff and for those working in early 
education programs as well. This kind of coordination should be 
our goal in all 50 States.
    We should continue Head Start's focus on the whole child 
and strengthen its focus in the area of school readiness. Head 
Start needs strong educational standards that emphasize 
language and literacy, expanded vocabulary, and pre-math 
skills.
    The key point here is that even if children are excited 
about books and know some letters of the alphabet and can 
recognize some numbers, they are not ready for school unless 
they can also follow a teacher's directions and cooperate with 
the child in the next seat or across the aisle. The development 
of a child's pre-literacy and pre-math skills is important, and 
so is the development of their social and emotional skills. 
Children need and deserve support in each of these areas.
    We also need to increase our investment in teachers in Head 
Start classrooms. Head Start children need the best possible 
instruction to succeed, and Head Start teachers and staff need 
to know the families and the children they serve.
    In 1998, we set a goal for the program to ensure that half 
of all teachers earn an associate degree by 2003. Head Start 
has met that goal. In fact, Head Start can be a model for 
career development. We should work toward the goal of a Head 
Start teacher with a bachelor's degree in every classroom, and 
we should pay those teachers a fair wage--give them the ongoing 
support to keep them in the program.
    We should also strengthen the accountability in Head Start. 
Head Start reviews are already among the most extensive in the 
field. All Head Start programs should use the data from these 
reviews to improve their programs and enhance the role of 
annual evaluations.
    I support the development of a high-quality assessment for 
Head Start children. But any assessment of 4-year-olds needs to 
be very carefully prepared. It has to be valid and reliable and 
balanced in what it measures--not just reading and math skills 
but social and emotional skills as well. It must be fair, 
culturally appropriate, and recognize the needs of children 
whose first language is not English.
    Above all, though, we cannot afford to undermine the very 
reforms we are trying to achieve. State block grants are not 
reform. A block grant for Head Start would mean no guarantee of 
services for the neediest children; no guarantee of medical 
checkups, dental visits, and screenings for hearing and vision; 
no guarantee of support for parents. It would mean lower 
quality and lower standards, and it would jeopardize the time 
that children spend learning.
    I oppose any effort to block-grant Head Start--not in 50 
States, not even in one State. Why take a chance on any block 
grant that would leave any young child behind?
    We know that we can strengthen Head Start and do it in ways 
that do not weaken it. We are fortunate to have witnesses today 
who will share their expertise and insights on strengthening 
Head Start.
    Thank you all for joining us this morning. We are looking 
forward to hearing from each of you.
    I appreciate the courtesy of the chair in letting me 
introduce Janis Santos. Ms. Santos has served as executive 
director of the Holyoke-Chicopee-Springfield Head Start Center 
since 1979 and is currently on the National Head Start 
Association Board of Directors.
    Janis began her teaching career by opening up the first 
early childhood center in Ludlow, MA, in 1973 under the Head 
Start Program. Under her leadership, the Holyoke-Chicopee-
Springfield Head Start Center has grown to be the second-
largest Head Start Center in Massachusetts and the largest 
provider of early education in Western Massachusetts.
    Janis has received numerous awards for community service 
distinction and nonprofit operational excellence. She has been 
a consistent and strong voice for Head Start programs both in 
Massachusetts and nationwide, having served as chairperson of 
the Massachusetts Head Start Directors Association, chairperson 
of the New England Head Start Association, and a member of the 
National Advisory Panel for Head Start 2010.
    Janis is a Massachusetts native, and I am particularly 
proud to welcome her today. She is a good friend and counselor 
and advisor. I do not make a move without listening to Janis.
    Janis, we are glad to have you here.
    The Chairman. Janis, we need you. In a couple days, I would 
like to call you and ask you to make some suggestions to 
Senator Kennedy; there are some moves I want him to make. 
[Laughter.]
    Before we begin I have statements from Senators Enzi and 
Ensign.
    [The prepared statements of Senators Enzi and Ensign 
follow:]

                   Prepared Statement of Senator Enzi

    Mr. Chairman, I want to express my thanks to the 
individuals who will testify about the important issue of early 
childhood education and the reauthorization of the Head Start 
program. As a father and soon-to-be grandfather, I am very 
interested in early childhood development and believe it is one 
of the most important issues to come under this Committee's 
jurisdiction.
    When the Head Start program was developed over 35 years 
ago, it was built on the promise that the Federal Government 
would take a role in helping disadvantaged children overcome 
the developmental obstacles associated with poverty. Where 
these children lacked family support necessary to succeed in 
life, Head Start would provide a safe environment where they 
could learn and grow. In addition to educating the children, 
the program would also take on an important role in educating 
families and providing essential services to children, like 
nutrition and hygiene assistance, in order to give these 
children the best start possible.
    Head Start is now one of the largest Federal initiatives to 
focus on children under five, reaching hundreds of thousands of 
children nationwide, in thousands of centers, with an army of 
teachers and support staff. More than half of the program's 
teachers have earned degrees in early childhood education or a 
related field. In Wyoming, there are almost 2,000 children 
enrolled in Head Start programs in more than 100 classes, 
including the tribal Head Start centers. Each class is staffed 
by a teacher who cares deeply about the development of the 
children in his or her classroom, as well as the ability of the 
child's family to provide a safe and stable home.
    Despite the investment in the program over its nearly 40-
year history, a significant question has been raised about the 
effectiveness of Head Start. Study after study has documented 
how children who enter a Head Start program are better off when 
they leave. That information is encouraging and is 
appropriately brought up in this hearing, but a troubling 
statistic that has accompanied many of these studies is that 
children leaving Head Start continue to lag behind their peers 
who come from more advantageous circumstances.
    According to information released by the Department of 
Health and Human Services in their Family and Child Experiences 
Survey (FACES), most children in Head Start couldn't identify 
10 letters, a requirement in the last reauthorization of this 
program. In fact, many of the children couldn't identify any 
letters at all. Across the board, children leaving Head Start 
programs fell below the national average in vocabulary, letter 
recognition, early reading and early mathematics.
    To me, this sends a clear signal that the Federal 
Government needs to ensure the program promotes learning in the 
same way it does the health and well being of these children. 
In essence, the Head Start program has focused so much on 
promoting a stable learning environment that the learning has 
been overlooked. Based on this information, it seems 
unnecessary for the Federal Government to require all Head 
Start teachers to attend a post-secondary institution and earn 
a degree in early childhood learning if the program itself 
isn't designed with an appropriate focus on the children's 
cognitive development.
    According to a joint study published recently by the 
National Research Council and the Institute of Medicine 
entitled Neurons to Neighborhoods, the most important years in 
terms of cognitive development are the earliest. I believe we 
must work to ensure that the Head Start program emphasizes an 
appropriate learning environment, not only by providing health 
and social services for children, but also by challenging them 
to learn and develop in a way that will put them on a level 
field with their peers from more fortunate circumstances. I 
believe this is consistent with the goals that guided the 
development of Head Start over 30 years ago.
    Part of the discussion on early learning should be how Head 
Start might better prepare students for elementary school by 
strengthening the program's performance standards. Many of the 
students leaving Head Start are better off than when they 
entered, and that is important, but I feel it is important to 
ask the question of whether or not Head Start students are 
doing as well as they could be. If the Head Start program can 
be revised to include stronger, reachable academic goals, that 
needs to be a part of the discussion. We owe it to the children 
participating in this program to design it in a way that they 
can start school on level footing with their peers.
    I also believe the discussion should include the issue of 
collaboration between Head Start and similar programs operating 
at the State level. Many States are running preschool programs, 
including Wyoming. It makes sense to get the staff and 
administrators from the different programs talking to each 
other to make sure the children in these programs are getting 
the best material and curricula available, so children in 
several different types of programs can improve simultaneously.
    The Senate has an important role to play in helping to 
improve Head Start so it can provide better support for the 
dedicated men and women who make the program function from day 
to day, so Head Start children can succeed just as well as 
their peers. I believe we need to explore potential program 
changes to see where we might build on Head Start's successes 
and address any shortcomings. I am convinced that an increased 
emphasis on early education, combined with Head Start's success 
in providing a safe and stable learning environment can serve 
as the successful foundation for thousands of American children 
participating in the program.
    With these questions in mind, I am grateful to the experts 
appearing here today who have brought their collective 
experience to share with the Committee. I am confident that 
this hearing will be the starting point for a valuable 
discussion of how the Senate might address potential changes to 
the Head Start program, as we paint a vivid picture of how well 
the program is doing to help disadvantaged children reach their 
potential.
    Thank you, Mr. Chairman.

                  Prepared Statement of Senator Ensign

    Mr. Chairman, I am pleased that this committee is moving 
forward with the reauthorization of the Head Start program. As 
a new member of this committee, I am looking forward to playing 
an active role in this process.
    While the Head Start program has been successful for many 
of the children and families who have enrolled. However, I 
believe that the program can do better.
    The Head Start program should continue to promote the well-
being of the whole child. However, that should not be 
incompatible with an effort to focus more on early literacy 
skills. This program needs to ensure that all children leaving 
Head Start programs are entering kindergarten at a skill level 
equal to their peers. That is not happening right now. While I 
agree that many of these children are entering kindergarten at 
a higher level than they would have without the assistance of 
the Head Start program, these students are still not at a level 
comparable to other children their age. It would be a 
disservice to Head Start kids to ignore this disparity. It 
would be a disservice to conduct business as usual while Head 
Start kids are being left behind.
    I was looking forward to the results from the completion of 
the first national-level research study on this program and was 
disappointed to learn that the Department of Health and Human 
Services has delayed the completion of this study until 2006. 
This research would have provided us, as policy makers, with 
the first comprehensive nationwide study of this important 
program and the impact it has had on the children and families 
it serves. Every witness testifying today will point to 
research regarding the effectiveness of the Head Start program, 
none of which I am denying as untrue or invalid, but it would 
have been very useful to have a fully comprehensive study as we 
consider the reauthorization of this program.
    It is my hope that we can work on this committee to improve 
the coordination at the local level between Head Start programs 
and early childhood and childcare programs. Currently there is 
no mechanism in place for local Head Start grantees to 
coordinate the services they provide with those provided by 
State and local early education providers. This coordination is 
necessary to ensure that we are not duplicating services, and, 
more importantly, that children and families who need some 
extra help are getting the services they deserve.
    In closing, I would like to reiterate that I do believe 
that this program can do better for both the children and 
families that it serves, and I believe that many of those 
improvements can be made by this committee.
    The Chairman. We will begin the testimony, then, with Ms. 
Hill.

STATEMENTS OF WINDY M. HILL, ASSOCIATE COMMISSIONER, HEAD START 
 BUREAU, ADMINISTRATION ON CHILDREN, YOUTH AND FAMILIES, U.S. 
 DEPARTMENT OF HEALTH AND HUMAN SERVICES; G. REID LYON, CHIEF, 
 CHILD DEVELOPMENT AND BEHAVIOR BRANCH, NATIONAL INSTITUTE OF 
  CHILD HEALTH AND HUMAN DEVELOPMENT, NATIONAL INSTITUTES OF 
HEALTH, ACCOMPANIED BY RUSS WHITEHURST, DIRECTOR, INSTITUTE FOR 
  EDUCATIONAL SCIENCES; MARNIE S. SHAUL, DIRECTOR, EDUCATION, 
 WORKFORCE AND INCOME SECURITY ISSUES, U.S. GENERAL ACCOUNTING 
OFFICE, WASHINGTON, DC; AMY WILKINS, EXECUTIVE DIRECTOR, TRUST 
    FOR EARLY EDUCATION, WASHINGTON, DC; AND JANIS SANTOS, 
  EXECUTIVE DIRECTOR, HOLYOKE-CHICOPEE-SPRINGFIELD HEAD START 
                    CENTER, SPRINGFIELD, MA

    Ms. Hill. Good morning, Mr. Chairman and members of the 
committee. As associate commissioner of Head Start and also as 
a former Head Start child and mother of a Head Start child, I 
appreciate this opportunity to discuss the President's plan to 
strengthen Head Start.
    The House took a major step toward ensuring that Head Start 
children have the skills they need to succeed in school by 
marking up the School Readiness Act of 2003. We look forward to 
building on the momentum created by the House bill and your 
hearing today to move the Head Start reauthorization forward in 
the coming weeks.
    Head Start was launched in 1965 as part of a bold ``big 
idea'' that no child should be limited in his or her education 
because of the circumstances of their family. None of us should 
be satisfied until we have achieved the vision reflected in the 
``big idea'' that is synonymous with Head Start--that 
economically disadvantaged children should arrive at school on 
a more level playing field with economically advantaged peers--
a challenge for us to do even better.
    The Head Start Program has triggered changes in early care 
and education across the country. More than 40 States and the 
District of Columbia now have early childhood programs of their 
own. Numerous States are revising their standards for child 
care and preschool programs, and as research has demonstrated 
the importance of providing comprehensive services, States are 
now involved in trying to integrate a multitude of other 
programs aimed at young children and their families.
    Federal and State Governments currently spend more than $23 
billion each year for child care and preschool education, and 
much more when you consider the other State health, nutrition, 
and welfare-related programs that serve the same children and 
families.
    At the same time, however, although Head Start children 
make progress in areas of school readiness during the Head 
Start year, they continue to lag behind their more economically 
advantaged peers on a number of important measures of early 
literacy and math skills at kindergarten entry.
    In addition, we are seeing an alarming lack of coordination 
between Head Start and State-administered programs that is 
undermining our ability to provide high-quality preschool 
services to as many children as possible. President Bush is 
asking Congress to include a provision in the reauthorization 
of the Head Start Act to allow interested States to integrate 
Head Start in their overall plans for preschool services.
    Under both the President's proposal and in the House bill, 
States could offer the opportunity to coordinate their 
preschool programs and child care programs with Head Start in 
exchange for meeting certain accountability. States eligible to 
participate must submit a State plan for approval to the 
Secretary of Health and Human Services that addresses several 
fundamental issues. Each State must indicate in its plan how it 
would better coordinate Head Start with State-administered 
preschool programs.
    In addition, the State plan must address how it will work 
to develop goals for all preschool children in the State and 
devise an accountability system to determine whether children 
are achieving the goals.
    States must describe in their plan how they will maintain 
the comprehensive array of child development services for 
children supported by Head Start funds and guarantee that they 
will continue to provide at least as much financial support for 
State preschool programs and Head Start as they are currently 
providing.
    The President's proposal, and now the School Readiness Act, 
share characteristics that are frequently misunderstood that I 
would like to clarify.
    First, neither the President nor the House is proposing to 
block grant Head Start funding to States.
    Second, States taking advantage of this option must make a 
commitment to maintain the comprehensive services currently 
available to Head Start children under the State plan as 
supported with Head Start funds.
    And third, States who choose this option and who have their 
plans approved will still be accountable to the Federal 
Government for their use of Head Start funds and for achieving 
positive outcomes for children.
    The President's plan and the School Readiness Act will not 
allow States to supplant State preschool or any other State 
funds with Head Start dollars. Neither would a State be 
eligible of they reduced their State spending levels on early 
childhood programs.
    One of the reasons why the Head Start Program has remained 
strong is that it adapts to accommodate the changing needs of 
children and families. Most important, we cannot afford to have 
children slip through the cracks that nonsystematic approaches 
create. Our children and families deserve the best programs 
that we can provide and that communities and States can 
support.
    Thank you, and I will be happy to answer any questions you 
may have.
    The Chairman. Thank you, Ms. Hill.
    [The prepared statement of Ms. Hill may be found in 
additional material.]
    The Chairman. Dr. Lyon.
    Mr. Lyon. Thank you, Mr. Chairman and Senator Kennedy, for 
the opportunity to come before you and talk to you about the 
research that we have done at NIH, at the NICHD, with respect 
to child development and how that interfaces with Head Start 
and other early childhood programs.
    To my left is Dr. Russ Whitehurst, director of the 
Institute for Educational Sciences, who not only holds a role 
in coordinating research nationally on this same topic but 
himself is a national expert in early childhood education and 
the study of such.
    Over the past 15 years, we have learned that our preschool 
children can acquire a great deal of information about 
language, reading, and cognitive skills, more than we 
originally thought. We know that preschool kids from 
disadvantaged environments are significantly behind their more 
affluent age-mates in linguistic skills essential for later 
reading and language development.
    Our research tells us that this is because youngsters 
growing up in low-income environments engage in significantly 
fewer literacy interactions, such as shared book-reading and 
language interaction, such as child-adult discussions.
    As Hart and Risley pointed out in their NICHD-supported 
research with professional working class and welfare families, 
the average child on welfare was having half as much experience 
listening and speaking to parents--about 616 words per hour--as 
the average working child--1,251 words per hour--and much less, 
obviously, only one-third of the average professional family 
youngster who is receiving 2,153 words per hour.
    What does this mean? It means that our preschool programs 
must provide children from low-income families with systematic 
and evidence-based interactions to close these gaps. In many 
ways, a comprehensive preschool program designed to help 
children develop the necessary cognitive, language, early 
reading, social and emotional competencies is their last hope 
to eventually succeed in school.
    In the next decade, if the American early care and 
education system does not change, millions more children will 
never realize their potential.
    What makes this issue so compelling and troublesome is that 
it does not have to be this way. We do know a great deal about 
the foundational preschool abilities that predict success or 
failure in reading in the early grades, and we are making 
substantial progress in identifying the characteristics of 
high-quality preschool programs that are able to help 3-and 4-
year-old children acquire these critical abilities.
    We do know that the development of oral language 
abilities--what I mean by that is vocabulary and an 
understanding of grammar, the development of phonological 
awareness--and what I mean by that is the understanding that 
words are structured in smaller bits, either syllables or 
sounds--and the development of print knowledge, that is, 
knowing your letters and letter sounds and so on--development 
of these capabilities during the preschool years is absolutely 
essential for their development of later language and literacy 
skills--absolutely essential.
    These critical language and cognitive abilities can be 
developed, by the way, in warm, nurturing environments that can 
also enhance the development of emotional health and social 
competency, as both the chairman and Senator Kennedy pointed 
out.
    Our research tells us that if preschool children are not 
taught and do not learn these concepts and skills, they will 
not be ready for school. Unfortunately, our research also 
indicates that Head Start as traditionally structured and 
implemented is not fully achieving its stated purpose of 
promoting school readiness by enhancing the social and 
cognitive development of low-income children.
    Our studies continue to point to the fact that low-income 
youngsters from Head Start programs perform significantly below 
their more advantaged peers in language, reading and 
mathematics once they enter school. This gap places a 
tremendously unfair burden on the youngsters so that from the 
very first day of kindergarten, they are already behind. This 
is unfortunate, because with proper preschool instruction, many 
can enter school on an equal footing with every other child.
    As Dr. Zigler stated in 1996, ``Head Start's goal is and 
always was to prepare children for school.'' Over the past 
three decades, it was thought that ensuring adequate nutrition, 
healthy bodies, emotional health, and social competencies would 
lead to robust learning in schools. To be sure, and there is no 
doubt--physical health, adequate nutrition, parental 
involvement, family social services, and interactions to 
develop emotional health and social competencies are necessary 
to achieve this goal. But indeed they are not sufficient.
    Social and emotional competence do not guarantee school 
readiness and academic achievement. Children must also come to 
kindergarten and first grade with strong foundational knowledge 
of language, reading, mathematics, and science concepts 
essential for success.
    The goods news is that high-quality early childhood 
education programs can enable preschoolers to develop these 
fundamental language and cognitive concepts. The bad news is 
that far too many children are spending time in preschool 
settings, including many Head Start classrooms, that do not 
meet a child's essential learning and cognitive needs and thus 
neglect a very important aspect of child development.
    If Head Start classrooms are to prepare children for entry 
to and success in school, our research tells us that they must 
foster language and emergent literacy skills. If we do not, 
they will fail in school. If they fail to read and fail in 
school, we will most likely condemn them to a life of continued 
disadvantage.
    We would like to put forth several recommendations for the 
committee to consider.
    No. 1, it is critical that early childhood programs 
including Head Start provide a genuinely comprehensive set of 
activities and educational opportunities to all children, 
including those with disabilities, that are grounded in 
developmental science. It is imperative that children's social, 
emotional and cognitive growth be fostered on the basis of what 
developmental science tells us about what preschool children 
can learn, what they need to learn to succeed in school, and 
how learning is most optimally supported. For too long, our 
understanding, development, and implementation of preschool 
programs have been based on philosophical beliefs, untested 
assumptions, or out-of-date science.
    Second, we must develop and implement a comprehensive 
assessment and reporting system to ensure that Head Start 
programs produce the positive outcomes that we know are 
achievable.
    This reporting system will, for the first time ever in the 
history of Head Start, provide outcome data on all Head Start 
programs and children, with and without disabilities, and thus 
help to identify areas in need of continued improvement as well 
as to document systematically the successes derived by Head 
Start programs.
    We owe it to the parents of Head Start to assess their 
children's progress on a regular basis in ways that will help 
guide the instruction and support of Head Start children.
    And by the way, our data clearly tell us that youngsters 
are not stressed or frightened by the assessment. They 
typically have fun in a one-to-one interaction with an adult 
who is allowing them to demonstrate their skills and mastery as 
long as that adult understands how to gain rapport with the 
youngster and capture the youngster's attention throughout the 
assessment process.
    No. 3, we must ensure that our youngest children are 
learning from teachers who are highly competent in their 
ability to help children develop social competencies, emotional 
health, and the cognitive language, literacy, and mathematics 
concepts critical to school success.
    Numerous studies have shown that program quality and the 
benefits to children with and without disabilities are 
inextricably linked with staff educational background and 
training. The significant benefits to children provided by the 
Chicago CPC program and the CIRCLE program described in my full 
testimony underscore this point.
    All preschool teachers, for example, in the CPC program had 
college degrees and certification in early childhood. While the 
teachers in the CIRCLE program ranged in education from high 
school degree through graduate degree, the systematic 
mentoring, training, and follow-up training produced many 
teachers of high quality. And by the way, that training was the 
professional development that Commissioner Hill provided to 
most Head Start teachers who signed up for that particular 
program.
    No. 4, it is essential that preschool programs be 
coordinated with other programs providing early care and 
education as well as with the curriculum framework and goals of 
kindergarten and early public school programs.
    Moreover, greater coordination and collaboration are needed 
between State and Federal programs to ensure that all children 
entering kindergarten are ready to learn. The value of a 
highly-coordinated series of programmatic interactions from age 
3 through the early grade school years can be seen in the 
results, for example, produced by the Chicago CPC program. The 
fact that the CPC program that is provided through the Chicago 
public schools provides a continuity in children's learning 
environments as well as appropriate levels of compensation for 
teachers and staff. Other communities, as noted in the 
Strengthening Head Start Report, which I would like to enter 
into the record, provide good examples of programs located 
outside the school system that are also able to provide 
seamless services.
    Finally, while many Head Start programs need to be 
strengthened to ensure high-quality interactions to support and 
develop physical, social, emotional and cognitive strengths in 
an integrated and accountable fashion, it is clear that many 
States do not have such high-quality programs in place. It will 
be critical to identify these programs that are beacons of 
light and expand and build on them with both local and State 
funding. It will also be critical to identify low-performing 
programs and provide the necessary technical assistance to 
strengthen them--but in the end, to ensure that the health and 
development of our children are the priorities, not the 
continuation of ineffective programs.
    Thank you.
    The Chairman. Thank you, Dr. Lyon.
    [The prepared statement of Mr. Lyon may be found in 
additional material.]
    The Chairman. Ms. Shaul.
    Ms. Shaul. Mr. Chairman and members of the committee, I 
appreciate the opportunity to discuss GAO's work on Head Start. 
Head Start is nearly 40 years old and since its beginning has 
served about 21 million children at a total cost of about $66 
billion.
    Head Start is a popular program, enjoying bipartisan 
support, and many believe it to be one of the most successful 
social programs.
    Head Start's reauthorization provides an opportunity to 
consider two major issues that my statement addresses--how Head 
Start fits into today's environment of early childhood 
programs, and what is known about the effectiveness of Head 
Start.
    My message today is that Head Start is one of a variety of 
programs for young children, so coordination is important. And 
my second message is that little is known about the 
effectiveness of the Head Start Program.
    Since Head Start's establishment in 1965, the early 
childhood environment has changed greatly to meet the needs of 
a changing society. Head Start is no longer the only major 
provider of services for children from low-income families. It 
now operates alongside other early childhood education and care 
programs funded by Federal, State, and local governments.
    This array of programs has been created in part to address 
the increased number of low-income working mothers. Working 
families often need full-day services, but some Federal 
programs such as Head Start are mainly part-day services. So 
full-day care requires coordination. However, it may be 
challenging for programs to coordinate because of different 
income eligibility requirements, different geographic 
locations, and different program standards.
    Although there is a substantial body of research on Head 
Start that describes the program and its participants, little 
is known about the effectiveness of the program on children's 
progress. HHS currently has studies showing that the skills of 
children who participate in Head Start do improve. However, 
these studies cannot provide definitive evidence that the 
improvement in children's skills is because they participated 
in Head Start.
    HHS has a study underway that will provide more definitive 
information on Head Start's effectiveness, but according to 
HHS, the results will not be available until 2006.
    I would like to briefly elaborate on these two points. 
First, funded at over $6 billion, Head Start is the largest 
recipient of Federal funds for early education and care. Two 
other major programs funded through HHS provide funds for child 
care--the Child Care and Development Fund and the Temporary 
Assistance for Needy Families, otherwise known as CCDF and 
TANF.
    The Department of Education also has programs like Even 
Start and Title I that provide services for children under 5. 
In addition to Federal programs, State and local governments 
provide services for children of low-income families. For 
example, the majority of States fund preschool programs, and 
some supplement Head Start programs.
    As the number of working parents has increased, so has the 
need for full-time care. Congress mandated that Federal 
programs coordinate with one another to provide greater access 
for children of low-income families, and some progress has been 
made. For example, Head Start programs are required to 
coordinate with programs such as CCDF, and some programs report 
sharing staff or sharing space.
    Although there are some successes, gaps in care remain. 
Barriers such as difference in program standards, different 
geographic locations for local programs, and differing 
eligibility requirements hinder coordination. For example, Head 
Start's income eligibility standard requires that 90 percent of 
the children come from families at or below the Federal poverty 
level or eligible for public assistance, whereas CCDF funds may 
be used to fund families with higher incomes.
    Turning to my second point, although there is an extensive 
body of research that describes the program, there is no 
definitive national-level research about the effectiveness of 
Head Start for the programs and families it serves.
    In 1998, GAO testified about this lack of evidence, and 
during the last reauthorization of Head Start, the Congress 
required that HHS undertake an impact study with the completion 
date of 2003. The Congress was specific in requiring that this 
study use rigorous research methods.
    Conducting impact evaluations is difficult and often 
expensive, but the size and the significance of the Head Start 
Program indicates that knowing about its effectiveness is 
important.
    The impact study now underway addresses two questions--how 
Head Start affects the school readiness of children, and under 
what circumstances does Head Start work best and for what types 
of children.
    The study is using a rigorous methodology that many 
researchers consider to be the best way to determine a 
program's effect--an experimental design whereby children are 
randomly assigned to the Head Start Program or to a control 
group that does not receive Head Start services. By comparing 
outcomes for these two groups, one can show the effective of 
the Head Start program rather than the effect of other 
developmental influences on children.
    This national impact study is budgeted at about $28 million 
and will follow children through spring of their first grade. 
According to HHS, as I said, this study will be completed in 
2006.
    Head Start is also conducting another study, FACES, which 
is currently providing Head Start a variety of descriptive 
information on a national sample of children. Study results 
describe such things as children's progress, family 
involvement, and teaching practices. For example, FACES 
research published in 2003 shows that children enrolled in Head 
Start demonstrated progress in early literacy and social 
skills.
    However, FACES does not compare the gains that Head Start 
children have made to those who have not participated in Head 
Start, and this lack of a control group limits HHS's ability to 
determine whether the progress of these children would have 
been made without the program.
    Mr. Chairman, this concludes my prepared remarks. I would 
be happy to answer any questions you might have on my statement 
or on GAO's ongoing work on Head Start teachers and children's 
cognitive development.
    Thank you.
    The Chairman. Thank you very much, Ms. Shaul.
    [The prepared statement of Ms. Shaul may be found in 
additional material.]
    The Chairman. Ms. Wilkins.
    Ms. Wilkins. Good morning. Thank you for inviting me to 
speak to you this morning.
    In this reauthorization of Head Start, you will consider a 
number of issues. I am here today to address just one--
narrowing the school readiness gap between Head Start children 
and more affluent children by ensuring that each Head Start 
classroom is led by a teacher with a bachelor's degree and 
specialized training in early education.
    Head Start has provided millions of our most vulnerable 
children with a foundation of integrated health, nutrition, 
academic, and family support services. In doing so, it has 
already narrowed the gap between these children and other 
children. Nonetheless, the gap remains.
    The effort to further narrow this gap must be focused on 
the promotion of strong literacy skills. However, as important 
as it is for Head Start to enhance the intellectual growth of 
children, it must not do so by cutting back on the other 
critical services that have provided the foundation of Head 
Start's success.
    Promoting literacy schools should be in addition to--not a 
replace for--the elements of Head Start that have demonstrable 
positive impacts on school readiness.
    Vocabulary is a critical building block to later literacy. 
Low-income 3-year-olds have vocabularies that are only about 
half the size of the vocabularies of 3-year-olds living in our 
most affluent families. To improve their vocabularies, we must 
provide Head Start children with highly literate teachers who 
themselves have rich and robust vocabularies. Data from the 
National Adult Literacy Survey indicate that adults with only 
AA degrees are twice as likely to have literacy skills below 
the competent level as those with B.A. degrees.
    Requiring Head Start teachers to have bachelor's degrees 
rather than just associate degrees will increase the likelihood 
that children will experience richer, more complex speech and 
be able to build strong vocabularies needed for later reading 
success.
    The National Child Care Staffing Study found that teachers 
with more formal education are more sensitive to their 
children, and that children with more sensitive teachers 
develop stronger literacy skills and higher language scores.
    Well-educated teachers also foster strong positive social 
and emotional development than do teachers with less formal 
education. Teachers with more formal education are less harsh, 
punitive, and critical of their students than are teachers with 
less formal education, and they are more sensitive and 
supportive of their students with less formal education.
    The most renowned early childhood ps for low-income 
children--the Perry Preschool Program, the Chicago Child-Parent 
Center that Reid has already spoken about, and the Abecedarian 
Program are all staffed by teachers with 4-year degrees. If we 
hope Head Start will have the same high outcomes for its 
children, we must staff Head Start with the same caliber of 
teachers.
    Many of the most respected research institutions in the 
field support increasing the percentage of teachers with 
bachelor's degrees in the Head Start Program.
    Staffing preschool programs for low-income children with 
well-educated teachers is not revolutionary. In fact, many 
States are ahead of the Federal Government in this area. Half 
the States with preschool programs already require that all of 
their teachers have 4-year degrees.
    There are some who will say that while it may be desirable 
to staff Head Start with teachers with 4-year degrees, it is 
impossible to meet this goal. We would suggest that they 
consider the recent success of New Jersey. In 1998, the State 
U.S. Supreme Court in Abbott versus Burke ordered that the 
State establish preschool programs in the 30 highest-poverty 
school districts in the State. The Court later required that 
each of these programs be staffed by a lead teacher with a 
bachelor's degree.
    New Jersey has created and executed a plan that has moved 
the percentage of bachelor's degree teachers in their preschool 
programs from 35 percent to 80 percent in less than 4 years.
    We strongly urge this committee to require that all Head 
Start lead teachers have B.A.s as soon as possible. The House 
action on this issue was significant and laudable. However, we 
hope the Senate will build on this work by increasing the 
percentage of teachers with B.A.s in Head Start classrooms and 
making the resources available to educate, attract and retain 
those teachers.
    The Federal Government should demand higher levels of 
education from Head Start teachers. However, as they attain 
higher levels of education, they must be compensated at higher 
levels. Head Start teachers with B.A.s currently earn only 
about half of what public school kindergarten teachers earn. 
Increased educational requirements without improved 
compensation will lead to high teacher turnover rates, which 
will undermine every effort to improve outcomes for Head Start 
children.
    We have estimated the cost of providing Head Start teachers 
with scholarships and other supports needed to earn B.A.s to be 
about $1 billion. An additional $3 billion over 5 years will 
allow us to increase the salaries of about 64 percent of Head 
Start lead teachers to levels comparable to the salaries of 
kindergarten teachers. This increase would put us on a solid 
path toward having and keeping well-educated Head Start 
teachers in every classroom.
    But program improvement is more than just about increased 
investment. It is also a question of coordinated policy. This 
committee will undoubtedly spend a great deal of time 
discussing how Head Start programs can be coordinated with 
State preschool programs. I am eager to participate in these 
discussions. But I would remind you that to be successful in 
this area, we also need to consider coordination between 
Federal programs as well.
    I look forward to continuing the dialogue on bachelor's 
degrees and Head Start as this committee moves forward to work 
on the Higher Education Act.
    Head Start has been successful for so long because it has 
evolved and incorporated the best research into its program and 
practices. The single best way to continue to improve the 
quality of Head Start is to ensure that every Head Start 
classroom is led by a teacher with a bachelor's degree in 
specialized education and early childhood education.
    Thank you very much for allowing me to testify.
    The Chairman. Thank you. I appreciate the testimony.
    [The prepared statement of Ms. Wilkins may be found in 
additional material.]
    The Chairman. Ms. Santos.
    Ms. Santos. Mr. Chairman, Senator Kennedy, and members of 
the committee, good morning.
    I am Janis Santos, executive director of the Holyoke-
Chicopee-Springfield Head Start Program. I also serve on the 
board of directors of the National Head Start Association.
    I would like to take just a moment to thank Senator Kennedy 
for his many years of commitment and dedication to the Head 
Start children in our country. In Massachusetts, we see him as 
our champion for Head Start. I have a clear remembrance of him 
visiting my preschool in Ludlow, MA and reading to our children 
many years ago. So thank you, Senator Kennedy.
    Senator Kennedy. Thank you.
    Ms. Santos. And Senator Dodd, where I served as an interim 
grantee in Connecticut for a short time, for your commitment to 
the Head Start, and members of the committee this morning for 
their commitment to early childhood education and Head Start.
    I appreciate the opportunity to testify today on behalf of 
the thousands of successful Head Start programs across the 
country and to discuss ways in which Head Start can be improved 
for the 900,000 children who rely every day on this program for 
their health, nutrition, and cognitive development.
    You have heard a lot today about numbers and studies and 
data. I bring a different perspective to the discussion--one 
born of 30 years of experience working with some of the most 
vulnerable children and families in my community. And for me, 
the success of Head Start is not about numbers or data; it is 
about making a difference in the life of one child and one 
family at a time.
    As executive director of the Holyoke-Chicopee-Springfield 
Head Start Program for the past 24 years and as a Head Start 
teacher for 6 years, I have dedicated my entire working life to 
ensuring that Head Start provides high-quality, comprehensive 
services to the poorest children in my community, that we work 
collaboratively with other early childhood programs and with 
the public school system, and that the program applies the best 
thinking in early childhood research in our work with our 
children.
    I want to tell you a little bit about the children and 
families that Head Start serves. My program is the second-
largest Head Start program in Massachusetts. We serve 1,200 
children in Head Start and 40 infants and toddlers in our Early 
Head Start program through centers located in three cities and 
four towns.
    We were honored to just be named the new grantee for the 
migrant program in the State of Massachusetts and will begin 
this summer serving migrant children.
    Our mission statement tells our story. We are committed to 
providing low-income children and their families with a beacon 
of hope and a source of support for a brighter future. We 
strive to do so by providing high-quality, comprehensive child 
development services to enrolled children and empowering 
families to achieve stability in their home environment.
    Although the children we serve come from diverse 
backgrounds, and the circumstances of their lives vary, they 
bring to the classroom a common set of challenges which we seek 
to meet in preparing them for their first experience in school.
    My program is located in one of the most economically 
disadvantaged regions in Massachusetts. Poverty and stress 
indicators for the area consistently exceed State and often 
national percentages. Most of the children in our program come 
from single-parent household with incomes below the poverty 
level. Three-quarters of the parents have a high school 
education or less. For many of the children and families, 
English is not the first language. And finally, too many of the 
children in our classrooms have witnessed or experienced 
domestic or community violence.
    For these children and families, Head Start is a safe haven 
where they encounter the positive experience that help build 
the foundation that will serve them throughout their school 
careers and foster curiosity, an interest in learning, and the 
ability to pay attention in the classroom.
    Head Start insists upon a comprehensive range of services 
because we know that preparing children for school is about 
more than just teaching letters or numbers.
    Consider the example of my student who was part of the 
witness protection program because he saw his father shot and 
killed in his apartment in an incident in which the child 
himself was injured. He was so traumatized by this experience 
that before we could even begin the process of preparing him to 
learn, we had to get him the mental health services that 
allowed him to move beyond the trauma that no young child 
should ever have to face.
    I am so pleased to report that because of this intervention 
in Head Start, the child is now thriving in elementary school.
    For another child in our program, poor nutrition and the 
lack of good dental hygiene resulted in tooth decay so severe 
that all of his teeth needed to be pulled. Not only did this 
painful tooth decay affect his ability to learn; it adversely 
impacted his speech and his self-esteem.
    Through the intervention of the Head Start staff and dental 
services provided by the program, this boy was put on the road 
to improvement.
    I have literally hundreds and hundreds of anecdotes like 
this in terms of the comprehensive services that have made the 
difference in the lives of so many Head Start children and 
families, but I know you do not have the time to listen to all 
of them today.
    Head Start fully recognizes and appreciates the importance 
of serving the whole child. However, that does not mean that 
literacy is shortchanged in the process. In fact, I can tell 
you from firsthand experience that Head Start focuses intensely 
on literacy and numeracy. In my own program, we work closely 
with the public school system and the university system to 
design and implement a literacy program that fully prepares our 
children for kindergarten. In fact, we are often told by 
kindergarten teachers and school officials that they can 
recognize Head Start graduates when they enter kindergarten 
because they are better-prepared than similarly situated peers.
    We repeatedly are told that our Head Start children enter 
kindergarten well-prepared, with good reading readiness skills, 
social skills, and the ability to pay attention.
    I find it curious that this reauthorization has sparked 
such an interest in the issue of literacy. This may be a new 
focus for some of the people in this room, but it is not for 
Head Start. In my own program, we have stressed pre-reading 
skills and nurtured an interest in books for decades now.
    It is true that in the course of the last several years, we 
have learned a great deal more about the cognitive development 
of children and have refined and renewed our emphasis on 
literacy. In my program, we are fortunate to have the resources 
of a local university that helped us design and implement 
teaching tools to boost the literacy and numeracy outcomes of 
our children. This partnership with the local education system 
proved beneficial when we were searching for ways to improve 
the pre-math skills of our students. The university worked with 
us to design a course of instruction that has made a tremendous 
difference in our ability to teach the new concepts.
    Indeed, Head Start is the first of all childhood programs 
to assess whether the students are learning and the progress 
being made in their cognitive development. Toward that end, we 
assess our students three times a year to determine whether 
they are benefitting from the lessons that we are teaching. And 
as part of our effort to provide a smooth transition to 
kindergarten for the children in our Head Start classroom, we 
provide parents a copy of their children's development 
assessment--or profile, as we call it. This profile gives 
parents and, with their permission, the kindergarten teacher a 
summary of the child's accomplishments while attending our 
program.
    In my remaining short time, I would like to address a few 
issues directly related to the reauthorization of Head Start.
    First, I strongly encourage this committee to reject any 
form of block grants no matter how limited. Absent the program 
performance standards that ensure quality, comprehensive 
services to Head Start children and their parents, the program 
as we know it will cease to exist.
    Second, there has been a great deal of attention on the 
issue of teacher qualifications. I am a big proponent of 
improving the quality of instruction in the Head Start 
classroom. In fact, I insist that our program continually 
strive to make itself stronger.
    In 1976, our program required that each Head Start teacher 
have a bachelor's degree in early childhood education. We had 
to change this requirement in 1980 to add an associate's degree 
because of the high turnover of teachers as a result of our 
inability to pay salaries competitive with those of the local 
public school system. At that time, we determined that we 
gained few benefits with more qualified teachers if those same 
teachers stayed for such a short period of time.
    I would encourage you to learn from our experience and 
provide the new funding necessary to attract and retain these 
more qualified teachers who otherwise will be lost to the 
public school system where the salaries are higher.
    Third, we know that what we can accomplish with our 
students and families in the short time they are part of the 
Head Start family is limited. For some students, they are part 
of our program for just 9 months. And while much more can be 
achieved during that period, we know that so much more could be 
accomplished if Early Head Start were expanded to serve more 
babies and toddlers.
    We believe it is time to make a serious commitment to 
providing seamless services to children prenatal to the age of 
5. To accomplish this goal, we propose that the Early Head 
Start set-aside by increased and that Head Start grantees be 
given the flexibility to provide services to children prenatal 
to 5.
    Finally, I would like to say a word about collaboration. I 
gather that, based on the testimony here today, collaboration 
and coordination does not work as well in other places as it 
does in Massachusetts. We collaborate with and have 
partnerships with dozens and dozens of other programs, 
including the State government, local government, school 
districts, and so on. I encourage you to look at these areas 
where collaboration and coordination is working and to 
replicate our experience across the country.
    Mr. Chairman and Senator Kennedy, thank you for your 
consideration. I believe that Head Start does need to be a 
loving and nurturing place for at-risk children. At the same 
time, we should be demanding in our expectations of children 
and teachers. I insist upon this in my program, and so should 
others.
    I look forward to working with you to move to reauthorize 
Head Start.
    Thank you.
    The Chairman. Thank you, Ms. Santos.
    [The prepared statement of Ms. Santos may be found in 
additional material.]
    Senator Mikulski. Mr. Chairman, I regret that I will not be 
able to stay to ask questions, but I would ask unanimous 
consent that my statement be in the record.
    My first job out of graduate school in social work was 
working as the social worker for a Head Start program. It was a 
big idea, I think it has had big results, and I look forward to 
working with you on a big bipartisan effort to reauthorize it.
    Thank you, and thank you to all the dedicated people here.
    The Chairman. Thank you, Senator, and of course your 
statement will be included in the record.
    [The prepared statement of Senator Mikulski follows:]

                 Prepared Statement of Senator Mikulski

    I want to thank Chairman Gregg, Senator Kennedy, Senator 
Alexander, and Senator Dodd for calling this hearing. I also 
want to thank the witnesses: Windy Hill, Dr. Reid Lyon, Dr. 
Marnie Shaul, Amy Wilkins, and Janice Santos. I look forward to 
hearing your testimony.
    Head Start had been one of the more successful Federal 
programs. It's not perfect, and I agree we can improve it. But 
we can't let reform be a code word for dismantling Head Start. 
I am concerned that the Bush plan will turn Head Start into 
slow start or no start.
    Head Start is for the poorest children. 74 percent of Head 
Start families are at or below the poverty level. These 
children are often the farthest behind in learning to read and 
learning the alphabet. Yet Head Start makes a difference. In 1 
year, these students go from the 16th percentile in vocabulary 
to almost the national norm.
    And Head Start does so much more. It brings children to the 
doctor to get immunizations or hearing checks. It helps parents 
get on the right track. Many parents become Head Start teachers 
and go back to school to get their degrees. It provides 
nutritious meals for children who might otherwise go hungry. 
I'm a social worker. I've seen first hand children whose lives 
were changed by a simple hearing aid. It can make all the 
difference.
    Head Start is working well. I think we can aim higher--
especially in academics. Yet it will take a serious investment 
not a block grant and a prayer.
    Currently, only 60 percent of eligible pre-school children 
are in Head Start, and only 3 percent of eligible infants and 
toddlers are in Early Head Start. In Maryland, about 25 percent 
of eligible children age zero to 5 years are in Head Start and 
Early Head Start.
    We should expand Head Start to serve all children. Yet the 
Bush Budget requested only $148 million more for Head Start. 
That's the same amount provided in the fiscal year 2004 House 
and Senate Labor/HHS Appropriations bills. It's not even enough 
to cover inflation. This means communities have to make tough 
choices between two bad options: diluting the quality of Head 
Start, or shutting the doors on some eligible children.
    The Bush Head Start plan does nothing to solve this 
problem. It tries to avoid the issue by putting the tough 
decisions and responsibility on local communities. In my own 
State of Maryland, we are facing this kind of impossible 
choice. For years, the Montgomery County contributed $16 
million of its own money to run a very high quality Head Start 
program. But they still didn't have enough money to serve to 
all the low-income children in Head Start. Recently, Montgomery 
County proposed using its money for a Pre-K program that would 
serve more children. But, they also proposed making cut-backs 
and sacrifices. They proposed cutting back on comprehensive 
health and family services for the new Pre-K classes. They 
proposed shortening Pre-K classes, so teachers wouldn't be able 
to accomplish as much.
    And they proposed reducing the number of children in Head 
Start by almost half.
    The Bush Budget forced Montgomery County into this 
situation by not providing the resources to serve all children 
in Head Start. Yet the Bush Head Start block grant plan won't 
help. It enables communities to make these choices. But they 
are still bad choices between bad options, because the Bush 
Budget is inadequate. The Bush plan tells communities, ``You 
must sacrifice quality for quantity. You have to make all the 
tough choices, because the Federal Government won't help you.''
    The Republican plan is contradictory. On the one hand, it 
calls for flexibility and block grants. On the other hand, it 
adds new mandates without providing the resources. The House 
bill requires that 50 percent of Head Start teachers have 
Bachelor's degrees by 2008. This will cost at least $2 million. 
Yet the House bill doesn't provide resources. It authorizes a 
mere $202 million more, which barely covers inflation.
    I think we should improve teacher qualifications. I think 
Head Start children should have the best teachers available. 
Yet I am very concerned about more unfunded mandates. Look at 
what's happening with No Child Left Behind. Are there even 
enough qualified teachers available, especially in rural areas?
    You can't get more for less. You get what you pay for. A 
block grant is not the answer. Federal investment is the 
answer. The Bush Budget requested only $148 million more for 
Head Start. That's what the fiscal year 2004 House and Senate 
Labor/HHS Appropriations bills provide. It's not even enough to 
cover inflation. We need to increase Federal funds so that all 
eligible children can benefit from high quality Head Start. We 
need Federal leadership to improve academic standards in Head 
Start and to help coordinate between Head Start and public 
schools. We need a dedicated Federal investment to help recruit 
and retain qualified teachers. Thank you.
    The Chairman. We do have a very strong turnout of member 
Senators today, so we will limit the questioning to 5 minutes, 
and I hope people can stick to that so everybody can get their 
time in.
    Let me begin. First, I want to thank the panel. I think the 
presentations were excellent, and I think it reinforced a lot 
of the issues that we as a committee are going to have to be 
looking at, primarily, first, Ms. Santos' point, which is that 
there are a lot of very wonderful things being done by Head 
Start, and we want to make sure that in the reauthorization we 
do not upset what is being done well in order to get on to 
trying to do other things even better, and that will certainly 
be a focus of our committee, making sure that the social issues 
and the nutritional issues and the socialization issues are 
maintained as an aggressive element of Head Start.
    I am not trying to underplay that, but I believe the focus 
of the reauthorization is going to be around the issue of how 
we engender a stronger academic experience in the Head Start 
Program, maybe not in the Holyoke area, where you seem to have 
a really positive program, but to have consistency throughout 
the system. I think that that really is the core element of 
issues that we are going to be dealing with in the 
reauthorization, although there are some other tangential 
issues like what the States' role is.
    Focusing on the question of assessment and academics, I 
would be interested in knowing whether we actually know if 
there are some criteria or a curriculum or a standard that Head 
Start centers should be trying to get to with these children. I 
mean what level of numerology, what level of identification of 
the alphabet or phonics--there is the 10-letter rule that I 
guess is still in place technically, but hopefully, everybody 
is ignoring it and getting on to all the letters of the 
alphabet. I would be interested in hearing from Dr. Lyon or Ms. 
Hill or others as to is there an identifiable academic standard 
that we should be trying to seek for children in this age 
group.
    Mr. Lyon. I believe there is. I believe that we, under the 
best conditions and implementation of those conditions, move 
Head Start youngsters to the average range as the enter 
kindergarten.
    We do have ongoing studies now showing that if we have 
teachers in place who understand the critical kinds of things 
kids need to know to be able to succeed in school, our 
youngsters' development is enhanced dramatically.
    We know from both Dr. Whitehurst's research as well as 
other research--and he will talk to this--that the specific 
kinds of things that kids need to know in preschool can in fact 
be brought right up to the average range, and that particular 
level of development in word-level knowledge, in vocabulary, in 
phonological awareness, and in print knowledge clearly predicts 
downstream performance in school.
    We do know that a condition where children from preschool 
or Head Start who are entering kindergarten are in fact moving 
toward a program that not only reinforces the abilities learned 
in preschool, but the preschool development in fact meshes 
quite well with the kindergarten curriculum and the first grade 
curriculum.
    So there are a number of conditions that need to be in 
place no doubt within the context of a comprehensive program--
meaning these kids have to be physically squared away, they 
have to be well-nourished, the parents, to the best of our 
ability, need to be involved, and we need to be developing 
social and emotional competencies systematically but 
synergistically with the more cognitive language-oriented 
capabilities.
    When we do that well, we clearly have gems or beacons of 
light where we can move most kids to near or the average range.
    The Chairman. Thank you.
    Dr. Whitehurst, briefly, because my time is up. Please go 
ahead.
    Mr. Whitehurst. I would just add to that that the criterion 
should really be, if not a head start, an even start, that 
children who start school in the normal range, knowing the 
things that other children do as they enter the kindergarten 
classroom, are much more likely to succeed academically. Those 
children who do not have those skills are at very high risk of 
failure. We can predict reading failure at the end of first 
grade with 85 percent accuracy from knowledge of what children 
know as they enter kindergarten.
    The Chairman. Thank you.
    Senator Kennedy.
    Senator Kennedy. Thank you.
    Ms. Santos, it is wonderful to hear you again, and I think 
anyone who listens to you and ever has the chance to visit your 
program up there understands that what you have told us here in 
the committee is alive and well in the faces of those children 
and the well-being of those children. After a lifetime of 
commitment, we should take your assessment about what is needed 
for those children and the way to strengthen Head Start with a 
great deal of attention because it is based upon an enormous 
amount of personal caring in your own situation and a great 
deal of knowledge and sort of around-the-clock working at that 
program. So I am so glad that you have come to help us today.
    I was going to ask you about your ideas and suggestions for 
strengthening the program; you summarized those very briefly--
that the earlier the intervention, the better; the continuation 
of help and support for children from zero all the way up to 5 
with good-quality programs; continuing to march toward quality; 
people working with these children and finding ways to maintain 
them so that they are not moving into the educational system 
unprepared. And I want to come back and ask Ms. Wilkins to give 
a reaction to ideas about how best to do that.
    But time is limited, and I would like to ask Windy Hill--in 
reviewing what the States have done, the real authoritative 
studies have been the Gilligan and Zigler studies that have 
been done at Yale, and they indicate that the States have not 
had such a good record themselves, looking at the quality 
programs. The Zigler study says only three States have 
completed an analysis relating classroom quality indicators to 
the program--South Carolina, Michigan, and Kentucky. Only three 
States have even looked at it.
    Ms. Hill. Well----
    Senator Kennedy. Let me just finish. In their conclusions, 
they say that ``Considerably more needs to be done about the 
effectiveness of State-funded preschool programs.'' 
Effectively, not enough is known about the effectiveness of the 
State programs. And in the final conclusion, it says, ``These 
positive findings are encouraging for State-funded preschool 
programs, but on the whole appear to be no more or less 
encouraging than the findings for other large-scale preschool 
programs for low-income children such as Head Start, which 
often suffer from similar methodology limitation in their 
evaluations.'' They make a big point about the methodology and 
evaluations, and effectively, they are concluding that the 
States are no more or less effective than the large-scale 
programs like Head Start. We only have a smattering of States 
that have done this.
    What possible sense does it make to roll the dice and give 
the Head Start Program to the States?
    Ms. Hill. Well, I appreciate the research of Dr. Zigler and 
others in this area. Having been in Head Start for so many 
years--8 years in a local program, 2 years as a board chairman, 
2 years as a policy council chairman, a parent, a child, and a 
volunteer for several years--I think that early on, early in 
the 1990's, we began to recognize that not enough was known 
about Head Start, and people really began to look very closely 
at its success.
    It is true that it does a tremendous amount in the area of 
comprehensive services, and we are beginning to see early on 
that States recognize that there is value in adding that 
comprehensive array of services for children.
    It really is a situation where several States have taken 
the leadership role in showing us that they can and will invest 
in pre-K programs in a way that models the experiences and the 
values of Head Start.
    The goal is to have more States do what States like 
Connecticut, Massachusetts, North Carolina, and Georgia have 
done and to bring that into some kind of alignment, an 
integrated, coordinated system that takes the best of Head 
Start and to begin to blend and to mold in a way that all 
children in the State experience the important early care and 
intervention.
    Senator Kennedy. I have just 50 seconds left, and I am 
going to try to get in two questions.
    Dr. Lyon, very quickly, the administration has proposed a 
reporting system that would test the outcomes on two domains of 
child development--language and literacy, and preschool 
program. Head Start obviously measures children's outcomes 
three times a year in language, literacy, math, creative arts, 
cooperative skills, social relationships, and physical health. 
Give me your evaluation of each approach, briefly.
    And then, finally, Ms. Wilkins, if you would respond to Ms. 
Santos' concept about how you are going to help keep good-
quality teachers, just briefly, I would appreciate it.
    Thank you, Mr. Chairman.
    Mr. Lyon. Senator Kennedy, the fact is we are behind the 
curve on the development of appropriate assessments for a 
number of the domains within the comprehensive array provided 
by Head Start. The first step was to try to carve out from the 
1998 list of cognitive indicators those domains that we had 
good measures on--that is, measures with sufficient reliability 
and validity and all those kinds of things--to be able to 
determine if we were doing well by the kids.
    Socially and emotionally, we are even further behind the 
curve in the sense that the measure available typically assess 
pathology, social pathology and emotional pathology. That puts 
us in a position to have to develop new measures that are more 
proactive and pro-social and pro-emotional.
    We are in the process, with Dr. Whitehurst, the Institute 
for Educational Sciences, and NIH, of developing a fairly 
massive early childhood education research program which 
includes the development of measures across all of these 
domains.
    To answer your question, we do not have pro-social and pro-
emotional measures that can actually give us a good look at how 
well the kids are doing. What we can do is identify those 
youngsters who are at risk for attention deficit disorder, 
other forms of psychopathology, and so forth and so on. That is 
not good enough, but what we can say is we are working hard to 
fill out the comprehensive need for these assessments in the 
areas you are interested in.
    Ms. Wilkins. It is an easy answer, Senator. The first thing 
that needs to happen is that the salary scales in Head Start 
need to ensure that compensation is closely related to the 
level of formal education that the teacher has, so that as the 
teacher increases the amount of education she has, her salary 
will increase.
    And the second thing you need to do is give the Head Start 
centers the money to pay the teachers. Ms. Santos had to lower 
her educational requirements because she could not afford to 
keep the teachers. If Congress finds the money so that she can 
pay wages that are competitive to what teachers with B.A. 
degrees can earn teaching in public schools, you will be able 
to keep the teachers.
    Ms. Santos. That is right.
    Senator Kennedy. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Kennedy.
    Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman, and thanks to 
the witnesses for coming today.
    We all have a story, and I have one, and a comment and a 
question about coordination. My story is this. I grew up in a 
county at the edge of the Great Smokey Mountains, where my 
mother was literally the only preschool education teacher in 
the county, and she taught in a converted garage in our back 
yard. There were 25 3- and 4-year-olds and 25 5-year-olds in 
the afternoon, and everyone who could afford it paid $25 a 
month so their child could have that advantage. We learned 
letters, numbers, music, and we all had an advantage. So I know 
the advantage, and we have learned so much more about it since 
then.
    My comment is that I think the President has done us a 
service by putting on the agenda, as only a President can, the 
concerns of school readiness, of accountability, and of 
coordination. That is where a lot of the discussion was this 
morning. Many of you have already been thinking about those 
things, but for the President to focus on those three things is 
a help as we think about reauthorizing Head Start.
    I think he is also wise to suggest that we should think 
about what role the States can add to the Head Start Program, 
but I do not think we should let the whole train run off the 
track because we have differences of opinion about just how the 
States should be involved. I would like to see us focus on the 
first three and do as much as we can on school readiness, on 
accountability, and on coordination, and I will have some other 
suggestions about how States might be involved which I would 
like to share with members of the committee and get their 
reactions as time goes along.
    Now, my question is this, on coordination. In the last 10 
years, 42 States have started investing pretty heavily in pre-
K, and it is now up to $1.7 billion a year. There are 69 
Federal programs that deal with early childhood; that is $18 
billion a year, of which Head Start is nearly $7 billion a 
year.
    Can any of you identify, or is there a consensus about or 
is a listing of the 19,000 Head Start centers around the 
country that do the best job of coordinating services with the 
other State programs, the 69 Federal programs, and with the 
public schools and private schools into which the Head Start 
graduate? Are there any that we ought to be spotlighting and 
paying attention to?
    Ms. Hill. There are certainly programs that are model 
programs, like there are States who are beginning to look 
across programs----
    Senator Alexander. Have they been listed somewhere so that 
we can know them?
    Ms. Hill. We do have a list of those who are, I think, 
exemplary, such as Ms. Santos' program, where we begin to hear 
more about how they are coordinating and linking. 
Unfortunately, the list is not as long as the list of those who 
are not coordinated and not integrated.
    We can develop for you a list of the ones that have been 
recognized in the last year as having strong programs, but 
again, it will be a shorter list than the list of those 
programs that are not----
    Senator Alexander. Are there things we can do in Congress 
to make it easier for a Head Start center director who is in 
Holyoke or Maryville, TN and who looks up at this array of 
Federal programs and wonders how do I find them all, how do I 
figure out whether they are available to my children?
    I talk with many of my constituents who just do not know 
how to get through the maze to find all those--I am sure that 
is the Congress' fault, but what can we do about it?
    Ms. Hill. Congress is to be commended, because in the 1998 
reauthorization as well as in the 1994 reauthorization, there 
was quite a bit of language added to encourage, promote, to 
move programs to greater coordination in local communities as 
well as across programs.
    Unfortunately, that language is not sufficient to bring 
about the type of integration and coordination that we have 
seen to be most effective when you look across programs across 
the State, when you look for needy children in all pockets of a 
community as opposed to a particular catchment area.
    So I think Congress has done a tremendous amount to this 
date, but the authority to bring Statewide coordination does 
not exist within the existing statute.
    Senator Alexander. Stepping back if you can, Ms. Hill, from 
the President's specific proposal, what is the major value, or 
what can the States bring to the table? What is the most 
important thing the States could do--if our objectives are 
school readiness, accountability, and coordination, what is the 
most important thing that the States could bring?
    Ms. Hill. Well, to continue what the States are already 
doing, recognizing that our ability to provide comprehensive 
services rests within State governments. We do not pay for 
medical and dental; we rely on Medicaid and Medicare 
administered through the State. We do not pay for dental; we 
rely on SCHIP. We look to our local community partners to link 
families to needed services, whether it is crisis intervention, 
domestic violence.
    So there is already inherent in the work of the States a 
great deal of support for Head Start. What we can begin to do 
is to make it easier to coordinate across those programs 
through some master plan.
    Senator Alexander. Thank you.
    Ms. Shaul. Could I just also add that Congress has funded 
the Head Start collaboration centers in States which have had 
as their focus enhancing collaboration among the childhood 
programs within States.
    Senator Alexander. Thank you.
    The Chairman. Thank you.
    Senator Jeffords.
    Senator Jeffords. I would like to look at it on a little 
broader scale. Certainly, Head Start has been wonderful to help 
people with lower ability, compensation, etc. On the other 
hand, in the late eighties and early nineties, we discovered, 
and the world discovered, that children ages 2, 3, 4, and 5 
ought to have a good start and that the ability of our Nation 
would increase with that.
    Now we see, because of the economic situation, that early 
childhood education is being unfunded by the States because 
they do not have sufficient funds. So it seems to me that we 
ought to be trying to look at all of these together and to get 
the money available for these schools, whether it is Head Start 
or whether it is early childhood education, because if we just 
turn it over to the States, if they are cutting out on early 
education now, it is hard for me to see how they are going to 
handle both and do a good job at either of them.
    Ms. Hill. Well, interestingly enough, 2210 certainly takes 
that into consideration, the House bill, as well as the 
President's proposal in that it is not about supplanting or 
driving dollars into State coffers for purposes other than care 
for young children and early care and education.
    Under the House bill and the President's proposal, the 
States must use Head Start dollars to support Head Start 
children, and it must also lock in its spending for preschool 
programs so that if it is a State that is eligible and meets 
certain threshold requirements, it would be required to 
maintain its Head Start spending, maintain the number of 
children currently served, and also maintain its State 
preschool. So there is protection within the School Readiness 
Act to ensure that what you just described does not happen. I 
think the strength in that is that it is not just services, but 
it is the comprehensive services that have made Head Start this 
premier program in the country.
    Senator Jeffords. Ms. Santos.
    Ms. Santos. I would like to comment on that. I served on 
the Massachusetts Early Childhood Advisory Council for about 15 
years, and I have a good handle on the early childhood programs 
in Massachusetts, and I remember clearly that it was just over 
the past years that the Department of Education got involved in 
the business of early childhood education. During that time 
that I was on the Council, they were struggling trying to 
develop standards and actually used the Head Start standard as 
the model for developing their own.
    So I am very much aware of what the early childhood 
programs are in Massachusetts, and I would say that Head Start 
is the model. The comprehensiveness of the program, the high 
quality of the performance standards should be the model for 
States for their early childhood programs. I know that many 
educators have said that, and I believe that we should keep the 
program Federal to local and be the model for our States in 
early childhood education because of the comprehensiveness and 
the high-quality standards that we provide to children in all 
areas.
    Senator Jeffords. I just think we ought to be looking at 
the total picture and see how Head Start fits in, so we do not 
disadvantage situations by funding problems from one to the 
other.
    Ms. Hill. Well, it is interesting that in the 1993-1994 
Head Start Quality and Expansion Advisory Committee report, one 
of the things that was recognized early on was that Head Start 
has to become more a part of its community and its State, and 
it cited it as one of the recommendations. I think what you are 
seeing in the School Readiness Act and the President's proposal 
is an acknowledgment that the glass is half full, and that it 
is important to acknowledge the great need to have Head Start 
be a part of its broader community, that children are ready to 
learn, and the alignment occurs between Head Start and its 
other partners.
    But this has the benefit of more than just Head Start. It 
has always been that national laboratory. Here is our 
opportunity, and it is an opportunity that we take at no risk 
to losing Head Start services, since you would maintain the 
current level of services being provided, maintain the same 
number of children, you protect the Federal funds, you avoid 
the supplanting by States--it is an opportunity without risk to 
begin moving toward a 21st century Head Start.
    The Chairman. Senator Dodd.
    Senator Dodd. Thank you, Mr. Chairman, and let me thank all 
of our witnesses today for participating and you, Mr. Chairman, 
for holding this hearing.
    Mr. Chairman, as you know, I was planning to introduce a 
pretty comprehensive bill on Head Start with Senator Kennedy, 
but at your request, and I appreciate it, we are going to delay 
doing that for a while to see if we may not be able to work out 
something.
    So I am not going to be placing down a bill before the 
committee today for their consideration, but I would like to 
briefly share with the committee some of the concepts and ideas 
that we are thinking about, at any rate, for the committee's 
consideration and for the witnesses to respond to.
    First, Dr. Lyon, we certainly agree that literacy and 
issues related to it ought to be enhanced if we can. There is 
not much of a debate up here about that. The concern we have is 
that Head Start would become primarily a literacy program and 
would disregard the other important functions which are 
absolutely necessary for any hope of a child learning. You may 
in the laboratory be able to talk about a child acquiring 
literacy skills, but in the absence of having the other kinds 
of medical and social requirements that Head Start places such 
importance on, it seems to us rather difficult to achieve that. 
So I will not go through that with you.
    And by the way, Ms. Wilkins, I want to commend you, because 
we also include in our legislation the idea that we increase 
the educational levels of those who work in Head Start. The 
difference between our proposal and the House proposal, at 
least as it is presently suggested, is that we pay for it, 
which you have got to do. There is no point in having this 
stuff if you cannot pay for it. If we are going to saddle 
States with huge deficits today and expect them to pick up the 
cost of that, we might as well not write it, in my view. So I 
will not dwell on that.
    To my colleague, Senator Alexander, who raises some very 
good points, we also suggest in this proposal that there be 
greater coordination, which I think is extremely important 
there. It will give States a greater role in coordination and 
collaboration, which is I think one goal the States can really 
help us achieve, among early care and education programs. It 
would require Head Start programs to align curricula and 
classroom practice with early learning and school readiness 
standards and strengthen accountability among Head Start 
programs to ensure they are complying with Head Start 
performance standards. So we invite you to sit with us as well 
as we try to work out a bill that we can have bipartisan 
support on.
    Let me get to the standards issue if I can with you, Ms. 
Hill, because I am troubled by what is in the House bill and 
what the President is proposing.
    First of all on the block grant, you said, and I quote from 
page 9 of your testimony, that ``neither the President nor the 
House proposal allows States to do away with the comprehensive 
services currently available through Head Start.''
    In my reading of the bill, however, nowhere do I see that 
the Head Start performance standards must be retained by any 
State in order to participate in the pilot. In fact, the 
language on page 59, lines 5 through 8 of the bill, and I 
quote, says that ``The State standards generally meet or exceed 
the standards''--``generally meet or exceed''--``the State 
standards that ensure the quality and effectiveness of programs 
operated by Head Start agencies.'' ``Generally meet''--that 
causes a lot of us a great deal of pause. What does the word 
``generally'' mean? Does it mean on average? Does it mean that 
some standards should be in, but not all? Does it mean, like in 
horseshoes, that if you get them close, that may qualify, or 
not? So we have a great concern, and we wonder whether or not 
you might be willing to strike the word ``generally'' and just 
say flat out that if you are going to have any of these 
programs, they must meet Head Start standards--and not have an 
escape clause like ``generally'' in the wording.
    What is your response to that question?
    Ms. Hill. In terms of the ``generally meet or exceed''--you 
know, I am the neophyte here; this is my first hearing and my 
first reauthorization----
    Senator Dodd. Isn't it fun?
    Ms. Hill [continuing]. It is quite exciting. But I have 
noticed that language in State often differs from language in 
rules and regulations. And whether ``generally'' stays in or 
not, I can tell you that Head Start programs generally meet or 
exceed performance standards now.
    Senator Dodd. All right. I will not quibble with you here. 
I am not expecting you to give an answer for the 
administration; you will have to check. But the point is the 
word ``generally'' does give us a lot of pause because it is 
unclear, it is vague, to put it mildly.
    Second, I want to pick up the point--Senator Jeffords 
raised the issue, and Senator Kennedy did as well--just going 
back to the States, we have put up this chart--and I know you 
cannot read this, but we will provide you with it--but just to 
give you an idea, over the last few months, the number of 
States that have actually cut back on early childhood learning 
programs has been significant. The deficits are huge. The $2 
billion that the States have been spending in this area has 
been reduced pretty significantly.
    The GAO--and we will provide this for you as well--
enumerates the amount of cutbacks that are occurring in early 
childhood programs across the country.
    But second, I think it is important to note as well that 
where there have been--and this is prior to the cuts, again 
going back to the Gilligan study that Senator Kennedy talked 
about done at the Bush Center at Yale--if you start looking at 
some of the areas where Head Start plays such an important 
role, that is, dealing with the whole child and all of his or 
her needs, only 18 percent of States provide family 
caseworkers; home visits, 25 percent; dental referrals, only 40 
percent of the States do it; nutritious meals, only 50 percent 
of the States provide any meals at all; mental health, about 55 
percent of States provide it; vision and hearing, 58 percent; 
only 65 percent of States require immunizations for Head Start.
    So when we start talking about the State programs and 
understanding that cuts are occurring, it gets very, very weak 
in some of the areas that are absolutely critical for Head 
Start children to receive the kind of support they deserve and 
need.
    I wonder if you might comment on some of these State 
figures.
    Ms. Hill. Well, it is important to note that the changes in 
States in terms of providing pre-K services have only happened 
since about 1990, maybe as early as 1985. They certainly have 
not been on this path as long as Head Start has, since 1965; 
and it was not until 1972 that Head Start performance standards 
were put in place to help guide us through this process.
    So that States are beginning to make the effort to provide 
in their pre-K programs the kinds of things that add value to 
children.
    Senator Dodd. Don't you acknowledge that these cuts are 
occurring? Are you not aware that cuts are occurring across the 
country?
    Ms. Hill. Certainly the President's proposal in the School 
Readiness Act takes into account that States will deal with 
budget restraints, and that being the case, only those States 
that are able to make a commitment to Head Start--that is 
almost equal to Head Start--at least 50 percent of the Federal 
investment; States that have standards and are willing to 
implement those standards Statewide. In addition to that, at 
the end of the process, if they are approved by the Secretary, 
they must commit to 5 percent additional in terms of State 
support.
    So Title II of the School Readiness Act is not designed for 
every State, but it is designed to allow those States who are 
ready, who can meet the threshold, to become partners--a 
greater partner--in services to Head Start.
    Senator Dodd. Thank you.
    The Chairman. Senator Reed.
    Senator Reed. Thank you, Mr. Chairman, and I thank the 
panel today.
    Let me go back to the issue of what will this all cost. Ms. 
Hill, the House bill calls for 50 percent of Head Start 
teachers to have a B.A. by 2008. How much additional funding 
would that require?
    Ms. Hill. Our estimate internally is that the cost for 
meeting the requirements of the School Readiness Act is about 
$150 million. I think it is important to note that since 1999, 
we have added about $1.7 billion into the base of Head Start, 
and the majority of those funds has gone into the quality money 
that pays for teacher education. We have met the mandate for AA 
by 2003 at 50 percent.
    Senator Reed. So your model presumes a competitive salary 
level for a B.A. in the localities across the country, and you 
think that is going to be an additional $150 million?
    Ms. Hill. No. The average salary currently being paid to 4-
year degreed teachers in Head Start is $25,600. Currently, we 
have about 29 percent of Head Start teachers with a B.A. We 
need about 12,000 more to meet the language in the School 
Readiness Act.
    Senator Reed. Ms. Wilkins, I think you have a comment.
    Ms. Wilkins. Yes. We have estimated a very different cost 
for meeting the requirements of the House bill. The Trust for 
Early Education estimates that in order to pay the additional 
teachers to meet the House requirement, competitive salaries 
with kindergarten teachers, it would cost about $2 billion over 
5 years.
    We have also estimated that to provide the supports--that 
is, the scholarships and other supports--to meet the House 
requirement, we would need about $1 billion over 5 years.
    Senator Reed. So we are talking about a range of estimates. 
[Laughter.] But these things, in my view, tend to get more 
expensive rather than less expensive, so I would lean somewhere 
in the middle or even toward Ms. Wilkins' estimates.
    In addition, the House bill has put a cap on the training 
and technical assistance at 2 percent just at the time when we 
are trying to enhance the skill levels of teachers and improve 
the quality. Isn't that counterproductive?
    Ms. Hill. Well, I think that the House bill, the School 
Readiness Act, is designed to allow the Secretary to have some 
authority, some discretion, to use dollars to add more 
children. When T&TA needs are addressed in a way that satisfies 
the language of the Head Start Act and the needs of programs, 
any additional funds would be used to bring more children into 
Head Start centers.
    Senator Reed. Well, certainly in terms of the training, it 
is not discretion with a cap; you are capped out at 2 percent.
    Let me turn to another issue because the time is short. 
About how many religious-sponsored entities participate in Head 
Start throughout the country?
    Ms. Hill. Our latest data is about 115 faith-based 
organizations.
    Senator Reed. One hundred fifteen; and how long have they 
participated in Head Start?
    Ms. Hill. The extent varies. It ranges from programs that 
were in at the beginning of Head Start in 1965 to some that are 
within 2, 3, 5 years of beginning service delivery.
    Senator Reed. And in all these years from the beginning, 
they have been required to meet the anti-discrimination aspects 
in hiring staff; is that correct?
    Ms. Hill. Whatever the current language in the statute at 
that time, that is what they were required to meet.
    Senator Reed. And that has not proven an obstacle to these 
religious organizations that participate?
    Ms. Hill. Well, I might point out that it is 115 out of 
1,500 grantees and 400 delegates.
    Senator Reed. But has it been an obstacle to their 
participation?
    Ms. Hill. It is my understanding that many faith-based 
organizations have attempted to apply to serve Head Start 
children but have not been successful for a variety of reasons.
    We know that Head Start is rooted in faith-based 
organizations, and elimination of barriers is a goal of the 
administration by adding language----
    Senator Reed. But you are begging the question. Has it been 
a barrier to participation for the 115? Obviously, that is a 
significant number that are participating today.
    Ms. Hill. Well, I think it sounds like a small number 
compared to the number of grantees currently providing services 
to Head Start.
    Senator Reed. Dr. Lyon, have you done any research on the 
relative difference or relative efficacy of unified religious 
staff teaching reading versus diversified religious staff 
teaching reading?
    Mr. Lyon. No, we have not.
    Senator Reed. Wouldn't that be important in terms of making 
decisions, particularly decisions that involve fundamental 
civil rights?
    Mr. Lyon. If in fact the question were cast in a context 
where we had a scientifically robust purpose--that is, we do a 
lot of examinations of how different curricula, different 
programs benefit kids from different backgrounds. Frankly, we 
have not looked at their religious affiliation; what we have 
looked at is the kinds of things we have been talking about, 
that being their background, their training, interactions that 
occur between adults and kids, and so on.
    But I will have to take this one back to NIH and talk to my 
colleague at IES; he may want to comment.
    Senator Reed. Well, does it suggest to you that you have 
looked at a myriad of different details, but that one is so far 
down your list that you have not looked at it? Doesn't that 
suggest how critical it is in your scientific field?
    Mr. Lyon. Well, it certainly has been far down my list, I 
will grant you that.
    Senator Reed. This opens up an issue, because the House 
bill has language which I think will be very controversial. 
Frankly, it does not seem to me to be an impediment to 
participation to date nor going back 30 years, and it seems to 
have no scientific basis in terms of the efficacy of teaching 
children how to read.
    I would hope we could move beyond that quickly in this 
Senate.
    The Chairman. Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman, and I 
thank all of our witnesses.
    Let me start with the administration witnesses and just say 
that I understand your concerns about ensuring that Head Start 
children have the pre-literacy and pre-numeracy skills that 
they need to succeed in school. I think everyone shares that 
goal.
    I do not agree that the quality of Head Start explains why 
children who have gone through most of their lives without 
support or resources or stimulation are not on par with middle-
class children after just 9 months of 3 hours a day in a Head 
Start program. However, I do agree that we need to take action 
to ensure that they are on par with school children, and I 
think we should look at a number of proposals that have been 
laid before us.
    But where you really lose me on your proposed solution is 
that you propose no requirements for teacher credentials, no 
money for large-scale literacy effort in classrooms, and no 
expansion for children who receive Head Start or receive more 
intensive services.
    What you do say is that in order to strengthen literacy, we 
ignore all the performance standards that we have worked over 
the years long and hard to build and strengthen, in favor of 
allowing States to see if they might do a better job.
    Now, it is true that some States have developed some great 
preschool programs--and my home State of Washington is one of 
them--but I have talked to a lot of people around my State who 
administer both Head Start and ECAP, and they all tell me the 
same thing. They say that the program that they provide through 
Head Start is far better than what they can provide with State 
dollars.
    Senator Dodd had a chart up here showing how many State are 
really struggling with budgets right now, and providing 
additional dollars is not something I have heard any of them 
talking about.
    But what all of our teachers agreed is that the difference 
comes in the same performance standards that your block grant 
proposals says we should allow States to ignore. So before we 
throw the baby out with the bath water, tell me if you have any 
studies--at all, anything--showing that any State preschool 
program has better results in improving the achievement of low-
income children than Head Start does currently.
    Ms. Hill. The first comment in response is that there is 
not a proposal to throw out the Head Start performance 
standards. Certainly, everything that has been done----
    Senator Murray. But your proposal does not say that those 
performance standards will remain. It gives a block grant to 
States, who can then choose whether or not to keep those 
performance standards.
    Ms. Hill. There is quality in Head Start in a number of 
areas, and we have been very successful in Head Start. Having 
been a----
    Senator Murray. Is there any requirement in your bill that 
the performance standards have to be kept if the States get a 
block grant?
    Ms. Hill. Programs are to meet or exceed the current 
standards that are being implemented in Head Start.
    Senator Dodd. ``Generally.''
    Senator Murray. ``Generally.''
    Ms. Hill. As Senator Kennedy and Senator Dodd have pointed 
out, they would like to see that ``generally'' removed.
    I can tell you the intent of the administration is not to 
dilute or dismantle Head Start but to take those things that 
have been extremely successful in preparing children to the 
next level, to build on the 1998 platform of early language and 
literacy and to continue to enhance.
    Senator Murray. My time is short. I have heard that part of 
the argument. What I want to know is if there are any studies 
of any State programs.
    Mr. Whitehurst. Senator Kennedy mentioned a review by Ed 
Zigler, who is usually acknowledged as the father of Head 
Start, with respect to State programs and Head Start programs, 
and that review indicates, consistent with Dr. Shaul's 
testimony, that we really do not have rigorous studies that 
speak either to the impact of Head Start as currently delivered 
or to the impact of State programs.
    Senator Murray. OK. So there are no studies on which to 
base your proposal that say that States are doing much better 
in performance than the Federal Government is, but we are going 
to change all that and just give them the benefit of what we do 
not know?
    Mr. Lyon. I think what we do know are the conditions that 
need to be in place wherever the programs are located to 
optimize our kids' development to get them ready for school. We 
do know those conditions.
    I cannot speak to the State block grant issue. What I can 
speak to is the need to develop new models where in fact we can 
bring together interactions to develop all of these 
capabilities that we are talking about.
    And if I could just mention in terms of Senator Dodd's 
question, the fact is we are finding that the development of 
social and emotional competencies are enhanced when we can 
build good seamless programs with teachers who know how to do 
that, and in fact----
    Senator Murray. Dr. Lyon, the rhetoric sounds great. The 
problem is that the Federal Government right now invests $6.5 
billion to serve three out of five of our poorest 3- and 4-
year-olds. States now invest $2 billion in preschool--much less 
than the Federal contribution--and the bulk of that funding is 
concentrated in 10 States, and right now, we see investment in 
States' budgets just unraveling.
    Have any States come forward to you to say that they are 
going to invest more money in Head Start and maintain the same 
level of services should we change this program around?
    Ms. Hill. Certainly there are States who are very 
interested in----
    Senator Murray. Which States have come forward with budget 
requests to their legislatures for additional dollars?
    Ms. Hill. At this point, there are no legislative budget 
proposals, but there are States who have expressed interest in 
this model. They appreciate the opportunity----
    Senator Murray. This model to get Federal dollars sent 
directly to them rather than to their local communities, so 
that they----
    Ms. Hill. They are interested in a model that allows them 
to integrate Head Start into their other early care and 
education programs.
    Senator Murray. I can tell you that if I were a Governor, I 
would love to have the Federal Government send me additional 
dollars so that I could deal with the budget crisis that I was 
having right now. But I know that that would come at the 
expense of our current Head Start programs that are meeting 
performance standards, are doing the best they can, and should 
have expanded resources to serve more children. I guess that is 
what really concerns me about this proposal at this time.
    I know my time is up, Mr. Chairman. I just want to ask Ms. 
Santos very quickly--do you have any foster kids in your 
program, or any homeless students?
    Ms. Santos. Yes, we do; homeless and foster children, yes.
    Senator Murray. So you serve all those populations.
    Ms. Santos. I am sorry?
    Senator Murray. We always talk about Head Start like we 
have a bunch of 4-year-old robots who all look alike, and they 
go through this program and get assessed and move on. The 
reality of a preschool program, a Head Start program, is that 
you have homeless children, you have foster children----
    Ms. Santos. Yes.
    Senator Murray [continuing]. You have children from one-
parent families, two-parent families, kids who may not have had 
their dad come home last night, or what you described; and I 
just think we have to be really careful with that perception.
    The Chairman. Senator Harkin.
    Senator Harkin. Thank you, Mr. Chairman.
    Sometimes, the longer I am around here, the more it seems 
like nothing every really changes; we just come back and plow 
the same ground over and over again.
    In the late 1980's, the Council for Economic Development 
had a major study done. This was a group of CEOs of leading 
corporations in America, and the head of that group was Jim 
Ranier, who at that time was the head of Honeywell. They spent 
the better part of 2 or 3 years studying what needed to be done 
for economic development--economic development--in the United 
States based on education.
    You would have thought that they might have focused on more 
science and math courses in college, they might have focused 
more on technology training in high school. They looked at 
everything, and at the end, they came up with a report. And do 
you know what their executive summary said? It said that we 
must understand that education begins at birth, and the 
preparation for education begins before birth.
    Here was a group of the leading CEOs in America--no social 
scientists, mind you--doing a study and concluding that we do 
not focus enough on WIC programs, on maternal and child health 
care programs, and Head Start programs.
    But their focus was on early programs. Now, we know from 
studies from NIH that 85 percent of brain development occurs 
before the age of 3. I think that is well-accepted data.
    So all the talk I have heard this morning has to do with 
something after 3 years of age. And Ms. Hill, in your 
testimony, you do not even mention Early Head Start. You do not 
even mention it. But I am not singling you out. A lot of you 
did not, either--a couple of you mentioned it.
    Yet if all we are going to do is pour money in after age 3, 
after a lot of damage has already been done, we are just 
spending money, and we are not catching up. So it seems to me 
that what we have got to do is focus more on these early years, 
Early Head Start.
    Right now, you have, what, 3 percent; is that right, Ms. 
Hill?
    Ms. Hill. Yes.
    Senator Harkin. Three percent of eligible kids are served 
by Early Head Start programs. Again, we can talk about how we 
are going to do this with the States, and how we are going to 
monitor this and fix that, but unless and until we commit 
ourselves as a nation and as a society to reach down to every 
pregnant woman and guarantee that she is going to have full 
maternal and child health care programs, good nutrition 
programs, to make sure that every baby is born healthy, to make 
sure there are intervention programs and home visit programs 
and support for every child early on in life, from zero to age 
3, forget about it. You are never going to get any better than 
what we are doing right now.
    I mean, we will do well--Head Start has been a wonderful 
program; it has been successful--but it has been limited and 
constrained by the fact that we will not commit the resources 
needed to get down to these early kids, and even from 3 on. We 
pay teachers $21,000 a year. That is more than they have been 
paid in the past.
    The kids are there for 3, 3\1/2\ hours a day. Most of their 
days are spent with someone else--spent in a nonloving 
environment, perhaps, an environment that is not conducive to 
their social, emotional, and educational well-being. And we 
expect that 3\1/2\ hours a day to somehow overcome the other 21 
hours a day that that child is living.
    So I have a lot of questions, but I just think we can beat 
this around, and we can tell you the States--I think Senator 
Dodd had it right. When you look at what the States are doing, 
they are not doing one fraction of what we are doing in Head 
Start in terms of home visits, support services, monitoring, 
referrals--all that is mandated under Head Start. So it seems 
to me that if a dispassionate observer came from outer space 
and looked at what the States were doing and what the Federal 
Government is doing, they would say the States ought to give 
everything to the Federal Government and let them run it--not 
the other way around.
    So I think this is one case where theology--or ideology, I 
should say--ideology has gotten ahead of what we know--not only 
what we intuitively know, but what we know empirically--over 
the last 50 years.
    So if we just want to ignore the empirical data, if we want 
to ignore the scientific basis, if we want to ignore all the 
reports that have been done going back 25 years, fine--but do 
not expect any more than what we are getting out of Head Start 
right now.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Clinton--thank you for your patience, Senator.
    Senator Clinton. Thank you, Mr. Chairman, for holding this 
hearing. I think it is not only very important but essential 
that we try to sort out the different reactions to the 
administration's proposal, and I hope that out of this 
committee, we will have a bipartisan bill along the lines of 
what Senator Dodd has proposed.
    And I am sure that the witnesses, particularly the 
administration witnesses, understand our concerns and our 
cautions. I am struck, when I think about programs for 
children, by how often they are in the States used as 
piggybanks for other programs, and they do not provide the 
basis for a sustained commitment.
    When we passed the CHIP program back in the Clinton 
Administration, we put in a provision that States that did not 
use their money to provide services to children, because they 
would have had to match those dollars to some proportion, would 
lose them. I thought that was a pretty good idea, because I 
could not imagine any State being willing to stand up in front 
of their own citizens and the rest of the country and say: 
Guess what--we did not spend all the money we could have spent 
to take care of children. But indeed, that did occur.
    So there is an enormous amount of not only suspicion but 
evidence and experience which many of us who have worked on 
these issues for a long time bring to this debate. And I think 
the reauthorization that we are considering should be building 
on the positive changes that took place during the 1990's.
    We have already discussed the extraordinary successes of 
Head Start, and I agree with the research findings and with the 
experience in the field that we do have to increase the overall 
educational level of the Head Start teachers. Every Head Start 
director I know believes that--but where are they going to get 
the funding to do it?
    I know that many Head Start directors are frustrated by the 
lack of resources which they know they need to provide the 
high-quality educational services that the children they are 
entrusted with deserve to have.
    But we were making progress. We increased enrollment in 
Head Start during the Clinton Administration. We increased 
funding by 120 percent. We created the Early Head Start Program 
to begin to do exactly what Senator Harkin said we needed to 
do, which was to focus on infants and toddlers. And in the 1998 
reauthorization, we doubled the Early Head Start Program so 
that it can serve 62,000 infants and toddlers.
    We have a long way to go, but we know what direction we 
should be heading, and with all due respect, the administration 
is coming to us and essentially raising suspicions in many of 
our minds that the real agenda is to eventually block grant 
this important program, turn it over to the States, which have 
a mixed record at best.
    Instead, it would be very helpful if we continued to build 
on the performance standards and outcomes, if we invested more 
money in the kind of research that both Drs. Lyon and 
Whitehurst do, that we actually took the evidence we do have 
about what works and fund it.
    But it is also very hard for any of us who look at the 
Federal budget to believe that there is going to be the funding 
available to do any of this. So on the one hand, the budget 
picture is dismal. Children are always competing with other 
more powerful forces for the money they need, especially if 
they are vulnerable poor children. And we do not have the 
commitment to the performance standards in specifics as opposed 
to generally that many of us would like to see.
    So I do not think you will get any argument from any of us 
on this committee that anything we can do to improve the 
quality and the outcomes of Head Start, we are committed to 
doing. The clearest way of doing that, as Ms. Wilkins has so 
eloquently advocated, is to put more money into raising the 
educational levels of the educators in Head Start. I do not see 
that forthcoming in this proposal.
    Instead, I see, as I do with so many of the 
administration's recommendations, that we are looking at the 
unraveling of a Federal commitment and the hoped-for State 
commitment that has not materialized to date, and we do not 
really believe it will in all 50 States. There may be 
exceptions. There may be court decisions like Abbott in New 
Jersey that force a State to act. But I have been around for a 
long time. We have been fighting this battle for decades. If 
the States really wanted to do this, they would have done it. 
Head Start started because we knew that in the absence of a 
Federal commitment to poor children, there would be very few 
States that would provide the services that these children 
deserve to have.
    And I do not in any doubt the sincerity of the witnesses, 
but the facts and the evidence of decades of experience lead me 
to doubt the administrations intention.
    So I am hoping that what we can do is, in a bipartisan way 
here on our committee and in the Senate, under our chairman's 
leadership and Senator Kennedy and Senator Dodd's leadership, 
come up with a reauthorization that truly will build on the 
progress we made in the 1990's, put some real dollars into it, 
and put Head Start on a firm footing for the 21st century, with 
additional requirements and standards, which every decent Head 
Start person I have ever talked to is begging for. And I hope 
that we are going to be able to produce that, and I would look 
forward to working with the administration to achieve that 
goal, but it is going to take money and commitment, not just 
rhetoric.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    I want to thank the Senators for their patience and for 
their participation. This has been an excellent hearing. We 
especially thank the panel for their presentations, which were 
extremely informative.
    Thank you very much. Have a great day.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                  Prepared Statement of Windy M. Hill

    Mr. Chairman and Members of the Committee, I appreciate this 
opportunity to testify before you today on the President's plan to 
strengthen Head Start as one means for helping to ensure that every 
child has the opportunity to enter school ready to learn. I testify 
before you not only as the Associate Commissioner of Head Start, but 
also as a former Head Start child and the mother of a Head Start child 
who is now an accomplished high school student following her ``great 
start'' in Head Start. I truly believe that the President's plan will 
help ensure that our preschool children will indeed have the 
opportunity to enter kindergarten ready to learn and prepared with 
knowledge and skills they must have to succeed no matter where they 
started.
    I believe the House took a major step toward ensuring that Head 
Start children have the skills they need to succeed in school by 
marking up legislation to reauthorize and strengthen the Head Start 
program. We look forward to building on the momentum created by H.R. 
2210, the ``School Readiness Act of 2003'', and your hearing today to 
move the Head Start reauthorization forward in the coming weeks.
    Head Start was launched in 1965 as part of a bold, ``big idea''--
that no child should be limited in his or her education because of the 
circumstances of their families. For 38 years this country has 
demonstrated a national, bipartisan commitment to this ``big idea''. 
Congress has sustained funding for the Head Start program and has shown 
a willingness to make changes when necessary to improve outcomes for 
children such as the addition of the Program Performance Standards and 
raising teacher qualifications. We have the same goal--to prepare 
children--many like me--for success in school and later in life. Given 
that goal, none of us should be satisfied until we have achieved the 
vision reflected in the ``big idea'' that is synonymous with Head 
Start--that economically disadvantaged children should arrive at school 
on a more level playing field with economically advantaged peers. While 
anything short of fully achieving this goal should not be seen as a 
failure, we must all see it as a challenge for us to do even better.
    Consequently, when research showed that Head Start graduates, even 
those making significant progress, continue to lag too far behind on a 
number of important indicators of early literacy and math skills, the 
President and Secretary Thompson sent a clear message--given this 
compelling evidence, more had to be done to strengthen the educational 
outcomes for children. As part of the President's Good Start, Grow 
Smart initiative, we were directed to increase the knowledge and skills 
of Head Start teachers in the area of preschool language and literacy 
and to create and manage a National Reporting System that will help 
measure children's progress in mastering the skills necessary to 
prepare them for a lifetime of learning.
    Furthermore, the broader social context has changed dramatically 
since 1965 when many States were just beginning to implement universal 
kindergarten and no State had a publicly funded preschool program 
primarily targeted to low-income children. In 1965 there was no need 
for Head Start to coordinate with State-run preschool programs because 
there weren't any. Today, more than 40 States and the District of 
Columbia have early childhood programs of their own. Numerous States 
are creating or revising their standards for child care and preschool 
programs. Research also supports the importance of providing 
comprehensive services, so States now are involved in trying to 
integrate a multitude of other programs aimed at young children and 
their families--including Temporary Assistance for Needy Families 
(TANF), the State Children's Health Insurance Program (SCHIP), 
Medicaid, special education, developmental screening, and outcome 
assessments.
    In response to the President and Secretary Thompson's charge and 
our changing social context, we looked for ways to improve the 
effectiveness of the Head Start program. Much about the program was 
working, and working well, but we knew the program needed to move 
ahead--particularly in the area of educational gains and coordination. 
I would like to briefly describe our on-going efforts to improve the 
educational component of Head Start over the past 2 years, as well as 
provide detail on the President's innovative proposal.

The Bottom Line is School Readiness

    The bottom line for the President, and now underscored in H.R. 
2210, is school readiness--improving early childhood learning 
experiences while holding programs accountable for achieving positive 
educational outcomes. Research tells us a great deal about the skills 
and knowledge children need to be successful in school. Success in 
school is a strong predictor of success in life, as reflected in lower 
delinquency rates, less teen pregnancy, higher income, fewer health 
issues, less suicide, and so forth.
    Federal and State governments currently spend more than $23 billion 
each year for child care and preschool education--and much more than 
that when you consider the other State health, nutrition, and welfare-
related programs that serve these same children and families. Never has 
there been such a clear commitment on the part of Federal and State 
governments to enhance the well-being of children and families. Never 
have we known so much about what children need for healthy growth and 
development. Never have so many programs been focused on meeting these 
needs of our most vulnerable children and families.
    At this same time, however, though Head Start children make 
progress in areas of school readiness during the Head Start year, they 
continue to lag behind their more economically advantaged peers on a 
number of important measures of early literacy and math skills at 
kindergarten entry.
    The Head Start Family and Child Experiences Survey (FACES) is at 
the center of our research on the quality of Head Start and the 
outcomes for children. In the FACES studies, child outcomes are 
measured through direct assessment, observation, and parent and teacher 
ratings, drawing upon a nationally stratified random sample of 3,200 
children. FACES provides national data on Head Start child outcomes, 
family involvement, key aspects of program quality and teacher 
practices.
    Research findings from FACES allow us to compare the performance of 
Head Start children enrolled in 1997-1998 with children served in 2000-
2001. Both groups of children entered Head Start with levels of 
academic skills and knowledge far below national norms. Both groups 
demonstrated progress in early literacy and social skills and that is 
good news. However, their overall performance levels when they left 
Head Start still remained significantly below national norms for school 
readiness and that is not good news for these children. Therefore, we 
must do more to ensure that Head Start children enter kindergarten with 
strong early literacy and math skills.
    In responding to the President's Good Start, Grow Smart initiative, 
the Head Start Bureau has already undertaken a number of efforts aimed 
at bolstering the school-readiness of Head Start children. The 
Strategic Teacher Education Program, known as STEP, launched last 
summer, was designed to ensure that every Head Start program and every 
classroom teacher has a shared, basic, fundamental knowledge of early 
language and literacy development, and of state-of-the-art early 
literacy teaching strategies. More than 3,300 local program teachers 
and supervisors have received this training and have served as 
``trainers and coaches'' to the nearly 50,000 Head Start teachers 
across the country. I am pleased to report that the local trainers, 
coaches, and directors are reporting that the STEP training is making a 
difference in their classrooms.
    Following the summer training sessions, the Head Start Bureau 
conducted national training on mentor-coaching and on the social-
emotional development of young learners. These events expanded the 
skills of teachers and supervisors in fostering effective classroom 
learning environments and additional teaching practices. A national 
web-based resource, called STEP-Net, has been created to help early 
literacy specialists and coaches access and use resources and tools, 
and to exchange information and promising practices.
    As you know, the President has made accountability a guiding 
principle of this Administration. In keeping with that principle, we 
are working to make sure that we measure the outcomes of our efforts, 
not merely the services that make up each of our programs. To that end, 
one of the most important indicators of any program's efficacy is 
whether or not it helps those it is intended to help reach certain 
goals and outcomes.
    Good Start, Grow Smart, therefore, calls for not only the 
improvement and strengthening of Head Start through intense, large-
scale efforts in the areas of early language and literacy, but also for 
a method to track the results of this effort. Good intentions, although 
better than bad intentions, are not good enough. This Administration 
believes that we must also challenge ourselves to determine whether or 
not good intentions and well-designed implementation are translating 
into good outcomes. We must, therefore, do a better job of determining 
how well Head Start children across the country are being prepared for 
kindergarten success. This fall we will begin implementing the national 
assessment of some of the congressionally-mandated, school readiness 
indicators for the 4-year-old children in Head Start.
    In developing this child outcomes assessment system, we worked 
with, and will continue to work with a technical workgroup that advises 
and guides the selection, development, field-testing and use of 
reliable and valid measurement tools for Head Start children. When no 
reliable and valid instruments currently exist, we will engage the 
appropriate researchers to develop or refine them before including them 
in this outcomes reporting system. Our short-term goal is to include 
only those assessment tools that are reliable and valid for use with 
economically disadvantaged 4-year-old children with the cultural, 
socio-economic and linguistic differences of Head Start children.

The President's Proposal

    We believe this focus on the educational component of Head Start 
and the measurement and assessment of outcomes will move the Head Start 
program to a higher level of overall success for low-income children. 
However, even more must be done as we have heard from Governors, 
advocates, and even some Head Start directors that a lack of adequate 
coordination between Head Start and State-administered programs is 
undermining the program's ability to provide high quality preschool 
services to as many children as possible throughout every State. Where 
coordination is not currently occurring, we are finding large gaps and 
patchy areas in our safety net, to the detriment of young children and 
their families.
    In some places, State pre-kindergarten and Head Start programs are 
located in the same community and one or both programs are under-
enrolled and are competing for the same children and families. 
Meanwhile, there are other communities where large numbers of children 
remain unserved by either State pre-kindergarten or Head Start. To 
further complicate this issue, when services in the early childhood 
years are not well coordinated, children can end up in three different 
settings within a single day: for example, early childhood special 
education services, Head Start and child care.
    Lack of coordination accelerates troubling and often, avoidable 
problems--one of them is under-enrollment. Our most recent statistics 
indicate that a Head Start program, by mid-year can be under-enrolled 
by seven percent. Nationwide this would translate as 62,000 slots for 
children that the Federal Government is paying for, but are going 
unfilled. We believe a growing problem of under-enrollment is caused, 
at least in part, by Head Start programs and other early childhood 
programs competing for the same children, rather than collaborating to 
serve as many children as possible.
    To strengthen the Head Start program, improve services to low-
income children, and promote the coordination and integration of early 
care and education services, President Bush is asking Congress to 
include a provision in the reauthorization of the Head Start Act to 
allow interested States to plan for, manage, and integrate Head Start 
in their overall plans for preschool services.
    As part of the solution, under both the President's proposal and in 
H.R. 2210, States are offered the opportunity to coordinate their 
preschool programs and child care programs with Head Start in exchange 
for meeting certain accountability, maintenance of effort and 
programmatic requirements. States eligible to participate must submit a 
State plan for approval to the Secretary of Health and Human Services 
that addresses several fundamental issues.
    The School Readiness Act supports the President's plan in other 
ways as well. Each State must indicate in its plan how it would better 
coordinate Head Start with State-administered preschool programs. The 
shared goal in making this option available to the States is to 
coordinate preschool programs to better meet the needs of more 
children. In addition, the State plan must address how it will work to 
develop goals for all preschool children in the State and devise an 
accountability system to determine whether children are achieving the 
goals. In keeping with the President's plan, H.R. 2210 concurs that 
States must describe in their plan how they will maintain the 
comprehensive range of child development services for children 
supported by Head Start funds, including the provision of social, 
nutrition and health services, and guarantee that they will continue to 
provide at least as much financial support for State preschool programs 
and Head Start as they are currently providing.
    The President's proposal, and now, the School Readiness Act, share 
characteristics that are frequently misunderstood, misinterpreted or 
overlooked altogether. I imagine, Mr. Chairman, that you and your 
colleagues have received numerous phone calls and letters around some 
of these issues. I would like to speak directly to a few of those 
areas.
    First, neither the President, nor the House is proposing to block 
grant Head Start funding to the States. In fact, Head Start will 
continue to be managed as a Federal-to-local program, except in those 
instances where States are ``eligible'' to apply and are funded for 
integrated preschool services that are approved by the Secretary of 
Health and Human Services. To be clear on this point, no State will be 
required to take advantage of this opportunity nor is anyone proposing 
that the Head Start program be turned over to States with no strings 
attached.
    Second, neither the President nor the House proposal allows States 
to do away with the comprehensive services currently available through 
Head Start. Indeed, States taking advantage of this option must make a 
commitment to maintain the comprehensive services currently available 
through Head Start for those children who, under the State plan, are 
supported with Head Start funds. In addition, this Administration 
believes that the need for parental involvement in Head Start is a 
vital component to its success.
    Third, both the President's plan and the House bill make clear that 
the Federal Government will not cease or relinquish its oversight 
responsibilities for the Head Start program. Under the President's 
proposal, States who choose this option and who have their plans 
approved will still be accountable to the Federal Government for their 
use of Head Start funds and for achieving positive outcomes for 
children. In cases where a State does not choose this option or where a 
State's plan is not approved, the Federal Government will continue to 
administer the Head Start program as a direct Federal-to-local program.
    And the final major area of agreement I want to mention is that 
neither the President's plan nor H.R. 2210 will allow States to 
supplant State preschool--or any other State funds--with Head Start 
dollars. Neither would a State be eligible if they reduced their State 
spending levels on early childhood programs. Indeed, H.R. 2210 concurs 
with the President's proposal that States must maintain their current 
level of State spending on preschool programs.

Current Partnerships

    Even in its historical, Federal-to-local program structure, Head 
Start has always recognized the important role that States play in the 
formulation and implementation of policies and initiatives that affect 
low-income children and their families. Partnerships have always been 
one of Head Start's highest priorities. These include partnerships with 
local school districts, nearly 450 of which operate Head Start 
programs, and partnerships with local governments--with 150 city and 
county governments now operating Head Start programs.
    In addition, we currently have State collaboration projects in all 
50 States, as well as the District of Columbia and Puerto Rico. One of 
their roles is to facilitate significant, statewide partnerships 
between Head Start and the States in order to meet the increasingly 
complex challenges of improving the quality and efficiency of services 
for economically disadvantaged children and their families.
    Through these and other efforts at the State and local levels, Head 
Start has sought to support the development and enhancement of State-
level efforts to build early childhood systems through linkages, 
coordination, and integration of goals, policies and services. We will 
continue these efforts to forge meaningful partnerships on behalf of 
children and families to remove as many obstacles to partnership as 
possible. In addition, the reauthorization of the Head Start Act 
affords us the opportunity to do even more, by offering States the 
option to include Head Start in their State preschool plans.

The Time is Right

    One of the reasons the Head Start program has remained strong over 
the course of nearly four decades is that it adapts to accommodate the 
changing needs of children, families and communities. Now, more than 
ever, economically-disadvantaged children and their families need a 
strong, coordinated system of early care and education to help families 
and children succeed.
    The time has come to allow full integration of early childhood 
services and preschool education, including Head Start within States. 
We cannot afford to disperse resources through overlapping, competing 
or ill-coordinated early childhood programs.
    Most importantly, we cannot afford to have children slip through 
the cracks that non-systematic approaches create. We do not want any 
more preschool children--Head Start and others--to be left in the early 
childhood ``learning gap'', particularly when children with the 
greatest need for support continue to remain well below national norms 
of school readiness.
    Our children and families deserve the best programs that we can 
provide and that States and communities can support. The President asks 
that you allow States the option of integrating Head Start--our 
nation's leading program for low-income preschoolers--into their 
planning for, and delivery of coordinated services.

Other Improvements

    Before concluding my statement, I would like to briefly highlight a 
couple of other aspects of the President's Head Start reauthorization 
proposal that will strengthen our ability to ensure program quality and 
accountability and better support school readiness.
    Of particular note, our proposal would change the current set-aside 
for training and technical assistance to provide the Secretary with 
greater discretionary authority to allocate these resources each year 
in a manner that will maximize benefits to children and families. Our 
proposal would also provide flexibility in targeting necessary funding 
for quality improvements. Training and technical assistance resources 
have grown considerably in recent years at a rate well above the growth 
of Head Start--while, at the same time, grantees have had access to 
quality improvement funds that provide them additional resources for 
these activities. These changes will allow the Secretary to determine 
the most appropriate level of funds, taking into account all the other 
needs of the program, the children and their families. For example, in 
fiscal year 2004, the increased flexibility will provide enrollment 
increases in areas of the country with the greatest unmet needs for 
Head Start services.

Conclusion

    This committee has worked tirelessly over the years to provide a 
solid support system for our nation's most vulnerable children and 
families. Head Start remains a part of our nation's commitment to the 
original ``big idea'' that no child can be left behind because of the 
circumstances of their families or communities. This means that while 
recognizing the important contribution that Head Start has made over 
the past 38 years, we can, should and must do more--for we have not yet 
fulfilled the full promise of the Head Start program.
    The Administration is committed to strengthening the educational 
component of Head Start and improving the coordination of services to 
benefit school readiness for preschool children. Given the current 
social environment, with the collage of services available, we believe 
it is time to test a new approach to coordination. Can we guarantee 
that it will work? That is an empirical question to be answered through 
assessment of outcomes--and I believe that is one reason that the House 
concurs with the President's proposal to give at least some States the 
option to develop new ways to better coordinate services for low-income 
children and families rather than proposing a block grant. Under this 
option, the Administration is committed to carefully monitor progress, 
measure results, and determine whether States can successfully offer 
alternatives that will result in better outcomes for children. At the 
same time, our efforts to strengthen the educational aspects of the 
Head Start program will continue and the outcomes will be examined.
    Thank you, Mr. Chairman, for your commitment and dedication to the 
well-being of our nation's children, and thank you--Members of the 
Committee, for your desire to hear more about our strategies to make 
Head Start stronger to impact the lives of children and families. I 
look forward to any continued dialogue as work proceeds on the 
reauthorization of the Head Start program. I will be happy to answer 
any questions you may have.

                   Prepared Statement of G. Reid Lyon

THE CRITICAL NEED FOR EVIDENCE-BASED COMPREHENSIVE AND EFFECTIVE EARLY 
                           CHILDHOOD PROGRAMS

    Good morning Mr. Chairman and Members of the Committee. My name is 
Reid Lyon and I serve as the Chief of the Child Development and 
Behavior Branch at the National Institute of Child Health and Human 
Development (NICHD) within the National Institutes of Health (NIH). I 
am honored and humbled to appear before you today to discuss several 
critical issues that must be addressed if we as a Nation are to ensure 
that all children have the opportunity to enter school ready to learn.
    I am humbled because I know of no greater gift, beyond the basics 
of life, love and health, that we can give to our children than to 
provide them with the social, emotional and cognitive foundations that 
will enable them to succeed in school. I have spent a good part of my 
career studying reading development and reading difficulties and 
directing research programs that study children and their development 
from kindergarten into their adult years. It is very clear to me that 
young children who come to kindergarten without essential language, 
early reading and math skills and other cognitive and conceptual 
abilities are already at risk for significant school failure.

Comprehensive Preschool Programs: Helping Children Become Ready for 
                    School and Ready to Read

    Our research tells us that children entering kindergarten who 
understand the structure and sounds of words, the meanings of words, 
the rudimentary elements of the writing system, and the concept that 
print conveys meaning, have significantly higher reading scores at the 
end of the first grade than children who do not have these skills. In 
fact, the difference between children who do and do not have this 
knowledge upon entering kindergarten is approximately one year's worth 
of reading development at the end of the first grade. We also know that 
well over 80 percent of children reading poorly at the end of the first 
grade will be reading poorly at the end of the fourth grade. We know 
that if we do not close these gaps by nine years of age, there is an 
overwhelming probability that reading failure will follow the 
individual into adulthood. Data obtained from the NICHD Connecticut 
Longitudinal Study show that approximately 75 percent of students 
reading poorly at nine years of age continue to flounder in reading 
into the adult years. To be sure, limited reading abilities portend 
dire consequences.
    Unfortunately we are not talking about a small number of lives that 
are adversely affected by reading and academic failure. Over the past 
decade, almost 40 percent of the nation's fourth graders, and at least 
60 percent of fourth-grade children growing up in poverty have failed 
to meet basic literacy standards. For example, in many urban school 
districts the percentage of fourth grade students who cannot read at 
the basic level approximates 70 percent. By grade twelve, Black and 
Hispanic students read, on average, at the same level as white eighth 
grade students. And the majority of these children would not suffer 
from reading failure in grades four or twelve if they entered 
kindergarten with a strong language foundation and with a good 
understanding about print, sounds, sound-letter connections, and 
writing concepts, followed by strong early reading supports in the 
first few years of school. In fact, the National Research Council (Snow 
et al., 1998) estimated that if children receive proper exposure and 
systematic opportunities to develop foundational language, reading, and 
emergent writing skills during early childhood, as few as five percent 
may experience serious reading difficulty. This would be of enormous 
benefit to our children, to their families, and to society. Preschool 
programs that succeed in promoting children's language and early 
literacy skills--so they enter school with age-appropriate 
competencies--have been proven to change the course of children's 
school careers and their adult lives (Ramey & Ramey, 2001).
    In the next decade, if the American early care and education system 
does not change, millions more children will never realize their 
potential. What makes this issue so compelling and troublesome is it 
does not have to be this way. We do know a good deal about the 
foundational preschool abilities that predict success or failure in 
reading in the early grades, and we are making substantial progress in 
identifying the characteristics of high quality preschool programs that 
are able to help three and four year old children acquire these 
critical abilities.
    We also know that preschool children from disadvantaged 
environments are significantly behind their more affluent age-mates in 
linguistic skills essential for later reading development. Our research 
tells us that this is because youngsters growing up in low-income 
environments engage in significantly fewer literacy (e.g., shared book 
reading) and language (adult-child discussions) interactions in the 
home. As Hart and Risley pointed out in their NICHD supported research 
with professional, working class and welfare families, the average 
child on welfare was having half as much experience listening and 
speaking to parents (616 words per hour) as the average working-class 
child (1,251 words per hour) and less than one third that of the 
average child in a professional family (2,153 words per hour). What 
does this mean? It means that our preschool programs must provide 
children from low-income families with systematic and evidence-based 
interactions to close these gaps. In many ways, a comprehensive 
preschool program designed to help children develop the necessary 
cognitive, language, early reading, social and emotional competencies 
is their last hope to eventually succeed in school.
    Let me be more specific about why youngsters from low-income 
environments are at substantial risk for reading, and thus school 
failure. A number of studies conducted by Grover Whitehurst, Chris 
Lonigan and their colleagues with children ranging in age from two to 
six found that phonological sensitivity (the ability to detect and 
manipulate the sound structure of oral language) and letter knowledge 
were highly predictive of success and failure in developing later 
reading skills in kindergarten and first grade. When comparisons were 
made between low and high-income children, two conclusions were 
evident. First, children from low-income families have significantly 
less well-developed phonological sensitivity than children from higher 
income families. Second, children from lower income families 
experienced significantly less growth in phonological sensitivity 
during the preschool years compared to their higher income age-mates. 
In a recent study reported in 2002, Lonigan studied longitudinally the 
growth of phonological sensitivity and print knowledge of 325 three to 
5-year old children attending Head Start. Over a 1 year period, these 
youngsters experienced average approximate growth of 1.3 items on 
phonological sensitivity tests and learned on average 4.4 letter names, 
.45 letter sounds, and 8 new words assessed on an expressive vocabulary 
measure. These gains were much less than those made by children from 
middle-income families. The gap between low and higher-income children 
in these foundational abilities is quite stark when you consider that 
the typical middle-class child will learn nine new words a DAY from 18 
months of age until entry into school, and will be able to name all the 
letters of the alphabet upon entry into kindergarten. These gaps are 
indeed unfortunate given that reading scores in the 10th grade can be 
predicted with robust accuracy from knowledge of the alphabet in 
kindergarten.

Can We Close These Gaps

    Yes. The Strengthening Head Start report prepared by HHS in 2003 
provides several examples of programs that provide comprehensive 
interventions with systematic language and pre-academic components that 
develop the knowledge and skills necessary for kindergarten and the 
early grades and for closing the achievement gap between children from 
higher and lower-income environments. I would like to request that this 
report be entered into the formal record. As noted in the report, Dr. 
Landry's CIRCLE program has found that Head Start teachers who received 
two years of professional development to learn how to teach oral 
language skills, phonological abilities and print awareness skills 
along with interactions to help develop social and emotional 
competencies significantly increased the development of these abilities 
in the children served by these teachers involved in the training. In 
addition, NICHD supported research over the past 5 years conducted by 
Joseph Torgesen and Chris Lonigan at Florida State University has found 
that a preschool emergent literacy program designed to develop oral 
language, phonological sensitivity, and print awareness produced 
significantly more growth in these skills than children not receiving 
the program. Again, why is this important? Because these three areas of 
emergent literacy are significant contributors to how easily, quickly 
and well children learn to read.

Why Has the Development of Cognitive, Language and Early Literacy 
                    Skills Been De-Emphasized in Head Start and Other 
                    Early Childhood Programs?

    For many years, Head Start and other early childhood programs have 
focused on healthy development, adequate nutrition, help for families 
with problems, and social/emotional readiness and general cognitive 
development with lower priority given to the development of language, 
and early reading and math skills. One reason for this is a concern 
among many early childhood educators that any focus on cognitive 
readiness will compromise a child's social and emotional well-being. A 
frequently heard concern is that exposure to ``academic'' content 
during preschool is not ``developmentally appropriate'' and such 
exposure tends to ``hurry'' and ``stress'' the child at the expense of 
emotional health and developing social skills with peers. In fact 
however, if stress is produced in introducing cognitive concepts during 
preschool, the evidence shows that it has nothing to do with the 
youngster's ability to learn the concepts, and everything to do with 
the manner in which the information is presented. This is a teaching 
issue--not a content issue.
    Three and 4-year-old children are not first graders and should not 
be taught as such. They should not be exposed to cognitive concepts 
while being asked to sit still or remain attentively quiet for long 
periods, and they should not be presented with rote information 
practiced through drills and routines (I would argue that first graders 
should not have to endure this either). I mention this because it is a 
frequently voiced concern. However, we do know that most children, 
irrespective of background, can learn foundational cognitive and 
language skills (including vocabulary, reading, and math skills) in 
preschool when their interests are recognized, supported, and extended 
rather than ignored or redirected. We also know that preschool children 
enjoy learning new vocabulary, letter names, letters sounds, and number 
and science concepts when caregivers and preschool teachers: (1) are 
sensitive to a child's level of understanding, (2) are contingently 
responsive to a child's signals, (3) are able to maintain and build on 
a child's focus, (4) avoid high levels of restriction on behavior and 
oral language usage, and (5) provide choices and adapt to a child's 
changing needs. We also know that children learn cognitive, language, 
and literacy concepts through a blend of child-directed discovery and 
teacher-provided explicit information about vocabulary, letters, and 
number concepts.
    Nevertheless, while the belief that preparing a youngster's 
cognitive readiness will compromise social and emotional well-being is 
unfounded scientifically, it does continue to pervade the early 
childhood culture and leads to predictable outcomes. Children do 
demonstrate short-term gains in social and emotional development in 
programs like Head Start but demonstrate limited to no long-lasting 
gains in cognitive, reading and math skills. As a result, graduates of 
programs like Head Start typically enter kindergarten with much lower 
skill levels than their non-poverty peers.
    Another reason it has been difficult to close the gap between what 
we know from converging research and preschool practices is the 
difficulty we face in translating current scientific findings into 
practice in a timely fashion. For example, in the mid 1960s, 
developmental science suggested that the major tasks for children 
during the preschool years revolved around socialization--separating 
from the home environment, learning how to interact with peers, 
developing healthy emotional attachments to unfamiliar adults and 
experiencing new material in novel environments. Likewise, it was known 
that the development of social, emotional, and cognitive capabilities 
was extremely difficult if children were not well nourished, physically 
healthy and supported by parental involvement and responsive social 
systems. And it is important to acknowledge and celebrate the 
significant contributions that Head Start provided in developing and 
implementing this knowledge into preschool practice in our nation's 
most disadvantaged communities.
    But, as Dr. Zigler stated in 1996, ``Head Start's goal is, and 
always was, to prepare children for school.'' Over the past 3 decades 
it was thought that ensuring adequate nutrition, healthy bodies, 
emotional health and social competencies would lead to robust learning 
in school. To be sure, physical health, adequate nutrition, parental 
involvement, family social services, and interactions to develop 
emotional health and social competencies are necessary to achieve this 
goal, but they are not sufficient. Social and emotional competence do 
not guarantee school readiness and academic achievement. Children also 
must come to kindergarten and first grade with strong foundational 
knowledge of language, reading, math, and science concepts essential 
for success. The good news is that high quality early childhood 
education programs can ensure that preschoolers develop these 
fundamental language and cognitive concepts as noted earlier. The bad 
news is that far too many children are spending time in preschool 
settings--including many Head Start classrooms--that do not meet a 
child's essential learning and cognitive needs, and thus neglect a very 
important aspect of child development.
    In short, there have been major advances in research showing us 
that preschool-age children are ready to and can learn language, 
reading, mathematics, and science concepts to a far greater extent than 
previously thought. Our research tells us that if preschool-age 
children are not taught and do not learn these concepts and skills, 
they will not be ready for school. Unfortunately, our research also 
indicates clearly that Head Start, as traditionally structured and 
implemented, is not fully achieving its stated purpose of promoting 
school readiness by enhancing the social and cognitive development of 
low-income children. Our studies continue to point to the fact that 
low-income children from Head Start programs perform significantly 
below their more advantaged peers in reading and mathematics once they 
enter school. This gap places an unfair burden on the children so that 
from the very first day of kindergarten they are already behind. This 
is unfortunate because, with proper preschool instruction, they can 
enter school on an equal footing with every other child

What Do the Data Tell Us About Head Start and School Readiness?

    As mentioned earlier, a recent report by the HHS Office of the 
Assistant Secretary for Planning and Evaluation reviewed the literature 
relevant to the effectiveness of Head Start in closing the gap in 
educational skills and knowledge for school success. The conclusions 
drawn from this review of the evidence are sobering and will no doubt 
be controversial. The bad news is that many children in Head Start are 
not getting what they need to succeed in school. The good news is that 
children in Head Start and other early childhood programs can make 
significant gains if the programs implement effective early childhood 
instructional practices, which will enhance the comprehensive mission 
of Head Start.
    I would like to summarize the major findings of the Strengthening 
Head Start report. First, allow me to provide some relatively good news 
that the report provided based on data obtained from the 1997 and 2000 
Family and Child Experiences Survey (FACES).
    1. Head Start children made some progress in some areas:
    A. In 2000, the mean standard score for vocabulary increased 3.8 
points, from 85.3 to 89.1 on a scale for which the average is 100. This 
result is similar to the data for 1997 that showed Head Start children 
scored about 85, at the beginning of the year and gained about 4 points 
by the end of the year.
    B. In 2000, the mean standard score for writing increased by 2 
points, from 85.1 to 87.1.
    C. In 2000, children showed gains in book knowledge and print 
conventions (that is, they can show an adult the front of a storybook 
and open it to where the adult should start reading). This progress is 
statistically greater than for the 1997 Head Start year during which no 
progress was made in this area.
    D. Spanish-speaking children in Head Start showed significant gains 
in English vocabulary skills without declines in their Spanish 
vocabulary.
    E. Children showed growth in social skills and reduction in 
hyperactive behavior during the Head Start year. Even children with the 
highest levels (scoring in the top quarter) of shy, aggressive, or 
hyperactive behavior showed significant reductions in these problem 
behaviors. Teachers rated children's classroom behavior as more 
cooperative at the end of the Head Start year than when children first 
entered the program.
    F. Children who received higher cooperative behavior ratings and 
lower problem behavior ratings from Head Start teachers scored better 
on cognitive assessments at the end of kindergarten, even after 
controlling for their scores on cognitive tests taken while in Head 
Start.
    G. Children who entered Head Start in 1997 showed significant gains 
in their social skills, such as following directions, joining in 
activities, and waiting turns in games and gains in cooperative 
behaviors, according to ratings by teachers and parents. The quality of 
children's social relationships, including relating to peers and social 
problem solving, also improved.
    H. Head Start has other positive qualities. In 1997, the program 
received very high ratings of satisfaction from parents, and for the 
roughly 16 percent of children in Head Start with a suspected or 
diagnosed disability, 80 percent of parents reported that Head Start 
had helped them obtain special needs resources for the child.
    2. Most children enter and leave Head Start with below-average 
skills and knowledge levels. Unfortunately, the 1997 and 2000 FACES 
data indicate that despite some strengths within the Head Start 
program, many children are being left behind:
    A. The 1997 FACES data indicate that children enter Head Start at 
shockingly low levels compared to the average performer (performance at 
the 50th percentile) on measures of vocabulary (average percentile=16), 
letter recognition (average percentile=27), early writing (average 
percentile=16) and early mathematics (average percentile=17) and leave 
the program showing only very modest gains in vocabulary (average 
percentile=23), early writing (average percentile=23) and early math 
(average percentile=19). Note that these improvements still indicate 
performance far below the average range. Note also that exit 
performance on the letter recognition task, something that children 
love to learn, and is one of the predictors of later reading ability, 
remained low, even declining slightly to the 25th percentile.
    B. The more recent 2000 FACES data show modest improvement in 
results for children, but overall progress is still too limited. 
Children continue to lag behind national norms when they exit Head 
Start. Data from Head Start FACES 2000 show that:
    i. The level of children's achievement in letter-recognition for 
the 2000 Head Start year is far below the majority of U.S. children who 
typically know all letters of the alphabet upon entering kindergarten, 
according to the Early Childhood Longitudinal Study of the Kindergarten 
class of 1998.
    Spanish-speaking children in Head Start did not gain at all in 
letter recognition skills in 2000.
    ii. Although writing scores increased 2 points during the 2000 Head 
Start year, this was a drop from children who entered Head Start in 
1997 who increased 3.8 points in writing during that year.
    iii. Though children who entered Head Start in 2000 made more 
progress in some areas compared to 1997, scores at the end of the Head 
Start year remained far below the average level in all areas of 
competency. For example, over the Head Start year, vocabulary 
development increased from the 16th percentile to the 23rd percentile 
(identical to 1997). Letter recognition upon entry into the program was 
at the 31st percentile and remained at the 31st percentile at the 
completion of the program. Early writing skills increased over the year 
from the 16th to the 23rd percentile and early mathematics skills also 
increased from the 21st to the 23rd percentile.
    iv. As noted earlier, children who entered Head Start in 2000 made 
progress in early mathematics during the Head Start year that was 
statistically significant; however the difference was miniscule (from 
87.9 to 89.0 on a scale where 100 is the average). Moreover, this 
amount of progress was no greater than that found for children who 
attended Head Start from Fall to Spring in 1997.
    v. Children who entered the program in 2000 with overall lower 
levels of knowledge and skill showed larger gains during the program 
year than children who entered with higher levels of knowledge. 
However, they still lagged far behind national averages.
    vi. Head Start children did not start kindergarten with the same 
social skill levels as their more economically advantaged peers and 
they continue to have more emotional and conduct problems than do 
middle class peers.
    vii. Only 25 percent of Head Start teachers were college graduates, 
compared to 86 percent in State pre-K programs. Research points clearly 
to the important role of teacher knowledge and education in learning 
outcomes for children, including preschoolers.
    In summary, there is more work to do. Despite small gains and the 
positive qualities of Head Start programs, children in Head Start are 
making only very modest progress in only some areas of knowledge and 
skill, and children in Head Start are leaving the program far behind 
their same-age peers. To be sure, Head Start programs vary 
significantly in quality as well as in the amount of time children 
attend Head Start programs. Some youngsters spend only part of the day, 
week and year in a program, while other children are provided programs 
for the entire day, week and year. These differences will certainly 
affect the overall outcomes for children, since both quality and 
quantity of learning experiences impact children's progress. What we 
must do is identify those factors and conditions that characterize high 
quality Head Start programs and duplicate them in all Head Start 
programs. More progress must be made and can be made to put Head Start 
children on par with others by the time they enter kindergarten.
    3. Disadvantaged children lag behind their age- and grade-mates 
throughout the school years. Effective early childhood intervention is 
important because disadvantaged children are at significant risk for 
poor educational outcomes throughout the school years.
    The Strengthening Head Start report reviewed data from the 
nationally representative Early Childhood Longitudinal Study-
Kindergarten (ECLS-K), the National Center for Educational Statistics 
(NCES), and the National Assessment of Educational Progress and 
reported the following findings. While a number of specific conclusions 
are provided in the Report, the following two general trends are 
noteworthy:
    A. Children with multiple risk factors (e.g., parents have not 
completed high school, low-income or welfare family, single parent 
family, parents speak a language other than English in the home) are at 
the greatest risk for educational failure.
    B. The achievement gap persists into elementary and high school 
years. Data from the ECLS-K show that the gap for low-income children 
begins to close in kindergarten in very basic reading and mathematics 
skills such as letter recognition and counting, but the achievement gap 
widens for the more advanced reading and mathematics skills, such as 
recognizing words and adding and subtracting.
    In summary, data from several sources converge to show that 
achievement gaps between advantaged and disadvantaged children that are 
evident during the pre-kindergarten years continue to characterize 
disadvantaged children in kindergarten and throughout elementary 
school. It is critical that we better understand the conditions under 
which programs have a real opportunity to close these gaps and 
implement them at the earliest possible time.
    4. Fragmented service delivery hinders improvements in Head Start 
and other early childhood programs. At both the Federal and State 
levels, the early childhood services are characterized by multiple 
funding sources and requirements--each with different rules and 
standards, eligibility requirements, and desired child and family 
outcomes.
    In a report published in 2000, the U.S. General Accounting Office 
(GAO) found 69 Federal programs, administered by nine different Federal 
agencies and departments, funding early education and/or child care for 
youngsters under age 5. The GAO noted that when multiple agencies 
manage multiple early childhood education and care programs, mission 
fragmentation and program overlap can occur. This in turn creates the 
potential for BOTH duplication and service gaps. Although GAO pointed 
out that duplication can sometimes be necessary, fragmentation and 
overlap can also create an environment in which programs do not serve 
participants as efficiently and effectively as possible.
    Reports from parents, providers, and State program administrators 
underscore how a lack of program coordination undermines the efficiency 
and effectiveness of early childhood programs. Parents report that a 
poorly coordinated system makes it difficult for them to find good 
quality care for their children. They are put in a position to try to 
determine which programs best suit their needs, and then go through the 
application and eligibility determination process for each program 
separately. Some programs, including Head Start, may only be offered in 
the parent's neighborhood for part of the day or year, while the parent 
needs a full day/year program because of their work responsibilities. 
If the local Head Start program does not collaborate with other local 
child care programs, parents are forced to cobble together various 
arrangements to ensure adequate care for the necessary length of time.
    From the provider's perspective, the lack of program coordination 
forces them to juggle different eligibility requirements for children 
and families, different methods of receiving subsidies or other State 
or Federal funds, and different requirements and standards for the 
programs they provide. In addition, different early childhood programs 
typically require different credentials for teachers and providers, and 
offer a range of salaries and benefits, making it difficult for 
providers in a community to view themselves as part of a comprehensive 
system. In fact, differences in salaries and benefits may have the 
unintended effect of drawing the most qualified providers to some 
programs rather than others--for example, toward teaching in pre-
kindergarten school-based programs rather than in a Head Start program 
or infant and toddler care. Lack of coordination also affects health 
and social service providers who must struggle to serve patients and 
clients who do not have a single point of entry into the system and who 
have a variety of needs that must be met.
    From the perspective of State administrators, programs can be both 
inefficient and ineffective when States must juggle funding, 
enrollment, eligibility and other concerns for multiple programs 
administered by different Federal agencies. States are held responsible 
by the public for the care and education of young children, but lack 
power and control to create a seamless system and to provide access to 
all eligible families. Lack of coordination significantly complicates 
State efforts to engage in strategic and fiscal planning. Key 
stakeholders may have competing priorities and objectives and have 
difficulty agreeing on how best to meet the needs of the community. 
Instead of collaboration, there may be competition at the State level 
for scarce resources. Finally, States are aware that they will be held 
responsible for student performance in elementary school through the No 
Child Left Behind Act, and want to make sure that all children in the 
State enter kindergarten ready to learn. However, a fragmented system 
makes it difficult, if not impossible, for a State to provide the 
needed comprehensive services to all children from low-income homes who 
will begin kindergarten in the public schools.
    This uncoordinated approach to service delivery significantly 
impedes providing effective early childhood programs that are 
successful in preparing at-risk children for school. To be sure there 
are many complex barriers to achieving coherence and coordination 
across early childhood programs and many of these are identified in the 
Strengthening Head Start report.

We Can Do Better Than We Are Doing

    As pointed out earlier, converging evidence indicates strongly that 
young children who are provided frequent, systematic, positive 
interactions with adults and other children to foster the development 
of social, emotional and cognitive capabilities in an integrated 
fashion are FAR more likely to succeed in school than children who are 
in lower quality and less stimulating programs. The HHS Strengthening 
Head Start report submitted with this testimony and the Proceedings 
from the White House Summit on Early Childhood Cognitive Development 
convened by Mrs. Bush summarize the critical foundational skills that 
children must have to succeed in school. In brief, research tells us 
that if language, literacy, and other cognitive factors are attended to 
through high quality programming in early childhood settings, 
children's school readiness can be significantly improved. In the pre-
kindergarten years, research describes three key components of high 
quality programs for reading and academic success. These include a 
strong foundation in: (1) language development; (2) early literacy 
(phonological awareness, letter knowledge, written expression, book and 
print awareness, motivation to read); and (3) early math (number and 
operations).

                            RECOMMENDATIONS

    1. It is critical that early childhood programs including Head 
Start provide a genuinely comprehensive set of services and educational 
opportunities to all children, including those with disabilities, that 
are grounded in developmental science. It is imperative that children's 
social, emotional, and cognitive growth be fostered on the basis of 
what developmental science tells us about what preschool children can 
learn, what they need to learn to succeed in school, and how learning 
is most optimally supported. For too long, our understanding, 
development, and implementation of preschool programs have been based 
on philosophical beliefs, untested assumptions, or out-of-date science. 
This practice has left many children behind. The NICHD, in 
collaboration with the U.S. Department of Education's Office of Special 
Education and Rehabilitation Services (OSERS) and the Department of 
Health and Human Services (ACYF, ACF, ASPE) has developed a 
comprehensive research program to develop and evaluate comprehensive 
early childhood programs that combine interactions to enhance 
cognitive, social and emotional abilities in children at risk for 
developmental difficulties and school failure. But we now know enough 
at this time to develop and implement preschool curricula that are 
effective as described in this testimony. Standards should be developed 
to reflect the need for preschool curricula to stimulate verbal 
interaction, enrich children's vocabularies, encourage talk about 
books, develop knowledge about print, generate familiarity with the 
basic purposes and mechanisms of reading, math and science, and 
appreciate the needs of children with disabilities and children 
acquiring English as a second language.
    2. It is clear that we must develop a comprehensive assessment and 
reporting system to ensure that Head Start programs produce the 
positive outcomes that we know are achievable. This reporting system 
will, for the first time ever in the history of Head Start, provide 
outcome data on all Head Start programs and children, with and without 
disabilities, and thus help to identify areas in need of continued 
improvement, as well as to document systematically Head Start's 
successes. Note that all of the high quality demonstration projects 
that have produced large and lasting benefits for children and their 
families have involved systematic assessment and reporting about both 
the program quality and the children's development. High quality 
programs that endorse continuous quality improvement welcome 
assessment. We owe it to the parents of Head Start to assess their 
children's progress on a regular basis, in ways that will help guide 
the instruction and support Head Start. And children are not stressed 
or frightened by the assessment; they have fun in a one-to-one 
interaction with a responsive adult who is allowing them to demonstrate 
their skills and mastery.
    3. We must ensure that our youngest children are learning from 
teachers who are highly competent in their ability to help children 
develop social competencies, emotional health, and the cognitive, 
language, literacy and mathematics concepts critical to school success. 
Numerous studies have shown that program quality and the benefits to 
children, with and without disabilities, are inextricably linked with 
staff educational background and training. The significant benefits to 
children provided by the Chicago CPC program and the CIRCLE program 
described in the HHS Strengthening Head Start report underscore this 
point. All preschool teachers in the CPC program had college degrees 
and certification in early childhood. While the teachers in the CIRCLE 
program ranged in education from high school degree through graduate 
degrees, the systematic training, mentoring, and follow-up training 
produced many teachers of high quality.
    4. It is essential that preschool programs be coordinated with 
programs providing early care and education as well as with the 
curriculum framework and goals of kindergarten and early public school 
programs. Moreover, greater coordination and collaboration are needed 
between State and Federal programs to ensure that all children entering 
kindergarten are ready to learn. The value of a highly coordinated 
series of programmatic interactions from age 3 through the early grade-
school years can be seen in the results produced by the Chicago CPC 
program. The fact that the CPC program is provided through the Chicago 
public schools provides a continuity in children's learning 
environments as well as appropriate levels of compensation for teachers 
and staff. Other communities have developed alternative models for 
coordination that include programs located outside the public school 
system.
    5. While many Head Start programs need to be strengthened to ensure 
high quality interactions to support and develop physical (health) 
social, emotional, and cognitive strengths in an integrated and 
accountable fashion, it is clear that many States do have such high 
quality programs in place. It will be critical to identify these 
programs that are beacons of light and expand and build on them with 
both local and State funding. It will also be critical to identify low-
performing programs and provide the necessary technical assistance to 
strengthen them but, in the end, to ensure that the health and 
development of our children are the priorities, not the survival of 
ineffective programs.
    Thank you very much for providing me the opportunity to discuss 
these issues with you today. I would be happy to answer any questions 
you may have.
                 Prepared Statement of Marnie S. Shaul
                           EDUCATION AND CARE

Head Start Key Among Array of Early Childhood Programs, But National 
                    Research on Effectiveness Not Completed

Why GAO Did This Study
    The Federal Government invests over $11 billion in early childhood 
education and care programs. These programs exist to ensure that 
children from low-income families are better prepared to enter school 
and that their parents have access to early childhood education and 
care that allow them to obtain and maintain employment. The Federal 
Government invests more in Head Start, which was funded at $6.5 billion 
in fiscal year 2002, than any other early childhood education and care 
program. Head Start has served over 21 million children at a total cost 
of $66 billion since it began. The Chairman, Senate Committee on 
Health, Education, Labor, and Pensions asked GAO to discuss Head 
Start--how it fits within the array of early childhood education and 
care programs available to low-income children and their families and 
what is known about its effectiveness.

                             WHAT GAO FOUND

    Head Start, created in 1965, is the largest funded program among an 
array of Federal early childhood education and care programs, most of 
which did not exist until decades later. The early education and child 
care demands of families have changed significantly since Head Start's 
inception. More women are working, the number of single parents has 
been increasing, and welfare reform has resulted in more families, 
including those with young children, entering the workforce. To help 
meet families' demands for early childhood education and care services, 
an array of Federal programs, such as the child care block grant, have 
been added over time. Program legislation requires some of these 
programs to coordinate the delivery of early childhood education and 
care services for low-income families with young children. For example, 
to provide parents with full day coverage, Head Start, a predominately 
part day program, may coordinate with child care programs for the other 
part of the day. However, barriers--such as differing program 
eligibility requirements--sometimes make it difficult to blend services 
across the different programs.
    Although extensive research exists that provides important 
information about Head Start, no recent, definitive, national-level 
research exists about Head Start's effectiveness on the lives of the 
children and families it serves. In its last reauthorization, Congress 
mandated a Head Start effectiveness study and specified that it be 
completed this year. According to HHS, the study will be completed in 
2006.
    Mr. Chairman and Members of the Committee, I am pleased to be here 
today to discuss our work on early childhood education and care 
programs, and in particular, Head Start, which many view as one of the 
most successful social programs. Nationwide attention has been focused 
on ensuring that children from low-income families are better prepared 
to enter school and that parents have access to early childhood 
services that allow them to obtain and maintain employment. In 
response, the Federal Government has increased funding for early 
childhood education and care programs to over $11 billion. Head Start--
the Federal Government's single largest investment in early childhood 
education and care for low-income children--has served over 21 million 
children and their families at a total cost of $66 billion since its 
inception in 1965; its funding for fiscal year 2002 was $6.5 billion.
    The reauthorization of the Head Start program offers a timely 
occasion for considering the two major issues my statement will address 
today: How Head Start fits into the array of early childhood education 
and care programs available to low-income children and their families 
and what is known about Head Start's effectiveness. My statement is 
based primarily on recent studies that we have conducted on early 
childhood education and care programs.
    In summary, much has changed in society since Head Start was 
established nearly 40 years ago, including an increase in the 
availability of Federal early childhood programs for low-income 
families. Changes in women's employment, family structure, and public 
assistance have dramatically increased the demand for early education 
and child care for low-income families. To help meet the increased 
demand brought about by societal changes, an array of Federal education 
and care programs, as well as many State and local community programs, 
has been created for children from low-income families. The largest 
sources of additional Federal funding for child care services come from 
the Child Care and Development Fund (CCDF) and Temporary Assistance for 
Needy Families (TANF). To meet the demands of families, some Federal 
programs require coordination of services among early childhood 
education and care programs. To illustrate, most Head Start programs 
are predominately part day, part year programs, and they cannot meet 
the demands of working families who need full-day, full-year education 
and care services. In response to this requirement, some Head Start 
programs collaborate with other programs to provide families full day 
coverage. However, differing program eligibility requirements and other 
coordination barriers sometimes impede coordination efforts.
    Although a substantial body of Head Start research exists that 
provides important information about the program, little is known about 
its effectiveness on the lives of the children and families it serves. 
Although the Department of Health and Human Services (HHS) currently 
has studies that show that the skills of children who participate in 
Head Start have improved, the studies do not provide definitive 
evidence that this improvement is a result of program participation and 
not other experiences children may have had. HHS has a study underway, 
however, that is expected to provide more definitive information on 
Head Start's effectiveness in preparing young children for school. The 
study, mandated by Congress to have been completed this year, is 
expected to be completed in 2006, according to HHS. Currently, no 
preliminary results are available.

                               BACKGROUND

    Head Start was created in 1965 as part of the ``War on Poverty.'' 
The program was built on the premise that effective intervention in the 
lives of children could be best accomplished through family and 
community involvement. Fundamental to this notion was that communities 
should be given considerable latitude to develop their own Head Start 
programs. Head Start's primary goal is to prepare young children to 
enter school. In support of its school readiness goal, the program 
offers children a broad range of services, which include educational, 
as well as medical, dental, mental health, nutritional, and social 
services. Children enrolled in Head Start are primarily 3 and 4 years 
old and come from varying ethnic and racial backgrounds. Most children 
receive part day, part year program services in center-based settings.
    Head Start is administered by HHS. Unlike most other Federal early 
childhood education and care programs that are funded through the 
States, HHS awards Head Start grants directly to local grantees. 
Grantees may contract with organizations--called delegate agencies--in 
the community to run all or part of their local Head Start programs.

  ARRAY OF EARLY CHILDHOOD EDUCATION AND CARE PROGRAMS EXISTS TO HELP 
                         MEET INCREASED DEMAND

    Families' needs for early childhood education and care have changed 
dramatically since Head Start's inception, and to meet the increased 
demand, the Federal Government has created an array of Federal early 
education and care programs. Many of these programs are required to 
coordinate the delivery of services to low-income families with 
children. However, barriers sometimes exist, making it difficult to 
blend the services offered across programs to meet the demands of 
families.

 INCREASED DEMAND FOR EARLY CHILDHOOD EDUCATION AND CARE SERVICES HAS 
         LED TO AN INCREASE IN THE SIZE AND NUMBER OF PROGRAMS

    Since Head Start was created in 1965, it has provided a wide range 
of services, through part day, part-year programs, to improve outcomes 
for children from low-income families. However, the demographics of 
families have changed considerably over the past several decades and 
increasingly, families need full-day, full-year services for their 
children. More parents are working full time, either by choice or 
necessity, and the proportion of children under age 6 who live with 
only one parent has increased. Moreover, welfare reform has meant that 
more families, including those with very young children, are expected 
to seek and keep jobs than ever before.
    To help meet the demand for early education and care, the Federal 
Government has increased the number of, and funding for, programs 
providing early education and care services. For example, Head Start 
program funding has tripled over the past decade. Moreover, the Federal 
Government invests over $11 billion in early education and care 
programs for children under age 5, primarily through six major 
programs, including Head Start (see table 1). These programs are funded 
through HHS and the Department of Education. While these six programs 
receive most of the Federal funding for early childhood education and 
care, many other smaller programs also fund services for low-income 
families with children.\1\ Funding under these six programs can 
generally be used to provide a range of services: early education and 
care; health, dental, mental health, social, parental, and nutritional 
services; speech and hearing assessments; and disability screening.
---------------------------------------------------------------------------
    \1\ GAO analysis of Department of Education and HHS data using 
proportions based on analysis in U.S. General Accounting Office, Early 
Education and Care: Overlap Indicates Need to Assess Crosscutting 
Programs, GAO/HEHS-00-78 (Washington, D.C.: Apr. 28, 2000).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    All of the programs--with the exception of IDEA--specifically 
target low-income children and their families, though they may actually 
serve different populations and age ranges of children. For example, 
Even Start programs serve a larger percentage of Hispanic children and 
a broader age range of children than Head Start.\2\ Moreover, some 
programs differ in their goals. The primary goal of early childhood 
education programs such as Head Start, Even Start, and Title I, is to 
prepare young children to enter school. In contrast, a primary goal of 
child care programs, such as CCDF is to subsidize the cost of care for 
low-income parents who are working or engaged in education and training 
activities. In addition, States have the flexibility to use block grant 
funds to subsidize child care as States pursue one of the key TANF 
goals--promoting employment for low--income adults with families.
---------------------------------------------------------------------------
    \2\ U.S. General Accounting Office, Head Start and Even Start: 
Greater Collaboration Needed on Measures of Adult Education and 
Literacy, GAO-02-348 (Washington, D.C.: Mar. 29, 2002).
---------------------------------------------------------------------------
    In addition to Federal programs that support services for poor 
children, many State and local community programs also offer education 
and care services for low-income families.\3\ The majority of States, 
39, fund preschool programs. Moreover, some States provide funding to 
supplement Head Start and fund child care programs.
---------------------------------------------------------------------------
    \3\ U.S. General Accounting Office, Education and Care: Early 
Childhood Programs and Services for Low-Income Families, GAO/HEHS-00-11 
(Washington, D.C.: Nov. 15, 1999).
---------------------------------------------------------------------------
     HEAD START AND OTHER EARLY CHILDHOOD PROGRAMS REPORT SERVICE 
            COORDINATION, BUT BARRIERS TO COORDINATION EXIST

    To better ensure that low-income families and their children can 
access the services provided through the myriad Federal programs, 
Congress mandated that some programs coordinate with one another to 
deliver services to low-income families and their children. As a 
result, program officials have reported collaborative efforts with one 
another to deliver services; however, barriers still remain.
    Head Start programs are required by law to coordinate and 
collaborate with programs serving the same children and families, 
including CCDF, Even Start, IDEA, and other early childhood programs. 
Similarly, CCDF agencies are required to coordinate funding with other 
Federal, State, and local early childhood education and care programs. 
To promote more integrated service delivery systems and to encourage 
collaboration between Head Start and other programs that fund early 
childhood services, HHS began awarding collaboration grants to States 
in 1990. In fiscal year 2002, Head Start provided $8 million to States 
to support collaborative activities. Moreover, in awarding program 
expansion funds, Head Start has given priority to funding first those 
Head Start programs that coordinate with other child care and early 
childhood funding sources to increase the number of hours children 
receive early education and care.
    Positive outcomes have occurred as a result of early childhood 
education and care program collaboration, enabling some States to 
expand the options for low-income families with children. For example, 
Head Start and CCDF officials reported pooling resources by sharing 
staff to add full day care to the half-day Head Start program and to 
add Head Start services, such as nutrition and medical care, to day 
care programs. At the local level, about 74 percent of Even Start 
grantees reported that they collaborated with Head Start in some way, 
including cash funding, instructional or administrative support, 
technical assistance, and space or job training support.\4\
---------------------------------------------------------------------------
    \4\ GAO-02-348.
---------------------------------------------------------------------------
    However, collaboration does not eliminate all gaps in care, and 
sometimes barriers, such as differing eligibility requirements, program 
standards, and different locations of programs, hinder collaboration. 
For example, program officials in one State said that the differing 
eligibility requirements between CCDF and Head Start made collaboration 
difficult. CCDF funds may be used for families with incomes up to 85 
percent of State median income, which generally allows the States to 
give subsidies to families whose income is higher than the Federal 
poverty level.\5\ Head Start's income eligibility standard requires 
that 90 percent of enrollments be from families at or below the Federal 
poverty level or from families eligible for public assistance. Thus, 
collaboration between these programs to achieve objectives might be 
difficult because some children may be eligible only for CCDF.
---------------------------------------------------------------------------
    \5\ In fiscal year 2000, the Federal poverty guideline was $17,050 
for a family of four while the State median income ranged from a low of 
$24,694 for West Virginia households to a high of $43,941 in Maryland 
in 2000. States have the flexibility to set income eligibility limits 
up to 85 percent, but generally set them lower.
---------------------------------------------------------------------------
 EFFECTIVENESS STUDY UNDERWAY TO DETERMINE WHETHER HEAD START MAKES A 
                               DIFFERENCE

    Although an extensive body of Head Start research exists that 
provides important information about the program, no definitive, 
national-level research exists on the effectiveness of Head Start for 
the families and children it serves, prompting Congress to mandate such 
a study when it reauthorized the program in 1998. HHS has other studies 
underway that provide important information about the progress of 
children enrolled in the program; however, these studies were not 
designed to separate the effects of children's participation in Head 
Start from other experiences these children may have had. Although 
obtaining information about Head Start's effectiveness is difficult, 
the significance of Head Start and the sizeable investment in it 
warrant conducting studies that will provide answers to questions about 
whether the program is malting a difference.
    In 1998, we testified that the body of research on Head Start 
though extensive, was insufficient for drawing conclusions about the 
program as a whole and recommended that HHS undertake a study of Head 
Start's effectiveness.\6\ In reauthorizing Head Start in 1998, Congress 
mandated such a study. The law mandated that the study be completed in 
2003 and was very specific in detailing the kind of study HHS was to 
undertake. Specifically, Congress required that the study use rigorous 
methodological designs and techniques to determine if Head Start 
programs are having an impact on children's readiness for school. The 
mandated study addresses two questions: (1) what difference does Head 
Start make to key outcomes of development and learning for low-income 
children and (2) under which conditions does Head Start work best and 
for which children?
---------------------------------------------------------------------------
    \6\ U.S. General Accounting Office, Head Start: Challenges Faced in 
Demonstrating Program Results and Responding to Societal Changes, GAO/
T-HEHS-98-183. (Washington, D.C.: June 9, 1998).
---------------------------------------------------------------------------
    The study is using a rigorous methodology that many researchers 
consider to be the most definitive method of determining a program's 
effect on its participants when factors other than the program are 
known to affect outcomes.\7\ This methodology is referred to as an 
``experimental design'' in which groups of children are randomly 
assigned either to a group that will receive program services or to a 
group that will not receive program services. This approach produces 
information that is more likely to show the effect of the program being 
studied, rather than the effects of other developmental influences on 
young children (see fig. 1).
---------------------------------------------------------------------------
    \7\ U.S. General Accounting Office, Early Childhood Programs: The 
Use of Impact Evaluations to Assess Program Effects, GAO-01-542 
(Washington, D.C.: Apr. 16, 2001.
---------------------------------------------------------------------------
    The Head Start study is a $28.3 million national impact evaluation 
that follows participants over time. The study has two phases. The 
first phase, a pilot study designed to test various procedures and 
methods, was conducted in 2001. The second phase began in the fall of 
2002 and entails data collection on 5,000 to 6,000 3- and 4-year-olds 
from 75 programs and communities across the country. The study will 
track subjects through the spring of their first grade year. An interim 
report, scheduled to be released in September of this year, will 
describe the study's design and methodology and the status of the data 
collection; it will not contain findings. Although Congress required 
that the study be completed in 2003, HHS reports that the study will be 
completed in 2006. This study is a complex, multiyear, longitudinal 
study and considerable attention had to be given to both study planning 
and execution. According to HHS, many aspects of the study needed to be 
pilot tested before the larger study could begin.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In another effort, Head Start is collecting outcome data on a 
nationally representative sample of Head Start children and families as 
part of its Family and Child Experiences Survey (FACES). FACES is an 
ongoing, longitudinal study of Head Start programs that uses a national 
sample of 3,200 children. FACES provides national data on Head Start 
child outcomes, family involvement, and key aspects of program quality 
and teaching practices. New findings from FACES research published in 
2003 show that children enrolled in Head Start demonstrated progress in 
early literacy and social skills; however, their overall performance 
levels when they left Head Start was below that of children nationally 
in terms of school readiness.\8\ This study, however, was not designed 
to provide definitive data about whether the initial gains children 
made in early literacy and social skills resulted from their 
participation in Head Start or some other experiences children may have 
had.
---------------------------------------------------------------------------
    \8\ Department of Health and Human Services, Head Start FACES 2000: 
A Whole-Child Perspective on Program Performance, 2003.
---------------------------------------------------------------------------
    Mr. Chairman, this concludes my prepared statement. I will be happy 
to respond to any questions you or other Committee Members may have.

                 GAO CONTACT AND STAFF ACKNOWLEDGMENTS

    For further information regarding this testimony, please call 
Marnie S. Shaul, Director, at (202) 512-7215. Individuals making key 
contributions to this testimony include Sherri Doughty and Harriet 
Ganson.

                          RELATED GAO PRODUCTS

    Child Care: Recent State Policy Changes Affecting the Availability 
of Assistance for Low-Income Families. GAO-03-588. Washington, D.C.: 
May 5, 2003.
    Head Start and Even Start: Greater Collaboration Needed on Measures 
of Adult Education and Literacy. GAO-02-348. Washington, D.C.: March 
29, 2002.
    Title I Preschool Education: More Children Served but Gauging 
Effect on School Readiness Difficult. GAO/HEHS-00-171. Washington, 
D.C.: September 20, 2000.
    Early Childhood Programs: Characteristics Affect the Availability 
of School Readiness Information. GAO/HEHS-00-38. Washington, D.C.: 
February 28, 2000.
    Early Childhood Programs: The Use of Impact Evaluations to Assess 
Program Effects, GAO-01-542. Washington, D.C.: April 16, 2001.
    Education and Care: Early Childhood Programs and Services for Low-
Income Families. GAO/HEHS-00-11. Washington, D.C: Nov. 15, 1999.
    Early Education and Care: Overlap Indicates Need to Assess 
Crosscutting Programs. GAO/HEHS-00-78. Washington, D.C.: April 28, 
2000.
    Head Start: Challenges Faced In Demonstrating Program Results and 
Responding to Societal Changes. GAO/T-HEHS-98-183. Washington, D.C.: 
Jun. 9, 1988.
    Head Start: Challenges in Monitoring Program Quality and 
Demonstrating Results. GAO/HEHS-98-186. Washington, D.C.: June 30, 
1998.
    U.S. General Accounting Office, Head Start Programs: Participant 
Characteristics, Services, and Funding. GAO/HEHS-98-65. Washington, D. 
C.: March 31, 1998.
    Head Start: Research Provides Little Information on Impact of 
Current Program. GAO/HEHS-97-59. Washington, D.C.: April 15, 1997.
    www.gao.gov/cgi-bin/getrpt?GAO--03-840T. To view the full product, 
including the scope and methodology, click on the link above. For more 
information, contact Marnie S. Shaul at (202) 512-7215 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f88b90998d9495b89f9997d69f978ed6">[email&#160;protected]</a>

                   Prepared Statement of Janis Santos

    Chairman Gregg, Ranking Member Kennedy and Members of the 
Committee, thank you for the opportunity to appear here today on behalf 
of the thousands of successful Head Start programs across the country 
and to offer the views of the National Head Start Association (NHSA) 
\1\ on how best to continue to improve Head Start for the more than 
900,000 low-income children who rely every day on this program for 
their health, nutrition and cognitive development.
---------------------------------------------------------------------------
    \1\ The National Head Start Association (NHSA) is a private not-
for-profit membership organization dedicated exclusively to meeting the 
needs of Head Start children and their families. The Association 
provides support for the entire Head Start family by advocating for 
policies which provide high quality services to children and their 
families; by providing extensive training and professional development 
services to all Head Start staff; and by developing and disseminating 
research, information, and resources that impact Head Start program 
delivery. NHSA represents more than 900,000 children and their 
families, 200,000 staff and 2,500 Head Start programs in America
---------------------------------------------------------------------------
    Mr. Chairman, for nearly 40 years, Members of Congress and 
administration officials have worked side-by-side with the Head Start 
community to identify an agenda for improvement so that Head Start 
could meet the evolving challenges facing the program. We are deeply 
saddened that, for the first time in the program's history, a 
reauthorization bill may pass the House of Representatives on a 
straight party line vote. We are heartened to read your comments that 
this body will work on a bipartisan basis to ensure that Head Start 
continues to be a quality program delivered to at-risk children across 
the country.
    As the Executive Director of the Holyoke-Chicopee-Springfield Head 
Start program for 24 years, I have dedicated almost my entire adult 
life working to ensure that Head Start continues to provide high 
quality, comprehensive services to the poorest children in my 
community; that we work collaboratively with other early childhood 
programs in the State and with the public school system; and that the 
program applies the best thinking in early childhood research in our 
work with children.
    I can tell you from first hand experience that Head Start does not 
shy away from change--we embrace it. In fact, Head Start has seized 
every opportunity to improve the services it provides for children and 
families. We also know that this is not the time to inject chaos and 
upheaval into Head Start by turning it over to even a limited number of 
States. As State budgets are cut and services are scaled back, we need 
Head Start now, more than ever before, as a stabilizing early childhood 
force in poor communities. Any improvements to the program easily can 
be accommodated within the existing structure of the Head Start 
program.
    NHSA is confident that any objective assessment of Head Start will 
conclude what we ourselves have determined: Head Start provides real 
and meaningful benefits, sustained over time, for our nation's neediest 
children and families. At the same time, there clearly are ways to make 
Head Start better and NHSA is prepared to work with the Senate to 
ensure that this nearly 40-year-old program continues to grow and 
improve. In this reauthorization, Congress should once again affirm the 
success of this national treasure and expand the program's benefits to 
every poor child and family across the nation.

                      THE HEAD START SUCCESS STORY

    For more than 38 years, Head Start has been a beacon of hope for 
low-income children and families. Its mission is straight forward: to 
prepare children to succeed in school and to give them the tools 
necessary to achieve their goals in life. There is abundant evidence 
suggesting that Head Start has been successful in meeting its mission.
    This success is rooted in its design, which recognizes that at-risk 
children need comprehensive services in order to become ``school 
ready.'' The program offers an array of services, with a strong 
emphasis on pre-reading skills, mental and physical health services, 
immunizations and nutrition services.\2\ We know that preparing 
children to learn is about more than just teaching letters and numbers. 
Head Start aims to give children the skills and abilities that will 
serve them throughout their school careers--curiosity, an interest in 
learning, and the ability to pay attention in class.
---------------------------------------------------------------------------
    \2\ The Head Start Program Information Report for the 2001-2002 
Program Year shows that Head Start programs have been providing 
important comprehensive services to children and families. In Head 
Start and Early Head Start: 866,005 children had a medical screening; 
871,937 children were up-to-date on all their immunizations; 131,873 
children were served by a mental health professional; 139,848 families 
received emergency or crisis services; 31,908 children were treated for 
anemia; 47,280 children were treated for asthma; 20,260 children were 
treated for hearing difficulties; 39,681 children were treated for 
being overweight; and 25,869 children were treated for vision problems. 
In Head Start, 783,861 Head Start children had a dental examination, 
and 75,279 children were diagnosed as having speech or language 
impairments. In Early Head Start, 38,805 children had a dental 
screening; 2,452 pregnant women received dental examinations and/or 
treatments; 7,213 pregnant women received prenatal and postpartum 
health care; and 7,121 pregnant women received prenatal education on 
fetal development. See Head Start Program Information Report for the 
2001-2002 Program Year. (2003, June 3). National Level Summary Report, 
5.
---------------------------------------------------------------------------
    Importantly, though Head Start generally is thought of as a program 
that primarily serves children, it actually is a program that serves 
families. Visit a Head Start center and you will see parents reading to 
children, participating on policy councils, taking part in family 
literacy training, or even studying for their GED. It is the 
comprehensive nature of the services offered and the focus on the whole 
family that distinguishes Head Start from more traditional early 
childhood programs and explains its success.
    The key to quality in Head Start are the program performance 
standards that spell out what programs need to do to ensure that Head 
Start children meet the high expectations Congress has set for them. 
These performance standards govern the range, quality and intensity of 
Head Start's comprehensive educational, health, nutrition, family 
support, and parental involvement. Head Start has created a proven 
formula for high quality services and developed a system to ensure that 
programs deliver the quality services that Congress, parents and the 
community expect.

          INDEPENDENT RESEARCH CONCLUDES THAT HEAD START WORKS

    Head Start is one of the most studied and evaluated early childhood 
programs in America. The collective wisdom of these studies is 
inescapable: Head Start delivers what it promises to this nation's 
neediest children--a head start in preparing them for school and life.
    Recent research findings from a rigorous and randomized 
longitudinal study of Head Start graduates and their non-Head Start 
peers in San Bernardino, California found that for every $1 invested in 
these Head Start graduates, society receives nearly $9 in savings. 
These tremendous benefits include increased earnings, employment, and 
family stability and decreased welfare dependency, crime costs, grade 
repetition and special education. Dr. Meier summarized his new findings 
as follows: ``The current comprehensive characteristics of the Head 
Start program and tested national performance standards constitute 
exemplary child-care program leadership and favorably impact the entire 
society's quality of preschool child nurturance and parent involvement. 
This all further emphasizes the necessity and affordability of a high 
quality preschool experience to prepare all of America's young citizens 
for successful school entry and subsequent achievement.'' \3\
---------------------------------------------------------------------------
    \3\ Meier, J. (2003, June 20). Kindergarten Readiness Study: Head 
Start Success. Interim Report. Preschool Services Department of San 
Bernardino County.
---------------------------------------------------------------------------
    Moreover, rigorous studies have found that, after leaving the 
program, children who attended Head Start are less likely to repeat a 
grade, to require special education classes, or to commit crimes than 
their non-Head Start peers.\4\ Head Start graduates have also been 
found to be more likely to have higher achievement test scores, to 
complete high school and college and to earn more than their peers who 
did not have the benefit of a ``head start.'' \5\
---------------------------------------------------------------------------
    \4\ Barnett, W.S. (September 2002). The Battle Over Head Start: 
What the Research Shows; Garces, E.D. Thomas, and J. Currie (September 
2002). Longer-Term Effects on Head Start.
    \5\ Id.
---------------------------------------------------------------------------
    Importantly, both the most recent Department of Health and Human 
Services (HHS) Head Start Monitoring Report and the Family and Child 
Experiences Survey (FACES) have found that Head Start programs provide 
quality, comprehensive services to the children and families they serve 
and compare favorably with other studies of preschool and child care 
programs.\6\ And, we expect the school readiness of Head Start students 
to show continued improvement in the FACES data as studies reflect the 
enhanced literacy and numeracy components added to the Head Start 
program in the late 1990s and fully implemented in 2000.
---------------------------------------------------------------------------
    \6\ U.S. Department of Health and Human Services (January 2001). 
Head Start FACES: Longitudinal Findings on Program Performance. Third 
Progress Report, iv and 80; U.S. Department of Health and Human 
Services (2003, February 24). Report on Head Start Monitoring Fiscal 
Year 2000, 1.
---------------------------------------------------------------------------
    Launched in 1997, the FACES initiative is an ongoing, national, 
longitudinal study of the development of Head Start children and 
families, the characteristics of their families, and the quality of 
Head Start classrooms. FACES consists of two nationally stratified 
random samples. The 1997 sample consists of 3,200 children and families 
in 40 Head Start programs and the 2000 sample consists of 2,800 
children and families in 43 different Head Start programs.\7\
---------------------------------------------------------------------------
    \7\ U.S. Department of Health and Human Services. (2003, May). Head 
Start FACES 2000: A Whole-Child Perspective on Program Performance, 2.
---------------------------------------------------------------------------
    Key findings of FACES reveal that:
    <bullet> Head Start narrows the gap between Head Start children and 
the general population of preschool-age children during the Head Start 
program year on the key components of school readiness;
    <bullet> Head Start children leave the program ``ready to learn'';
    <bullet> Head Start children have increased their learning since 
the 1998 Head Start reauthorization as the children in the FACES 2000 
cohort showed greater gains in book knowledge, letter recognition and 
print conventions than had the Head Start children in the 1997 FACES 
cohort; and
    <bullet> Head Start children demonstrated a greater increase in 
vocabulary and early writing than the typical child during the 2000-
2001 program year.
    Despite these convincing results, some critics of the Head Start 
program insist that it is not doing enough to close the learning gap 
between Head Start children and their wealthier peers. It must be 
emphasized that we have the highest expectations for Head Start 
children and insist upon holding them to the highest possible 
standards. At the same time, we have reasonable expectations of what 
can be accomplished after just 1 or 2 years of Head Start. The 
objective of Head Start is to narrow the gap between Head Start 
children and their wealthier peers and to help poor children improve 
their preparation for school and learning. Jeanne Brooks-Gunn, a 
scholar at Columbia University, concludes, ``If policy makers believe 
that offering early childhood intervention for 2 years will permanently 
and totally reduce SES (socioeconomic status) disparities in children's 
achievement, they may be engaging in magical thinking.'' \8\
---------------------------------------------------------------------------
    \8\ Brooks-Gunn, J. (2003). ``Do You Believe in Magic? What We Can 
Expect From Early Childhood Intervention Programs.'' Social Policy 
Report. Society for Research in Child Development, 9.
---------------------------------------------------------------------------
    Nevertheless, seven prominent early childhood education and 
development scholars in a July 9, 2003 letter to members of Congress 
contend, ``. . . what Head Start can do and what a recent U.S. 
Department of Health and Human Services report concludes it can do, is 
bolster children's school readiness.'' \9\ Head Start children have 
shown that they are ready to learn by making progress in both the 
short- and long-term. In a recent study, during the school year Head 
Start children demonstrated increased scores in vocabulary, early 
writing and early mathematics.\10\
---------------------------------------------------------------------------
    \9\ Letter from seven Early Childhood Education and Development 
Experts to Members of Congress. (2003 July, 9), 1.
    \10\ U.S. Department of Health and Human Services. (2003, May). 
Head Start FACES 2000: A Whole-Child Perspective on Program 
Performance, 11-17.
---------------------------------------------------------------------------
                RECOMMENDATIONS FOR THE REAUTHORIZATION

    Head Start remains as important today as it was 38 years ago, 
helping children in poverty get the learning opportunities, nutritious 
meals, health care and social and emotional support they need to enter 
school ready to learn. The founding principles of Head Start--that 
disadvantaged children need comprehensive, quality early education to 
start school ready to learn--are no less critical today than they were 
38 years ago.
    Despite the impressive accomplishments of Head Start, NHSA and the 
entire Head Start community are the first to acknowledge that we can do 
an even better job on behalf of this Nation's neediest children. In 
fact, throughout its history, Head Start has embraced change and has 
never shied away from the kind of critical assessments that have 
sparked the innovative and quality improvements central to the success 
of the program. NHSA recognizes that the program is a dynamic one that 
must constantly seek to improve services for children and their 
families. As such, in the 2003 reauthorization, NHSA has identified and 
is supporting a number of quality enhancements to the program, 
including those discussed below.
    Enhance teacher qualifications. Although our teachers are well 
trained, motivated, and have many years of experience, we agree with 
those who want to continue improving the training of the teachers in 
the Head Start classroom. We understand the importance of teacher 
qualifications. We were the first to insist that all teachers have at 
least a Child Development Associate (CDA) Credential, which is an 
intensive training and assessment of knowledge and practice in early 
childhood education. We worked during the last reauthorization to 
ensure that at least 50 percent of all Head Start teachers have an 
associate degree or better by September 2003--a goal that already has 
been met. Today, we are pleased to support recommendations that call 
for a teacher with a bachelor's degree in every classroom, phased in 
over an 8 year period, and contingent upon additional and adequate 
funding that will allow programs to attract and retain such teachers. 
Specifically, NHSA believes that any new requirement for bachelor's 
degrees should take effect only if adequate and additional funding is 
available for current teachers to return to school to meet this 
requirement and for comparable pay once they have earned such a degree. 
Further, NHSA supports a requirement that at least 50 percent of 
teacher aides/assistants be required to have a CDA by 2008.
    Require every Head Start program to have a career development plan 
for all staff. Many Head Start programs already have career development 
plans to ensure that all staff receive the training they need and want. 
Nonetheless, it would be helpful to require that all Head Start 
programs design career development plans for their staff so that they 
receive the necessary guidance to obtain degrees, training, and the 
specialized knowledge that will better enable them to better serve the 
needs of Head Start children and families.
    Create a new training and technical assistance system. NHSA 
supports the creation of a new training and technical assistance system 
that would address the comprehensive nature of Head Start and focus on 
all the aspects of the Head Start program. This system should include 
coordination with State Head Start Associations and State preschool 
entities. This will not only ensure quality but improve the 
coordination between State preschool programs and Head Start. At a 
minimum, the training and technical assistance set aside must be 
maintained at a level of two percent or greater so we can continue to 
provide necessary professional development. Congress should mandate 
that at least 50 percent of these funds be directed to Head Start 
agencies to facilitate compliance with mandated program performance 
standards. The remaining 50 percent should be designated as follows: 60 
percent for the national training and technical assistance system of 
State training offices and 40 percent for the administration of the 
national CDA credentialing system and other initiatives to assist 
programs in meeting the program performance standards. Congress should 
further insist that no funds appropriated for training and technical 
assistance be used for any purpose other than that stated in the 
authorizing language.
    Strengthen collaboration and strategic State-level planning. As the 
organization that pushed for 50 collaboration grants, we understand the 
need for Head Start to coordinate with other Federal and State early 
care programs. NHSA supports provisions that will encourage 
collaboration and strategic State-level planning among Head Start, 
education and child care programs to deliver services that help 
children succeed in school while meeting the needs of parents. Congress 
also is called upon to provide additional funding that will help these 
State planning activities.
    Increase the Early Head Start set-aside and develop a seamless 
program. More and more research has found that learning begins at an 
earlier age than once was thought to be the case. To address the needs 
of infants, the Early Head Start program was established. This 
successful program currently is serving children pre-natal to the age 
of 3. However, because of a lack of funding, it is estimated that the 
program has been able to serve only about three percent of eligible 
kids.\11\ We believe it is time to make a serious commitment to 
providing seamless services to children pre-natal to the age of 5. To 
accomplish this goal, we propose that the Early Head Start set-aside be 
increased and that Head Start grantees be given the flexibility to 
provide services to children pre-natal to age 5.
---------------------------------------------------------------------------
    \11\ Head Start Bureau data; U.S. Bureau of Labor Statistics and 
the Bureau of the Census. (2001). Table 23. Single Years of Age--
Poverty Status of People in 2001. Accessed at http://
ferret.bls.census.gov/macro/032002/pov /new23--001.htm on October 10, 
2002.
---------------------------------------------------------------------------
    Allow Head Start programs the flexibility to enroll more families 
above the income guidelines and to serve the working poor. Currently, 
Head Start mostly serves families earning at or below 100 percent of 
the poverty level. Right now, a family can be poor enough to receive 
Medicaid and Food Stamps but not be poor enough for Head Start. The 
Head Start Act allows programs to enroll 10 percent of their families 
earning above the poverty line. With the passage of welfare reform in 
1996, many families that now are working find themselves slightly over 
the poverty line and thus ineligible for Head Start. To remedy this 
situation, NHSA proposes that Head Start programs be allowed to serve 
25 percent of their families above the income guidelines. To ensure 
that the most deserving families are served first, safeguards should be 
put in place to ensure programs serve the neediest children before 
reaching beyond the poverty level.
    Fully fund Head Start. Head Start has enough funding to serve about 
six out of every 10 income eligible children. Assuming that 8 out of 10 
income eligible children would like to enroll in Head Start, it is 
estimated that 252,555 income eligible children were unable to enroll 
in Head Start during fiscal year 2003 because of a lack of funding.\12\ 
Unfortunately, the administration's proposed funding increase of $148 
million in fiscal year 2004 is not enough even to keep pace with 
inflation and provides no funds for quality improvements. Fully funding 
Head Start is not a question of money or resources; it is simply a 
question of priorities and values.
---------------------------------------------------------------------------
    \12\ Head Start Bureau data; U.S. Bureau of Labor Statistics and 
the Bureau of the Census. (2001). Table 23. Single Years of Age--
Poverty Status of People in 2001.
---------------------------------------------------------------------------
                         COMMENTS ON H.R. 2210

    As noted above, the government's own research and independent 
studies reach the same conclusion: Head Start is a program that works. 
NHSA shares the president's desire to enhance the literacy and language 
components of Head Start, and to improve the coordination of Head Start 
with State preschool and child care programs. At the same time, it is 
our position that these goals can be met within the structure of the 
current program.
    According to the sponsors of H.R. 2210, the School Readiness Act of 
2003, the main goals of the legislation are to close the school 
readiness gap between young low-income children and other children upon 
entering school and to promote collaboration and alignment at the State 
level between Head Start and other early childhood education programs. 
We agree that these are important goals. However, they are unlikely to 
be achieved under H.R. 2210. Though there are positive aspects of the 
legislation, they are far outweighed by the provisions with which we 
have very serious concerns, and which we believe will undermine the 
program and lead to its dissolution.
    Among our most serious concerns with H.R. 2210 are that it:
    <bullet> Dismantles the national program by allowing eight States 
the option to receive Head Start funds in the form of a block grant 
without full application of the current Head Start Performance 
Standards, adequate accountability, or sufficient coordination 
requirements;
    <bullet> Reduces the Federal commitment to training and technical 
assistance, a key to any strategy aimed at improving program quality; 
and
    <bullet> Establishes a set of significant new goals for Head Start 
programs without providing the funding that would be needed to meet the 
goals.
    It is not apparent to us how shifting Head Start to a block grant 
program to even eight States--without the full application of the 
program performance standards and without adequate accountability or 
sufficient coordination requirements--will do anything to improve the 
quality of Head Start. Instead, such a shift likely will result in 
chaos for the immediate future as cash-strapped States figure out how 
to use the funds. At the same time, sending Head Start dollars to the 
States will most assuredly lead to a dilution of the quality of Head 
Start. While bipartisan Congresses have sought to strengthen the 
program's performance standards and enhance monitoring requirements, 
the administration's plan would instead rely on the good will of debt-
ridden States to ensure quality.
    While Head Start provides low-income children and families with 
high quality and comprehensive services, there is no guarantee these 
standards or services will be maintained if States are given control 
over the funding. Though we don't doubt the sincerity of the States' 
interest in early childhood development, we do know that the States 
vary considerably in the services they provide in their early childhood 
programs. Further, a State's commitment to providing quality 
prekindergarten services can be subject to changing priorities among 
administrations and budget constraints.
    NHSA hopes that Congress will take steps to improve the quality of 
the literacy and language skills training in Head Start programs, 
rather than diverting resources, time, and focus to an untested idea. 
Literacy and language skills training have been part of the mission of 
the program since its inception, and we will work closely with Members 
of the Committee and this Congress to raise the bar for our Nation's 
most vulnerable children. It is our hope, however, that this goal can 
be accomplished without dismantling or weakening the comprehensive 
components of Head Start that are so critical for preparing children to 
succeed in school and to develop strong literacy skills.

                   Prepared Statement of Amy Wilkins

    Mr. Chairman and Members of the Committee, thank you for inviting 
me to speak today. I am honored to join today's panel to discuss the 
reauthorization of Head Start.
    My name is Amy Wilkins. I am the Executive Director of the Trust 
for Early Education (TEE). TEE was established in 2002 to promote high 
quality, voluntary pre-kindergarten programs for all 3- and 4-year-
olds.
    While the school readiness problem is most acute for low-income 
children and children of color, large percentages of middle income and 
white children are entering school without the skills they need to do 
their best. In fact, we know that children who recognize their letters 
before entering kindergarten become stronger readers sooner than 
children who do not. We also know that about one-quarter of white 
children and about one-third of middle class children enter 
kindergarten without knowing their letters. More startling, perhaps, is 
data published last Fall by the Economic Policy Institute, which 
indicates that the math and reading skill levels of children from 
families in the middle socio-economic status (SES) quintile are closer 
to the skill levels of children in the lowest SES quintile--our very 
poorest children--than they are to the skill levels of children in the 
highest SES quintile.
    The global economy is demanding ever higher levels of skill and 
knowledge from all of our citizens. Given this, TEE believes we must 
quickly and comprehensively address the school readiness issue faced by 
this nation and that the most effective response to the issue is high 
quality pre-kindergarten for all.
    TEE works at both the State and Federal levels because we believe 
that it is neither possible nor desirable to build the system that will 
provide access to high quality pre-kindergarten to all children without 
strong coordination between Federal and State policies and funding.
    In the last 13 months, TEE has distributed over $3 million in 
grants to advocates in nine States (Illinois, New York, New Jersey, 
Massachusetts, Pennsylvania, Arkansas, Wisconsin, North Carolina and 
Oklahoma) to help them advance the cause of high quality pre-
kindergarten at the State level.
    Our work at the Federal level has convinced us there is not only 
the need to coordinate Federal policy with State policy more closely, 
but also a need to better coordinate policy between Federal programs 
and agencies. As you work on reauthorizing Head Start, it is critical 
that you coordinate these efforts with the reauthorization of the 
Higher Education Act, which will soon come before you.
    For more than three decades, Head Start has provided pre-
kindergarten for children living in poverty. The program has, without 
question, achieved a great deal of success. The Family and Child 
Experiences Survey (FACES) data from both 1999-98 and 2000-2001 suggest 
that a year of Head Start boosts children's knowledge and skills, and 
narrows the school entry skills gap between them and more affluent 
children.
    Head Start has provided millions of our most vulnerable children a 
foundation of integrated health, nutrition, academic and family support 
services. Nonetheless, when Head Start children enter kindergarten, a 
gap remains.
    Our paramount goal for this reauthorization of Head Start should be 
to improve Head Start in order to narrow the gap even more. As this 
Committee considers the many issues which will arise during this 
reauthorization we urge you to evaluate each policy choice with this 
goal in mind. We ask you to ask yourselves this question: ``Is this 
policy likely to help narrow the school readiness gap?"
    The President and many members of this Committee have noted that 
narrowing the gap will require that Head Start do more to promote 
strong language and literacy skills in the children it serves. We 
agree, but this still begs the question how best to do this. TEE 
believes that the single most important step that this Committee can 
take in this reauthorization to boost early literacy skills of Head 
Start children is to ensure that every Head Start classroom is staffed 
by a lead teacher who has at least a bachelor's degree and specialized 
training in early education. In fact, we believe that all the other 
steps that you may take to narrow the gap and to promote early literacy 
will amount to little without an increase in the percentage of well-
educated Head Start teachers.
    As important as it is for Head Start to do more to enhance the 
intellectual growth of children, it cannot be asked to do so by cutting 
back on other critical services that have demonstrable, positive 
impacts on school readiness. The health, nutrition, and family support 
services that Head Start provides are the foundation of its success and 
must not be compromised. The truism that children who are hungry or 
sick cannot learn has and should continue to guide Head Start policy. 
It is equally true that well-fed, healthy children who are not well 
taught cannot learn either. We cannot sacrifice one aspect of 
children's development to promote another.

     BETTER QUALIFIED TEACHERS LEAD TO BETTER OUTCOMES FOR STUDENTS

    Well-educated teachers improve the quality of pre-kindergarten 
programs by building strong academic skills in children and promoting 
positive social and emotional development. Research indicates that 
literate, engaged, and attentive teachers--teachers with bachelor's 
degrees--help children learn and develop the knowledge and skills they 
need to do well in kindergarten and beyond.
    Strong reading skills are the foundation for success in school and 
in life. Vocabulary is a critical building block for later literacy. 
Research shows that low-income 3-year-olds have vocabularies that are 
only about half the size of vocabularies of 3-year-olds living in our 
most affluent families. As a result, without powerful interventions to 
help build their vocabularies, low-income children have more difficulty 
than their more fortunate peers mastering basic reading skills.
    Research has established a clear link between the number and 
complexity of words spoken by adults--including parents and teachers--
and the number and complexity of words spoken by children. When 
children are exposed to larger vocabularies and more complex speech, 
they respond with greater comprehension and more complex speech 
themselves (Huttenlocher, Vasilyeva, Cymerman, and Levine, 2002). It 
would seem then, that in order to boost vocabularies--and thereby lay 
the foundation for other early reading skills--we must provide Head 
Start children with highly literate teachers who themselves have rich 
and robust vocabularies.
    An analysis by the Educational Testing Service (ETS) suggests that 
adults with bachelor's degrees have higher literacy levels than do 
adults with less formal education. Working with the data from The 
National Adult Literacy Survey, ETS finds that adults with only 
associate's degrees are twice as likely as those with bachelor's 
degrees to have literacy skills below the ``competent'' level. 
Therefore, requiring that Head Start teachers have bachelor's degrees--
not just associate's degrees--will increase the chances that children 
in the program will experience richer, more complex speech, and be 
better able to build stronger vocabularies that are positively 
associated with later reading success.
    The logic of this notion is supported by the findings of The 
National Child Care Staffing Study, which concluded that teachers with 
more formal education were more sensitive than teachers with less 
formal education, and that children with more sensitive teachers 
received higher language scores than did children in classrooms with 
less educated teachers (Howes, Phillips & Whitebook 1992; Whitebook et 
al., 1990).
    But well-educated teachers do more than simply build the framework 
for later literacy. They support strong social and emotional 
development in the children they teach. Three of the largest and most 
reliable studies of early education and care--The Cost Quality and 
Outcomes Study, The Florida Quality Improvement Study, and The National 
Child Care Staffing Study--each found very strong evidence of the 
positive impacts that teachers with bachelor's degrees have on overall 
classroom quality. These studies suggest that teachers with bachelor's 
degrees are:
    <bullet> Less harsh, critical and punitive than teachers with less 
formal education;
    <bullet> Less detached from their students than teachers without 
degrees; and
    <bullet> More engaged with and attentive to their students than 
teachers with less formal education.
    The studies also found that children in classrooms with teachers 
with bachelor's degrees engaged in more creative peer play than did 
children in classrooms with teachers with less formal education. 
Moreover, the studies demonstrated that children in classrooms with 
teachers with more formal education spent less time in ``aimless 
wondering'' than did children in classrooms with teachers with less 
formal education.
    The findings of all of these studies are supported by what we know 
happens in good pre-kindergarten programs. The most powerful and 
renowned early childhood education programs for low-income children--
the programs we all reference when extolling the benefits of pre-
kindergarten for low-income children--such as the Perry Preschool 
Program, the Chicago Parent Child Parent Centers, and the Abecedarian 
Preschool Program are staffed by teachers with at least 4-year degrees. 
Children participating in these programs:
    <bullet> Enter school better prepared to learn;
    <bullet> Are less likely to be retained in grade;
    <bullet> Are less likely to be placed in special education; and
    <bullet> Are more likely to graduate from high school than their 
peers who have not had the benefit of such high quality programs.
    If we want the same results from Head Start, we must staff Head 
Start with the same caliber of teachers employed by these exemplary 
programs.
    Given all of the evidence suggesting that positive outcomes for 
children are strongly linked to the presence of well-educated teachers, 
it should come as no surprise that many of the most respected research 
institutions in the field of early childhood education, including: the 
National Research Council of the National Academy of Sciences, the 
National Institute for Early Education Research, the Frank Porter 
Graham Child Development Institute and the Bush Center in Child 
Development and Social Policy at Yale University, support the notion of 
increasing the percentage of teachers with bachelor's degrees in the 
Head Start program.
    Staffing pre-kindergarten programs for low-income children with 
well-educated teachers is not a revolutionary policy. In fact, many 
States are ahead of the Federal Government in this area. Half of the 
States with pre-kindergarten programs already require that all of their 
teachers have 4-year college degrees. In an area as critical as the 
qualifications of the program's teaching force, Head Start cannot now 
lag behind the State programs that were established to emulate it.

                            WE CAN GET THERE

    Even with solid research pointing to the need to put a teacher with 
a bachelor's degree in every Head Start classroom, there are some who 
say it cannot be done. They insist that asking the program to 
substantially ratchet up the quality of its teaching force may be 
desirable, but that it is unrealistic to ask for so great an 
improvement. TEE believes it can--with will, innovation, coordination 
and resources--be done. Consider the recent success of New Jersey.
    In 1998, the New Jersey State Supreme Court ruled on a school 
finance equity case known as Abbott v. Burke. Part of the Court's 
decision required the State to establish high quality pre-kindergarten 
programs in the 30 highest poverty school districts in the State. The 
court later required that each of these programs be staffed by lead 
teachers with bachelor's degrees within 4 years. At the time of the 
court order about 35 percent of teachers in the pre-kindergarten 
programs in Abbott districts held bachelor's degrees. Today, about 80 
percent of the teachers in these programs hold 4-year degrees and State 
certification. Kindergarten and first-grade teachers in the Abbott 
districts are already reporting that children are coming into their 
classrooms better prepared than in the past.
    In order to raise teacher qualifications in accordance with the 
court order, the State created and executed a plan that included:
    <bullet> Realistic but ambitious timelines;
    <bullet> A strengthened and improved teacher education 
infrastructure;
    <bullet> Scholarships, release time, and substitutes for teachers; 
and
    <bullet> Improved teacher compensation and attempts to reach salary 
parity with kindergarten teachers.
    Today, TEE and the Schumann Fund for New Jersey are releasing a 
paper on what it took for the State of New Jersey to meet the court 
mandate. The New Jersey experience provides important lessons that I 
hope this Committee will consider.
    Not all of the steps that New Jersey has taken can be addressed 
through the Head Start bill, but this Committee also has jurisdiction 
over the approaching reauthorization of the Higher Education Act. By 
coordinating policy between the two bills and using the resources of 
Head Start and Titles II, III and IV of the Higher Education Act, the 
Committee can lay the foundation of a strong system that will make it 
possible not only for every Head Start classroom to have a lead teacher 
with a bachelor's degree and specialized training in early education by 
2011--but also to improve the qualifications of teachers working in all 
settings that serve 3- and 4-year-old children.

             THE TRUST FOR EARLY EDUCATION RECOMMENDATIONS

    We strongly urge this Committee to require all Head Start teachers 
have bachelor's degrees with specialized training in early education 
within 8 years. The House's action on this issue, while significant and 
laudable, is limited. If, as a national average, only half of the 
teachers in Head Start are required to have a bachelor's degree, it is 
very possible that not a single State represented on this Committee 
would see any improvement in the number of teachers with bachelor's 
degrees.
    While TEE is pleased that the House Committee has recognized the 
need to increase the percentage of well-educated teachers in Head 
Start, we call on the Senate to build on and expand on the work of the 
Education and Workforce Committee by both increasing the percentage of 
teachers with bachelor's degrees in Head Start classrooms beyond the 
level established in the House bill and making the resources available 
to educate, attract and retain those teachers.
    TEE has estimated the cost of providing Head Start teachers with 
scholarships and other supports needed to earn bachelor's degrees at 
about $1 billion. We have estimated the cost of appropriate increases 
in Head Start teacher salaries at about $6 billion over 8 years, with 
about $3 billion needed by the end of this reauthorization to put the 
program on a solid path to reach the final goal. Some may balk at 
theses costs; however, we believe that they are an indispensable 
investment in better school readiness outcomes for Head Start children.
    In addition, TEE supports several other changes to the Head Start 
law to enhance the quality of the teaching force, including:
    <bullet> Adding a requirement for annual center-by-center public 
reporting on the educational attainment of all teachers. This will help 
parents, the public, and Congress better monitor progress toward the 
important teacher education goal established by this bill.
    <bullet> Amending the existing sections of the law which outline 
requirements for Head Start programs' salary scales to require that 
they relate directly to the level of teachers' formal education. It is 
entirely reasonable for the Federal Government to demand higher levels 
of formal education for Head Start teachers. However, as we demand more 
education from them we must compensate them at higher levels.
    If we require that Head Start teachers have bachelor's degrees and 
specialized training in early education, we will be requiring that they 
meet essentially the same requirements that most States have 
established for their kindergarten teachers. As it currently stands, 
Head Start teachers with bachelor's degrees earn only half as much as 
public school kindergarten teachers. Without improved wages, Head Start 
teachers with bachelor's degrees will not stay in Head Start programs. 
In New Jersey, which experienced mixed success in raising compensation 
for degreed teachers, 17 Head Start centers lost 125 certified teachers 
in 3 years. Such high turnover will not only limit Head Start's ability 
to improve quality, but high turnover will also be detrimental to 
children's social and emotional development which depends, at least in 
part, on their ability to build long term trusting relationships with 
their teachers. Raising Head Start teacher salaries so that they are 
commensurate with those of kindergarten teachers with similar 
credentials will encourage the best teachers to stay in Head Start and 
will help attract a new, highly educated workforce of potential 
teachers for Head Start.
    The issue here, however, is more than an issue of increased 
investment; it is also a question of coordinated policy between Federal 
programs. This Committee will undoubtedly spend a great deal of time 
discussing how Head Start programs can be coordinated with State pre-
kindergarten programs. The Trust for Early Education is eager to 
participate in these discussions in order to help create a system that 
is dedicated to providing access to high quality pre-kindergarten to 
all children. But we would urge you to remember the need for 
coordination between Federal programs as well. The New Jersey success 
story is largely a story of coordinated effort. When this Committee 
takes up the Higher Education Act we recommend that you:
    <bullet> Expand the use of Title II funds to cover the improvement, 
expansion and creation of post-secondary education programs for 
preparation of pre-kindergarten teachers as well as K-12 teachers as 
the House did in H.R. 2211;
    <bullet> Expand the provision of Title II which provides loan 
forgiveness to K-12 teachers working in high-poverty schools to include 
teachers in Head Start and other pre-kindergarten programs serving low-
income children.
    <bullet> Attend to student aid policy that may make it difficult 
for Head Start teachers and other working adults to balance the demands 
of work, family and post-secondary education; and
    <bullet> Encourage greater cooperation between 2- and 4-year 
colleges around the transfer of course credits.

                               CONCLUSION

    Head Start has been successful for so long because it has evolved 
and incorporated the best research into its programs and practices. The 
single best way to continue to improve the quality of Head Start is to 
ensure that teachers with a bachelor's degree and specialized training 
in early education lead each and every Head Start classroom. It is time 
to follow the best models and give Head Start children the best chance 
for success.
    Thank you for allowing me this opportunity to testify.

             Prepared Statement of Catholic Charities USA

    Catholic Charities USA is a national network of 1,600 local 
Catholic Charities agencies and institutions working to reduce poverty, 
support families, and build communities throughout the United States. 
Catholic Charities programs serve over 10 million people of all 
religions--and no religion--and of every racial, ethnic, and social 
background. Catholic Charities agencies have operated Head Start sites 
since the program's inception in 1965 and currently serve over 20,000 
children directly in Head Start programs. Catholic Charities agencies 
also serve hundreds of thousands of Head Start children and their 
families through other services such as wrap-around child-care, family 
counseling, job training and housing.
    As the Senate prepares legislation, we would like to offer the 
following recommendations for maintaining and improving the quality of 
the Head Start program. These come from our 38 years of experience in 
running the Head Start program, as well as reaction to the ``School 
Readiness Act of 2003'' (H.R. 2210) that is pending in the House.
    First, we support maintaining Head Start as a Federal program that 
directly funds local sponsoring organizations. It is hard to see what 
is to be gained by adding an additional State layer of governmental 
bureaucracy to Head Start, as is proposed in H.R. 2210. Local 
communities, including the parents of children in Head Start, are best 
able to discern what the children of that community need. Local faith-
based organizations, community centers and schools that are known and 
trusted run many Head Start programs. Involving parents in the program 
is the hallmark of Head Start.
    Head Start helps children succeed in school, not by just teaching 
children reading readiness, but also by strengthening their families 
and teaching parents so that they can then help teach their own 
children. For example, in the fall of 1979, Julia, a single mother of 
three, enrolled two of her three children in a Catholic Charities Head 
Start program located in a housing project in Cleveland. Julia had 
heard about the Head Start program from another Head Start parent at 
the laundry-mat. Julia was shy, introverted and somewhat non-responsive 
to the questions asked during the intake process, and the Family 
Service Worker had to repeat most of the questions. Julia seemed to 
lack confidence when questioned about goals for her family.
    At first, Julia seldom volunteered in the classroom nor attended 
the monthly parent meetings, so Head Start staff made a series of home 
visits, which encouraged Julia to participate in parent activities at 
the Head Start center.
    With the support of Head Start staff, Julia decided to enroll in 
adult education classes and earned her high school diploma. A Head 
Start Family Service Worker provided her tutoring, and Julia graduated 
from the program in 1981. She then began working for Head Start as a 
part-time Family Service Worker. It has been almost 26 years since 
Julia first walked into the Head Start center.
    Julia now has a bachelor's degree in social work from a local 
university, supervises a staff of seven and has set a remarkable 
example for her own children. Julia is just one of many who have never 
forgotten the difference Head Start made in their lives and made them 
better parents.
    We acknowledge and applaud the efforts of Congress to encourage 
partnerships between government and faith-based organizations. 
Nonetheless, faith-based organizations could encounter new obstacles to 
sponsorship of Head Start if Title II of the House bill, which would 
allow eight States to take over administration of the program, were to 
become law. Thirty-seven States have some version of the Blaine 
amendment in their constitutions or statutes that could prohibit 
contracts between their State departments of education--the likely 
State administering agencies--and religious organizations. Moreover, 
State education establishments are likely to view public schools and 
secular agencies, their traditional constituencies, as the natural 
choice for administering Head Start programs.
    Even with a workable correction in this area, Catholic Charities 
USA has very serious concerns about giving States control of Head 
Start. State budget shortfalls are already forcing severe cuts in 
programs for children and families, including many States' own early 
childhood efforts. The current capacity of State Governments to 
exercise leadership and responsibility for Head Start is very 
questionable. States have already begun to make dramatic cuts in early 
childhood programs. For example, Ohio has lowered eligibility for 
child-care subsidies from 185 percent of the Federal poverty level to 
165 percent of the Federal poverty level, and Massachusetts made a $10 
million cut to their school readiness program. Additionally, State 
education departments are struggling to implement the ``No Child Left 
Behind Act'' without the promised increased in Federal funds. It is 
hard to see how the State ``demonstration projects'' would contribute 
more than another layer of bureaucracy.
    One of the concerns of Congress is a lack of collaboration between 
Head Start programs and State educational programs. Our experience is 
that Head Start programs do collaborate with State educational 
programs, albeit sporadically. Fostering collaboration could be 
achieved without surrendering control over Head Start to the States. 
For example, Head Start grantees could be required to demonstrate in 
their applications how they will collaborate with pre-school and other 
early childhood programs. In addition, States could be required, as a 
condition of receiving Federal ESEA funding, to show how they 
coordinate and collaborate with Head Start programs.
    The ``School Readiness Act of 2003'' raises further concerns and 
questions for us. While encouraging and rewarding Head Start programs 
for hiring teachers with Bachelor's degrees is a positive step, rapid 
implementation may be difficult.
    <bullet> Head Start teachers currently are paid $21,000 annually on 
average.
    <bullet> Once Head Start teachers have a degree, they will be 
recruited by public schools for elementary grade levels where they will 
receive pay better and have full benefits.
    It is our hope that legislation proposed in the Senate will 
recognize the comprehensive nature of Head Start. Any reauthorization 
of Head Start should include a commitment to health and nutrition, 
social and cognitive development and services reducing or eliminating 
any barriers to a child's success in school. Head Start recognizes that 
a child is part of a family system. Family problems and challenges: 
loss of income, siblings with problems, violence at home or in the 
community, all affect the ability of a child to learn. For example, 
Jerry, a 4 year-old, who was enrolled in a Catholic Charities Head 
Start class, had a 15 year-old brother who was involved in a gang and 
had started skipping school, creating stress and conflict in Jerry's 
home. Jerry's Head Start teachers knew about the situation, because 
they could see the effects on Jerry who was misbehaving and unable to 
focus. The Head Start staff reached out to the family and offered 
resources to help Jerry's brother to get out of the gang and back into 
school. This intervention not only improved the home environment, but 
also provided Jerry and his brother an opportunity to succeed in 
school. It is unclear whether States would continue this highly 
effective and comprehensive approach to Head Start.
    We would like to acknowledge the Department of Health and Human 
Services' hard work to improve the quality of Head Start by increasing 
accountability, increasing training and professional development, and 
integrating school readiness into the program since the last 
reauthorization. In addition, the agency has continued to prioritize 
the comprehensive services of health, nutrition, and social skills that 
make Head Start such a high quality program.
    Catholic Charities USA supports a reauthorization of Head Start 
that improves upon, but remains consistent with the original design of 
the program, ``to help break the cycle of poverty by providing 
preschool children of low-income families with a comprehensive program 
to meet their emotional, social, health, nutritional and psychological 
needs.'' We urge you to support a reauthorization that would:
    <bullet> maintain the integrity of the Head Start Program;
    <bullet> provide funding to serve all eligible children;
    <bullet> increase resources to enhance literacy, numeracy and 
school readiness skills; and
    <bullet> improve teacher training and professional development.
    In addition, we support the proposal in H.R. 2210 to apply to the 
Head Start program the provisions of Title VII of the Civil Rights Act, 
which allows religious organizations to consider religion in employment 
decisions.
    We encourage members of the Senate to rigorously examine the Head 
Start program so that low-income children may receive the best pre-
school education available. However, we caution against any major 
``experimentation'' with this successful program. These children only 
have 2 years to get ready for school. They will not get those years 
back if the experiment fails.
    Your efforts to bring sufficient funding and enhanced quality to 
the reauthorization of the Head Start Program will afford many poor 
children ages 0-5 and their families an opportunity for a comprehensive 
early educational experience. Catholic Charities USA will be happy to 
continue working with you in this regard.

                      Statement of Stanley B. Peck

                              INTRODUCTION

    The American Dental Hygienists' Association (ADHA) appreciates this 
opportunity to submit testimony regarding ``Reauthorizing Head Start: 
Preparing Children to Succeed in School and in Life.'' ADHA applauds 
the Senate Committee on Health, Education, Labor and Pensions for 
holding this important hearing on Head Start.
    ADHA is the largest national organization representing the 
professional interests of the more than 120,000 dental hygienists 
across the country. Dental hygienists are preventive oral health 
professionals who are licensed in each of the fifty states. Dental 
hygienists across the country provide oral health services to Head 
Start children. Please visit ADHA's web site at < < www.adha.org > > .
    As prevention specialists, dental hygienists understand that 
recognizing the connection between oral health and total health can 
prevent disease, treat problems while they are still manageable and 
conserve critical health care dollars. Dental hygienists are committed 
to improving the nation's oral health, an integral part of total 
health. Indeed, all Americans can enjoy good oral health because the 
principal oral maladies (caries, gingivitis and periodontitis) are 
fully preventable with the provision of regular preventive oral health 
services such as those provided by dental hygienists.
    The Head Start program is designed to foster healthy development in 
low-income children and includes a program service area in health. 
According to the Head Start Bureau, ``Wellness is recognized as a 
significant contributor to each child's ability to thrive and develop. 
Accordingly, health screenings evaluate the child's overall health 
status and regular health checkups and good practices in oral health, 
hygiene, nutrition, personal care and safety are incorporated into the 
program.'' Head Start is the largest federal program with early 
childhood development and school readiness as its primary focus, and is 
the centerpiece of the federal government's efforts to prepare the 
nation's most disadvantaged children for school. ADHA strongly supports 
the Head Start program and applauds its recognition that good oral 
health is a fundamental part of the wellness essential to success in 
school.

BLOCK GRANTING HEAD START WOULD THREATEN THE ESSENTIAL HEALTH COMPONENT 
                             OF THE PROGRAM

    ADHA is pleased that the Senate HELP Committee's reauthorization of 
Head Start is not expected to include President Bush's proposal for a 
pilot program to block grant Head Start in eight states. The block 
grant proposal threatens to dismantle the existing federal system which 
has effectively served at-risk children for nearly forty years. 
Changing Head Start to a block grant jeopardizes the health component 
of Head Start. This committee's effort to preserve Head Start as a 
federal program will ensure that poor children throughout the United 
States will have access to the medical care that is requisite to ensure 
that a child can learn. The health component of Head Start is vital to 
ensure that Head Start children are prepared to succeed in school. 
Indeed, sound health is a foundation for advancement in learning and 
social development.

                     ENSURING ACCESS TO DENTAL CARE

    An astounding number of children under the age of five suffer from 
dental disease. Dental caries (tooth decay) is the single largest 
health problem among children. Dental caries is five times more common 
than asthma. Although dental caries is both treatable and preventable, 
many children fail to receive the proper dental screening needed to 
ensure treatment or prevention of the disease.
    The General Accounting Office (GAO) has confirmed in two separate 
reports to Congress that ``dental disease is a chronic problem among 
many low-income and vulnerable populations'' and ``poor children have 
five times more untreated dental caries (cavities) than children in 
higher-income families.'' The GAO further found that the major factor 
contributing to the low use of dental services among low-income persons 
who have coverage for dental services is ``finding dentists to treat 
them.'' Increased utilization of dental hygiene services--appropriately 
linked to the services of dentists--is critical to addressing the 
nation's crisis in access to oral health care for vulnerable 
populations. Indeed, ADHA is committed to working with Congress to 
improve access to oral health care services, particularly for our 
nation's children.
    Children coping with severe dental problems suffer acute tooth ache 
and pain, thus inhibiting them from concentrating on learning in the 
classroom. These children miss twelve times as many days for dental 
problems compared to those children with access to dental care. Failure 
to correct dental problems at an early age can lead to a young adult's 
decreased desire to thrive in school, lower self esteem, and speech 
impediments.
    Head Start has been overwhelmingly successful with providing at-
risk children with dental care when Medicaid and SCHIP have fallen 
short. Disadvantaged preschoolers enrolled in Head Start are three 
times more likely to receive a dental screening compared to other 
disadvantaged children in Medicaid. In 2001, 81% of children in Head 
Start received a dental screening. Thirty percent of those children 
screened needed dental care, and 77% of them received it. By contrast, 
the GAO estimates that only 21% of two to five year olds below the 
poverty line received dental screening. This concrete evidence 
demonstrates that Head Start plays a vital role in ensuring that poor 
children not only have health insurance coverage but that they actually 
receive dental care.
    Establishing Head Start as a block grant to states lifts stringent 
federal regulations, such as delineating when a child should receive 
medical care, attached to Head Start funding. Currently, federal 
regulations require Head Start grantees to assist with establishing a 
dental home for children, to provide oral screenings by dental 
professionals, to help families schedule appointments and coordinate 
treatment with a local dentist, and to follow-up on documented dental 
problems. Given Medicaid's already poor dental coverage for 
disadvantage children, preschoolers could be left with very limited or 
no dental coverage with relaxed regulations.

            STRENGTHENING HEAD START'S ORAL HEALTH COMPONENT

    With the reauthorization of Head Start before the Senate HELP 
Committee, committee members have a momentous opportunity to improve 
and strengthen an invaluable federal program that provides America's 
poor children with wonderful educational and developmental experiences. 
In addition to rejecting the President's block grant proposal, we urge 
the committee to consider: supporting and expanding interagency 
activities between Head Start and the Maternal and Child Health Bureau 
at the Health Resources and Services Administration; ensuring that any 
Medicaid reform effort does not alter currently required pediatric 
dental and health benefits in Medicaid's EPSDT program; and encouraging 
Early Head Start to update its performance recommendations that dental 
supervision begins by the age of one.

                               CONCLUSION

    In closing, the American Dental Hygienists' Association appreciates 
this opportunity to provide written testimony on ``Reauthorizing Head 
Start: Preparing Children to Succeed in School and in Life.'' ADHA 
understands the need to improve Head Start's results within math and 
literacy; however, we do not believe the solution lies in cutting the 
health component of the program. Indeed, the health aspect of Head 
Start has been remarkably successful with ensuring proper medical care 
for participants when other government programs have failed. The 
cornerstone to learning is sound health. ADHA is committed to working 
with lawmakers, educators, researchers, policymakers, the public and 
dental and non-dental groups to improve the nation's oral health which, 
as Oral Health in America: A Report of the Surgeon General so rightly 
recognizes, is a vital part of overall health and well-being.
    Thank you for this opportunity to submit the views of the American 
Dental Hygienists' Association. Please contact our Washington Counsel, 
Karen Sealander of McDermott, Will & Emery (202/756-8024), with 
questions or for further information.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                        Statement of Manda Lopez

    Thank you Chairman Gregg, Ranking Member Kennedy and honorable 
members of the Health Education, Labor and Pensions Committee for this 
opportunity to submit testimony. It is critical that an open discussion 
take place regarding the changes that are being proposed for the 2003 
Head Start Reauthorization and that particular attention be paid to 
some of our nation's most vulnerable children.
    I submit this testimony on behalf of the 28 Migrant and Seasonal 
Head Start programs that are members of the National Migrant and 
Seasonal Head Start Association and the parents and children they 
serve.
    Our message to you regarding reauthorization of Head Start is 
twofold. First, we urge you to consider the unique nature of Migrant 
and Seasonal Head Start programs as you craft the reauthorization 
legislation and we support maintaining the Migrant and Seasonal Head 
Start Programs Branch as a critical step in that direction. Secondly, 
we urge you to ensure that this legislation devotes additional 
resources to Migrant and Seasonal Head Start in order to address the 
documented funding shortfall that prevents more than 80% of the 
eligible children from receiving services through our programs.

             BACKGROUND ON MIGRANT AND SEASONAL HEAD START

    As you know, Migrant and Seasonal Head Start programs were launched 
as a response to the needs of migrant farmworker families and our 
programs are designed to address the specific needs and challenges 
faced by these families.
    Migrant and seasonal farmworkers work in various sectors of our 
nation's agriculture industry--from harvesting to sorting to processing 
and everything in between. While it is hard work and requires special 
skills, most farmworker families earn less than $10,000/year and have 
no health benefits according to a study submitted to Congress in 2000 
by the United States Department of Labor.
    Due to the nature of farm labor, children need full day services--
often from 6 a.m. to 6 p.m. and often 6 days a week. In many states, 
Migrant and Seasonal Head Start programs operate from May to October, 
rather than the typical school year schedule, and of course, many of 
the families and children are on the move for much of the year and need 
services at different times, in different states and locations.
    Migrant and Seasonal Head Start programs serve nearly 32,000 
migrant children and nearly 2,500 seasonal farmworker children 
annually, operating in 38 states in every region of the country. 
Migrant and Seasonal Head Start programs were the first Head Start 
programs to serve infants and toddlers and today more than two-thirds 
of the children in the program are infants and toddlers.
    For migrant and seasonal farmworker families having access to Head 
Start is a public health and safety issue. In 1992, the General 
Accounting Office found that at least one-third of all migrant 
children, as young as 10, work in the fields with their families either 
to contribute to the family income or because no child care was 
available. It can easily be argued that a lack of services in this 
situation contributes to child labor in this country. Children in the 
field are at risk of injuries from farm equipment, over exposure to the 
elements, pesticide poisoning, and of course the long term health risks 
associated with exposure to chemicals. In many cases, if a slot is not 
available in a Migrant and Seasonal Head Start program or no Migrant 
and Seasonal Head Start program exists in the area there is no 
alternative but to take a child to the field or perhaps leave them 
unattended in the labor camp.

ENSURE THAT THE UNIQUE ELEMENTS OF MIGRANT AND SEASONAL HEAD START ARE 
                               ADDRESSED

    We recommend that the following issues be addressed in the 
reauthorization legislation to ensure that the unique elements of 
Migrant and Seasonal Head Start are maintained and that the particular 
barriers that face our programs are taken into consideration.

Federal Programs Branch or Migrant and Seasonal Head Start
    We feel strongly that the Federal Programs Branch for Migrant and 
Seasonal Head Start be maintained. Over the past year we have voiced 
concern with how Migrant and Seasonal Head Start programs would be 
treated if states were granted some or all authority to administer Head 
Start program funds and we have consistently urged both the 
Administration as well as members of Congress to consider the unique 
elements of Migrant and Seasonal Head Start Program when exploring the 
state option proposal.
    There are several reasons for maintaining the federal branch for 
Migrant and Seasonal Head Start. First, the vast majority of children 
in Migrant and Seasonal Head Start are migrants and often reside in 
more than one state through the course of the year. It is unrealistic 
to expect that states would or could provide services to temporary 
residents. Secondly, Migrant and Seasonal Head Start programs are 
unique in that they provide full day services and are targeted to 
harvesting seasons which vary from state to state. And lastly, the 
majority of children served in Migrant and Seasonal Head Start are 
infants and toddlers, who with their parents are learning a second 
language. Loss of this specialized early involvement would be a huge 
step backward when considering the brain development research regarding 
emergent literacy.

Training and Technical Assistance
    Due to the unique needs of Migrant and Seasonal Head Start 
programs, training and technical assistance is critical to the 
programs. While changes are currently being made by the Head Start 
Bureau to streamline training, it is the hope of Migrant and Seasonal 
Head Start programs that the training model will take into 
consideration the approaches to training and technical assistance that 
have been historically successful for our programs.
    The mobility of our families and the specific linguistic and 
culturally relevant needs are among the factors that should be 
considered when designing a training model in addition to the fact that 
we have programs operating in 38 states and as families cross state 
lines for work our programs are working to see that they continue to 
have access to services.
    Therefore it is far more efficient to maintain the federal nature 
of the TA for the same reasons that the program funds have been 
maintained. For instance the Migrant and Seasonal Head Start programs 
come together for an annual training conference funded by Training and 
Technical Assistance funds which ensures that our professional staff 
are receiving program specific training. Issues such as transitioning 
children and their records from state to state and how to better 
coordinate the transition of records so that children's health records 
follow them and as a result children are not receiving multiple 
immunizations. For children with special needs their records and IEP's 
(Individualized Education Program) or ISFP's (Individualized Family 
Service Plans) follow them as well so that programs can continue 
therapy without a delay in services.
    If all technical assistance funds are directed to specific 
activities such as assisting local Head Start Agencies or programs to 
meet performance standards, we urge you to include specific language 
setting aside funds to support the training and technical assistance 
needs of Migrant and Seasonal Head Start Programs. Unless specifically 
named in the statute we fear that the training and technical assistance 
needs of Migrant and Seasonal Head Start programs will be overlooked.

Quality Standards
    Migrant and Seasonal Head Start programs and the children and 
families they serve have unique needs that must be accommodated in the 
development and enforcement of quality standards and we would like to 
see language included in the Senate bill to ensure that the rural and 
short-term nature of Migrant and Seasonal Head Start programs are taken 
into account when developing standards.

Staff Qualifications and Development
    Migrant and Seasonal Head Start programs face unique challenges in 
hiring and retaining staff. In contrast to the Early Head Start year 
with 260 days, and the Regional Head Start typical year with 160 days, 
Migrant and Seasonal Head Start programs operate anywhere from 20 days 
(four weeks) to 189 days (nine months). Because these programs operate 
in some of the most rural areas in the nation, it is difficult to find 
staff that meet minimum qualifications, especially for the short-term 
programs. Programs spend considerable funds training staff and once 
staff meet the qualifications, they often leave for longer term, more 
stable employment. This results in staff retention issues and a low 
percentage of staff who meet current minimum qualifications.
    Rural programs are forced to recruit from a limited pool of 
applicants including program parents especially where programs require 
bilingual staff. In addition, many staff and parents are monolingual 
Spanish speaking and must therefore learn English prior to being 
eligible to participate in local associate degree programs.
    It is critical that Migrant and Seasonal Head Start programs have 
adequate access to technical assistance and training funds to support 
their ongoing teacher training and support needs. We have advocated 
that in allocating technical assistance and training resources some 
priority consideration be given to areas where there is a shortage of 
qualified personnel. Such a priority would be of great help to Migrant 
and Seasonal Head Start programs as well as other rural or short term 
programs facing similar challenges in securing and maintaining training 
staff.

  ENSURE ADDITIONAL FUNDS FOR MIGRANT AND SEASONAL HEAD START PROGRAMS

    Ensuring that a federal branch for Migrant and Seasonal Head Start 
is maintained is critical but without additional funds directed to our 
programs we still face the realty that only 19% of the children 
eligible for Migrant and Seasonal Head Start are being served.
    The last Head Start reauthorization bill, the Coats Human Services 
Amendments of 1998 (P.L. 105-285), established eligibility for children 
of seasonal farmworkers and instructed the Department of Health and 
Human Services (HHS) to study the need and demand for Migrant and 
Seasonal Head Start programs. The HHS study, The Descriptive Study of 
Seasonal Farmworker Families, was released in September 2001, and 
documents that only 31,400 out of 161,400 (19%) of eligible migrant and 
seasonal children are served through existing Migrant and regional Head 
Start Programs. By comparison, Regional Head Start programs serve 
approximately 60% of their eligible population.
    We urge you to build on the progress made in the last 
reauthorization bill by making sure that more eligible children have 
access to Migrant and Seasonal Head Start programs. We can now point to 
an HHS study that documents the unmet need and we ask that the statute 
direct additional funds to Migrant and Seasonal Head Start programs to 
address the documented need.
    Over the last eight years, Migrant and Seasonal Head Start programs 
have consistently received less than 4% of the Head Start annual 
appropriation.
    The Migrant and Seasonal Programs are funded, along with Indian 
Head Start, children with disabilities, technical assistance, program 
review, research and demonstrations, out of a 13% statutory set aside 
from the annual Head Start appropriation.
    Based on current program funding it would cost an additional 
$750,000,000 to achieve parity between the Migrant and Seasonal Head 
Start and the Regional Head Start. Such an increase would bring current 
funding from $250,000,000 to over $1,000,000,000 and enable Migrant and 
Seasonal Head Start to serve 60% of the eligible population.
    While completely closing this funding gap between Migrant and 
Seasonal Head Start and Regional Head Start may be unrealistic in the 
near future, we urge you to consider making the following statutory 
changes designed to increase funding for Migrant and Seasonal Head 
Start programs and move them towards parity with regional Head Start 
programs.

                   WE RECOMMEND THE FOLLOWING STEPS:

    First, we recommend that language be included in the statute to 
ensure that Migrant and Seasonal Head Start receive at least 5% of the 
appropriated funds. The funding of our programs is currently at the 
discretion of HHS and programs have never received more that 4% of the 
funds appropriated annually.
    Secondly, we recommend that language be included in the statute to 
ensure that Migrant and Seasonal Head Start programs can access Early 
Head Start funding: While Migrant and Seasonal Head Start Programs 
serve both infants and toddlers the programs do not have access to the 
Early Head Start Funds that are available to Regional Head Start 
Programs. Early Head Start Funds are only available to full year 
program and leaves Migrant and Seasonal Programs to provide full day 
services to both infants and toddlers without the benefit of these 
extra program funds or technical assistance funds.
    I appreciate this opportunity to share the concerns of the National 
Migrant and Seasonal Head Start Association and I would be happy to 
answer any questions that you or your staff might have related to our 
programs or our policy recommendations. Thank you.

                     Statement of the Navajo Nation

                              INTRODUCTION

    Mr. Chairman and members of the Committee, the Head Start program 
is of critical importance to the health and welfare of Navajo children. 
Head Start enables the Navajo Nation to invest in its most valuable 
resource, the children of the Navajo Nation. On behalf of the Navajo 
people, I thank you for this opportunity to present our concerns and 
recommendations regarding proposals before Congress to change the Head 
Start program.

                               BACKGROUND

    The Navajo Reservation is geographically as large as Rhode Island, 
Delaware, Connecticut, Massachusetts and Maryland combined. The 
unemployment rate on the Navajo Nation currently ranges from 36% to 
50%. Our per capita income is $6,123 which is less than one third of 
its state neighbors, Arizona and New Mexico. The Navajo Nation 
Department of Head Start (NNDOHS) serves nearly 6,500 children who 
otherwise would not receive comprehensive services. Navajo children 
alone represent one third of all Native American children who receive 
Head Start services throughout the United States.
    The Navajo Nation Department of Head Start (NNDOHS) is one of the 
largest Head Start organizations operating in the United States today. 
In fact, they are one of only ten super grantees recognized by the 
Department of Health and Human Services. The 5 Head Start Agency 
offices of the Navajo Nation must serve a growing population whose 
birth rate is 21.7 per 1,000 compared to the U.S. at 14.8 per 1,000.
    Since its inception in 1965, NNDOHS has taken on new initiatives to 
provide comprehensive health, educational, nutritional, socialization 
and related cultural services to promote school readiness. NNDOHS 
provides medical, dental screenings and nutritional meals to students. 
Parenting classes and counseling services are also offered to Head 
Start families on the Navajo Nation with a special component for career 
development to help Navajo parents provide better lives for their 
children.
    NNDOHS is nationally distinguished as the only Head Start that 
offers programs to preserve culture and language. Navajo Nation 
believes that Navajo Language and culture are an integral part of the 
whole child. Language and culture is a way of life that defines one's 
self-identity and self-esteem. It is the hope of the NNDOHS to aid in 
the preservation of the Navajo language and culture.

                                 ISSUE

    The Navajo Nation has two primary concerns related to changes 
reflecting President Bush's proposal to Head Start programs. The first 
is moving existing Head Start programs from the Department of Health 
and Human Service to the Department of Education. The second point of 
contention regards the delegation of Navajo Head Start authority to 
States under the proposed demonstration project. The following is a 
brief outline of these concerns:
    1. The Navajo Nation believes transferring responsibility and by 
extension, services, from HHS to the Department of Education would 
alter how services are currently provided to Navajo children. Due to 
the remoteness and unmet transportation needs of several communities, 
many children are unable to reach hospitals for regular check ups and 
other child health care needs. In turn, Navajo head start centers 
become providers of this service. Considering the high unemployment and 
poverty rates of the Navajo Nation, it is safe to say that without Head 
Start many children would go to school hungry. In some instances, the 
meals children receive through the head start program are the only 
reliable means of getting a good breakfast and lunch. The transfer does 
not guarantee that these essential program components such as 
comprehensive services, career development of community residents, and 
extended day services meeting the needs of working parents will be 
sustained.
    2. The Navajo Nation believes the proposed state demonstration 
project would create uncertainty and chaos for communities like the 
Navajo Nation that reside in more than one state. The Navajo Nation is 
located within Arizona, New Mexico, and Utah. If any of these states 
were to become a demonstration site, the Navajo Nation would be thrust 
into a gulf of uncertainty as to how to reconcile state and federal 
Head Start regimes.
    Furthermore, such a state demonstration project would undermine the 
government to government relationship between tribes and the United 
States government, forcing the Navajo Nation to seek Head Start funding 
from a state that may very well view tribal interests as threatening 
there own. Our experience has been that when federal dollars that are 
intended for tribes are passed through states the money often does not 
make it to the reservation. Federal transit funding is a case in point. 
States are supposed to pass through a proportionate amount of their 
federal transit funds to tribes located within a state. However, states 
typically do not permit this pass through.

                            RECOMMENDATIONS

    Ensure that Head Start remains within the Department of Health and 
Human Services and not be moved to the Department of Education to 
ensure that children continue to receive comprehensive services with 
strong parental involvement.
    Exempt the American Indian Alaskan Native Program Branch from State 
demonstration projects to protect the government-to-government 
relationship as well as the delivery of federal funding to tribal 
communities.

                               CONCLUSION

    On behalf of the Navajo people, I urge this Committee to consider 
how changing the Head Start program will effect your most vulnerable 
and neglected constituents-the Native American people.

    [Whereupon, at 11:40 a.m., the committee was adjourned.]


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
